<html>
<title> - RECENT WASHINGTON D.C. AIRSPACE INCURSIONS AND REOPENING REAGAN NATIONAL AIRPORT TO GENERAL AVIATION</title>
<body><pre>[Senate Hearing 109-354]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-354

    RECENT WASHINGTON D.C. AIRSPACE INCURSIONS AND REOPENING REAGAN 
                  NATIONAL AIRPORT TO GENERAL AVIATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                   U.S. GOVERNMENT PRINTING OFFICE
26-701 PDF              WASHINGTON : 2006
________________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 2005.....................................     1
Statement of Senator Allen.......................................    21
    Prepared statement...........................................    21
Statement of Senator Burns.......................................     2
    Prepared statement...........................................     3
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Lautenberg..................................    27
    Prepared statement...........................................    27
Statement of Senator E. Benjamin Nelson..........................    20
Statement of Senator Rockefeller.................................    24
    Prepared statement...........................................    26
Statement of Senator Stevens.....................................     1

                               Witnesses

Bolen, Ed, President and CEO, National Business Aviation 
  Association....................................................    32
    Prepared statement...........................................    33
Cebula, Andrew V., Senior Vice President, Government and 
  Technical Affairs, Aircraft Owners and Pilots Association......    43
    Prepared statement...........................................    45
Cirillo, Michael A., Vice President, System Operations Services 
  Air Traffic Organization, Federal Aviation Administration......    11
    Prepared statement...........................................    14
Coyne, James K., President, National Air Transportation 
  Association....................................................    37
    Prepared statement...........................................    39
Fleming, Jonathan, Chief Operating Officer, Transportation and 
  Security Administration, Department of Homeland Security.......     4
    Prepared statement...........................................     6

 
                    RECENT WASHINGTON D.C. AIRSPACE 
                    INCURSIONS AND REOPENING REAGAN 
                  NATIONAL AIRPORT TO GENERAL AVIATION

                              ----------                              


                         THURSDAY, JUNE 9, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 11 a.m. in room 
SR-508, Russell Senate Office Bulding, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. TED STEVENS 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Let me welcome the witnesses here this 
morning. I will say to you that I was in an undisclosed 
location, and witnessed the items we are going to be reviewing 
on a classified basis. I don't want anything to be indicated 
that I'm commenting on what I personally saw or, heard that 
morning.
    We do thank you for your willingness to appear to discuss 
the security of our Nation's Capital. I personally want to 
applaud the Transportation Security Administration for its 
recent proposal to reopen Ronald Reagan Washington National 
Airport to general aviation flights and to TSA's commitment to 
begin working on a plan to allow similar access to recreational 
general aviation flights as well. I believe that action is long 
overdue, and I do thank TSA for your hard work.
    I also want to commend FAA, TSA, DHS and the U.S. Secret 
Service, the U.S. Capitol Police and others, that are involved 
in agencies that are pertinent to this hearing for their 
actions in responding to the recent unauthorized airspace 
incursion that resulted in the evacuation of the White House, 
U.S. Capitol buildings and U.S. Supreme Court.
    While there are areas that can be improved to make the air 
threat assessment and response procedures more efficient for 
the most part the system worked. Today's hearing is meant to 
discuss TSA's plan to reopen Reagan Airport and to examine 
those things that went well during the recent air incursion 
incident and to discuss the things that may need improvement.
    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. I want to thank you for holding this 
hearing this morning. I have a full statement here may I 
request that it be made part of the record.
    The Chairman. No objection. So ordered.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    I want to thank Chairman Stevens for holding this hearing today to 
focus on a number of issues that we have been following regarding 
General Aviation (GA) security. This hearing is a very timely 
opportunity to examine the Transportation Security Administration's 
(TSA) recent announcement of plans to reopen National Airport (DCA) to 
GA operations, as well as last month's incursion of the National 
Capital Region's prohibited airspace by a private GA aircraft which led 
to the second evacuation of major Federal offices in less than a year.
    The GA community has a significant presence in most regions of the 
country, and plays a vital role in many of them. In the State of 
Hawaii, GA aircraft have a tremendous impact on the local economy with 
internationally acclaimed air tours, and they provide a critical 
resource in addressing transportation needs for isolated locations. 
Still, the nation's Federal intelligence agencies continue to identify 
GA security as a potential loophole that terrorists have considered 
using or may still be able to exploit. Warnings like these should not 
go unheeded in the post-9/11 world, yet relatively little Federal 
effort or funding has been committed to GA security since those 
terrorist attacks occurred.
    The effort to reopen DCA is a welcome development for the local 
economy, and an initial look at the proposed plan indicates a major 
emphasis on establishing an effective security protocol. However, I am 
concerned about press reports regarding attempts to water down the 
proposed rules to allow GA aircraft to return to DCA before they have 
even been put in place. I think that we must be able to assess how the 
new system is working before making any sweeping changes to expand 
service at the airport. DCA has been shut down to GA operations for 
nearly four years because of security concerns. I believe it would be 
wise to move carefully and look closely at the effects of the newly 
proposed system before taking further steps.
    The matter of airspace incursions into the D.C. Air Defense 
Identification Zone (ADIZ) also needs a closer look. I would like to 
know more about the TSA's assessment of this incident. It appears 
security protocol was properly followed, but was the end result the 
best of all possibilities? Is it prudent to evacuate thousands of 
workers and tourists from select locations? Do we have the proper 
systems in place to intercept slow moving aircraft? Would a faster 
moving plane have been shot down?
    I am hopeful that today's hearing will provide the answers to these 
and other questions that many in Congress have been asking.
    As the GA fleet in the U.S. continues to expand with the use of 
larger and faster aircraft, we must remain vigilant and make certain 
that Congress takes the necessary steps to ensure that GA security is 
effective and flexible enough to address any potential threats that may 
develop over time. I am hopeful that this hearing will be a proper 
first step to look more closely at the current structure of GA security 
and future efforts that must be undertaken to protect this critical 
segment of our aviation system.

    The Chairman. Senator Burns?

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    Senator Burns. Thank you Mr. Chairman, for the hearing. I 
would like to make a couple of comments. I'm excited that the 
TSA has taken the first step in dealing with some of the things 
that are going on around this town and across the country now 
that in the post 9/11 world Congress and the Administration 
have been forced to make several very difficult decisions. 
Right or wrong, we created the Department of Homeland Security.
    Of course that carries with it some extreme challenges 
associated with propping up the new agency where it can 
effectively and efficiently fulfill the mission that it's set 
in place to do, and that is to protect the American public.
    It's pretty tough whenever those people who want to do us 
harm, they can get lucky once, but we have got to be right 100 
percent of the time. The odds against you are pretty bad. After 
several years we are finally starting to see flickers of common 
sense, I am getting a little bit happier. While I'm not 
completely satisfied with the gateway and cumbersome security 
protocols associated with the plan, I do see this as a positive 
first step.
    Around this time next year I am hopeful that we'll be 
conducting similar hearings to discuss the implementation of 
Phase II for Reagan National. And I think we're finally 
starting to see the so called security EKG level, out from its 
turbulent inception after 9/11. And logical well thought 
decisions are being considered now, and we're starting to think 
long term rather than short term. Transportation, Homeland 
Security are extremely important issues. We have a lot riding 
on our security trying to be 100 percent right.
    I've got a full statement here Mr. Chairman, I think with 
the questions and with the testimony we'll hear this morning 
that some of this common sense maybe starting to come into 
play.
    And I thank you for holding the hearing.
    [The prepared statement of Senator Burns follows:]

   Prepared Statement of Hon. Conrad Burns, U.S. Senator from Montana
    Thank you Mr. Chairman for calling this hearing today on the recent 
air incursions and the Transportation Security Administration's (TSA) 
proposal to reopen Reagan National Airport to general aviation (GA). 
Many of us have been waiting for this proposal for a couple years now. 
I am excited TSA has taken this first step, but I am hopeful we can 
expand the program in the years to come.
    In the post-9/11 world, Congress and the Administration have been 
forced to make several difficult decisions. Right or wrong, we created 
the Department of Homeland Security (DHS) and the extreme challenges 
associated with propping up a new agency where it can effectively and 
efficiently fulfill its mission to the American public.
    After several years we are finally starting to see flickers of 
common sense come out of DHS and the TSA. While I am not completely 
satisfied with the ``gateway'' and cumbersome security protocols 
associated with the plan, I do see this as a positive first step. 
Around this time next year I am hopeful we will be conducting a similar 
hearing to address the implementation of Phase II of the Reagan 
National plan.
    I think we are finally starting to see the so-called security EKG 
level out from its' turbulent inception after 9/11 and logical, well 
thought out decisions are being considered. Transportation and homeland 
security are extremely important issues and we have a lot riding on our 
security being ``right'' 100 percent of the time. We have several 
challenges ahead of us but I think we can view today as a step in the 
right direction.
    I also applaud the Chairman for bringing the GA groups before us 
today. They play an important role in this process. While the 
government can create all the programs, protocols and directives it 
wants, the burden of implementation, education and proper use fall on 
the GA community. It is important they take this responsibility 
seriously and utilize their role in the system.
    I say this because, general aviation plays such a vital role in 
states like Montana and many others represented on this Committee. Most 
in the industry are projecting tremendous growth in the air charter, 
air taxi and business aviation sectors and we should do all we can to 
promote their growth. The economic opportunities and impact GA can have 
on a community are difficult to quantify but I'm willing to bet we 
could use the DCA example to show how important GA access to a 
community can be. Security restraints could easily impede progress and 
I want to make sure that doesn't happen.
    Mr. Chairman, again, thank you for calling this important hearing 
and I look forward to the testimony.

    The Chairman. Thank you, very much. Our first witness this 
morning is Mr. Jonathan Fleming, the Chief Operating Officer of 
the Transportation Security Administration. Good morning Mr. 
Fleming, may we please have your statement.

        STATEMENT OF JONATHAN FLEMING, CHIEF OPERATING 
             OFFICER, TRANSPORTATION AND SECURITY 
        ADMINISTRATION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fleming. Good morning, Mr. Chairman, Senator Inouye and 
distinguished Members of the Committee, it's my pleasure to be 
here with you today, and to testify regarding aviation security 
policies for the National Capital Region along with my 
colleague from the Federal Aviation Administration. In all 
decisions involving aviation operations in the National Capital 
Region we are ever mindful of the area's high profile as the 
target for terrorists. In a very compressed location rests the 
seat of government of the United States, the headquarters and 
operations facilities of various Federal departments, and the 
monuments, museums and other national treasures of immense 
symbolic and historic value to Americans. Assuring their safe 
and secure operation under security measures aimed at 
minimizing vulnerabilities and preventing attacks is an 
absolute essential.
    A layered defense system has been established to protect 
the National Capital Region. An air defense identification zone 
or ADIZ surrounds Washington D.C., as well as an inner ring of 
protected air space known as the flight restricted zone, or 
FRZ, that operates under further restrictions.
    The National Capital Region Coordination Center or NCRCC is 
an inter-agency group which includes several entities whose 
unified actions create a layered situational awareness 
structure. Six organizations provide daily representation. FAA, 
Secret Service, Capitol Police, Customs and Border Protection, 
DOD and TSA.
    The incident on May 11, 2005, demonstrated the importance 
of this inter-agency approach. At 11:28 the NCRCC detected a 
track of interest squawking 1200 and entering the ADIZ 44 miles 
northeast of DCA heading south. Prior to entering the 
Washington D.C. ADIZ an aircraft in this profile is required to 
file a flight plan, contact air traffic control, and squawk a 
discrete or uniquely identifiable transponder code. This 
aircraft met none of these requirements. The aircraft initially 
flew westward on a course just within and paralleling the 
northern boundary of the ADIZ. Due to the nonthreatening nature 
of this vector, neither the military, nor Customs and Border 
Protection initiated an intercept. All agencies continued to 
maintain close monitoring and tracking of this aircraft.
    The aircraft then turned left, assuming a southerly heading 
directly toward the FRZ. In response AMO launched its Blackhawk 
helicopter and Citation jet aircraft. This was communicated to 
all NCRCC agencies via two communications networks: the 
Domestic Events Network, or DEN, and the Defense Red Switch 
Network, or DRSN. These conference calls were convened per 
operating procedures.
    The alert fighters at Andrews Air Force Base were brought 
to heightened alert posture and ultimately launched. As the 
Cessna entered the FRZ the AMO Blackhawk intercepted the Cessna 
and confirmed the identity of the aircraft. The Blackhawk 
attempted to get the Cessna to communicate via radio and the 
other visual means.
    The AMO aircraft were then directed to depart the immediate 
area, and the F-16 intercepted the Cessna 10 miles from DCA. 
The discussions continued on the Red Switch, which included all 
relevant agencies and authorities. With the Cessna still not 
communicating or diverting, the F-16's dispensed flares.
    The AMO citation ultimately made contact with the Cessna 
via radio, and directed the aircraft out of the FRZ. With F-16s 
as escort, the Cessna exited the FRZ at the western boundary. 
The Blackhawk assumed the escort responsibility. The Cessna 
departed the ADIZ and landed at Frederick Municipal Airport as 
directed. Both occupants of the aircraft were taken into 
custody by Maryland State Police.
    The defensive system worked as intended. The communications 
and interactions among responsible entities that took place 
during this incident resulted in prompt decisionmaking and 
measured effective actions to divert this threatening aircraft. 
All agencies involved in this incident received and acted on 
the same information.
    The events of May 11 have not interfered with or adversely 
affected proceeding with the security plan to resume general 
aviation operations at DCA. TSA led a concerted effort that 
resulted in the announcement on May 25 of a security plan to 
resume certain pre-cleared general aviation operations, 
including charter flights, corporate aircraft, and on demand 
operations at the airport.
    The measures required will provide a level of security 
equivalent to those in place for commercial operations. We 
anticipate the requirements will include TSA inspection of 
crews and passengers, of property and of aircraft, advanced 
submission of passenger and crew manifests, comparing of 
passengers against terrorist watch lists, criminal history 
records checks for flight crews, TSA-trained armed security 
officers onboard each aircraft, coordination with the NCRCC 
prior to departure and use of gateway airports as last points 
of departure.
    General aviation security presents unique challenges 
requiring a range of measures. Locally we have increased the 
flow of general aviation commerce by reopening Maryland's three 
airports to transient aircraft. TSA efforts to foster general 
aviation security more broadly include the Airport Watch 
Program, clearance of alien flight training candidates, 
security measures for charter and corporate operations, 
temporary flight restrictions, publication of security 
guidelines for general aviation airports, vulnerability 
assessments, and specific requirements pertaining to National 
Special Security Events.
    These initiatives demonstrate TSA's commitment to working 
with the general aviation community and our Federal partners to 
ensure the level of security is appropriate to the threat.
    I would be pleased to answer any questions you may have.
    [The prepared statement of Mr. Fleming follows:]

   Prepared Statement of Jonathan Fleming, Chief Operating Officer, 
  Transportation and Security Administration, Department of Homeland 
                                Security
    Mr. Chairman, Senator Inouye, and Members of the Committee, good 
morning. It is my pleasure to be here with you today to testify 
regarding the Department of Homeland Security's aviation security 
policies for the National Capital Region, the security plan for a 
measured resumption of general aviation operations at Ronald Reagan 
Washington National Airport (DCA), the events surrounding the incursion 
into the Flight Restricted Zone (FRZ) by a private aircraft on May 11, 
2005, and general aviation security more broadly. I welcome this 
opportunity to appear before you, along with my colleague from the 
Federal Aviation Administration (FAA), to address these important 
matters.
    In all decisions involving aviation operations in the National 
Capital Region, we are ever mindful that the area is an obvious target 
for terrorists. In a very compressed location rests the seat of 
Government of the United States--the White House, United States 
Capitol, the Supreme Court, and supporting buildings that house staff 
and other Federal courts; the leadership targets--the President and 
Vice-President, Members of Congress, Cabinet Members, justices and 
judges; the headquarters and operations facilities for the Nation's 
domestic and international security apparatus among the Federal 
departments; and the monuments, museums, and other national treasures 
of immense symbolic and historical value to Americans. These 
concentrated assets represent the lifeblood of the governance of our 
great Nation and our global responsibility to lead the war on terror 
and foster the continued spread of freedom and democracy. Assuring 
their safe and secure operation, under security measures aimed at 
minimizing vulnerabilities and preventing attacks, is an absolute 
essential.
    As part of its effort to protect the National Capital Region, the 
Department of Homeland Security (DHS) and TSA, in cooperation with 
other governmental entities, regularly monitors the threat posed to or 
by particular types of aircraft arriving or departing from DCA and 
factors continually changing information into its operations and 
planning efforts. TSA plans and executes its general aviation security 
mission in a manner that exemplifies the threat-based, risk-managed 
approach used to strengthen security across all transportation modes. 
TSA has led a systematic effort over the last several months with other 
parts of DHS that deal with airspace protection in the National Capital 
Region (NCR), including Border and Transportation Security, Customs and 
Border Protection, Information Analysis and Infrastructure Protection, 
the United States Secret Service, and the Office of the National 
Capital Region Coordinator, to assess continually the security 
situation at DCA and ensure that security measures are appropriate to 
the threat. This concerted effort culminated in the announcement on May 
25 of a security plan to resume certain pre-cleared general aviation 
operations, including charter flights, corporate aircraft, and on-
demand operations, at the airport. We wish to thank all those who were 
instrumental in this achievement, especially Members of this Committee 
and other distinguished Members of Congress, our colleagues at the FAA 
and throughout the Departments of Transportation, Defense, and Homeland 
Security, and the general aviation industry.
    I will provide more details about our plan for opening DCA to 
general aviation, but first I would like to describe the layered 
airspace security system that has been established to protect the 
National Capital Region. An Air Defense Identification Zone (ADIZ) 
surrounds Washington, D.C. In order to fly within the ADIZ, operators 
must follow specific procedures before and during the flight. The FAA, 
which is the lead agency for monitoring compliance of air traffic in 
the ADIZ, works closely with TSA, DHS, and stakeholders to assess and 
refine procedures for entering and operating within the ADIZ. There is 
also an inner ring of airspace, known as the Flight Restricted Zone 
(FRZ). The flight restrictions are outlined in FAA Notice to Airmen 3/
2126.
    The National Capital Region Coordination Center (NCRCC) is an 
integral component of the layered aviation security system for the 
National Capital Region. The NCRCC is an interagency group comprised of 
several agencies whose unified actions create a layered situational 
awareness structure to enhance airspace security for the NCR. Six 
entities provide daily representation in the NCRCC: the FAA, the U.S. 
Secret Service, the U.S. Capitol Police, U.S. Customs and Border 
Protection, the Department of Defense (DOD), and TSA. Other agencies, 
such as the Federal Bureau of Investigation (FBI), are key participants 
during major events or surge operations.
    The NCRCC monitors the operations of all participating agencies to 
enhance airspace security within the defined limits of the ADIZ. Each 
agency that participates within the NCRCC maintains its own organic 
capabilities and complete command and control over operational and 
tactical matters that fall within that agency's respective statutory 
authorities. The NCRCC does not infringe upon an agency's operational 
or tactical employment of its assets, nor does it have command and 
control over any participating agency. TSA, as the Executive Agent for 
the NCRCC, is responsible for disseminating relevant transportation 
security intelligence, documenting the activities of the NCRCC, and 
providing the physical infrastructure to accommodate NCRCC operations, 
to ensure that the participating agencies are fully informed about 
emerging requirements of the threat.
    When an unidentified aircraft approaches the Washington, D.C., 
ADIZ, radar operators at one or all of the monitoring agencies, 
including the U.S. Customs and Border Protection's (CBP) National 
Airspace Security Operations Center, DOD's Northeast Air Defense Sector 
headquarters in Rome, NY, and the FAA's Potomac Terminal Radar Approach 
Control (TRACON) Facility, begin to actively track it. As it enters the 
ADIZ, one of the monitoring organizations announces the aircraft's 
presence on the Domestic Events Network (DEN), an interagency open line 
of communications that is continuously available. Pertinent information 
about the aircraft is broadcast on the DEN in this initial report. 
Immediately after the initial report, the FAA's representative in the 
NCRCC acknowledges the report and establishes a common identifier to be 
used in interagency communications regarding the track. Once a common 
identifier has been assigned, the agency representatives in the NCRCC 
each perform their respective duties.
    The TSA representative to the NCRCC has a specific role to play 
when an unidentified aircraft approaches the ADIZ. He or she is 
responsible for notifying the Transportation Security Operations Center 
(TSOC) Command Duty Officer (CDO) of the situation, who in turn decides 
whether additional notifications are necessary. Where appropriate, the 
CDO will notify senior TSA and DHS officials. The TSA NCRCC 
representative also has the responsibility to record a timeline of the 
events that take place, in addition to monitoring radar feeds to assess 
the threat. Finally, the TSA representative also monitors the DEN to 
answer questions from other agencies, to enhance interagency 
situational awareness, and to gather information for documenting the 
incident.
    To convey a sense of the scope of this operation, since the 
establishment of the NCRCC in January 2003 3,369 airspace incursions 
have occurred, resulting in the opening of 2,226 NCRCC case files and 
assessment of 1,411 pilot deviations. During this same period, 147 
incursions of the FRZ occurred, on which 114 NCRCC case files were 
opened. Twenty-seven penetrations of the prohibited airspace above the 
Capitol, the White House, and the National Mall occurred. Alert 
aircraft launched or diverted 627 times in response to intrusive 
flights.
    The incident on May 11, 2005, demonstrated the importance of the 
integrated, interagency approach that is constantly assessed and 
refined to ensure that the highest performance standards are set and 
maintained. At 1128 EDT, the NCRCC detected a TOI squawking 1200 and 
entering the ADIZ 44 miles northeast of DCA, heading south. A squawk of 
``1200'' is a generic Mode 3 transponder code indicating an aircraft on 
a Visual Flight Rules (VFR) flight. Prior to entering the Washington, 
D.C., ADIZ, an aircraft in this profile is required to file a flight 
plan, contact air traffic control (ATC), in this case the Potomac 
TRACON, and squawk a discrete or uniquely identifiable Mode 3 
transponder code assigned by ATC. This aircraft had met none of these 
requirements.
    Radar tracking history for the aircraft showed it had departed from 
Smoketown Airport in Smoketown, Pennsylvania. The aircraft initially 
flew westward for about 20 miles, on a course just within and 
paralleling the northern boundary of the ADIZ. Due to the 
nonthreatening nature of this vector, neither the military nor CBP's 
Office of Air and Marine Operations (AMO) initiated an intercept. All 
agencies did maintain close monitoring, tracking this aircraft as it 
operated on a flight path just inside the ADIZ.
    This aircraft turned left, assuming a south-southwest heading 
directly toward the FRZ. In response, AMO ordered the launch of its 
Blackhawk helicopter and Citation jet aircraft. This order was 
communicated to all NCRCC agencies via the DEN and on the DRSN 
conference call. The alert fighters at Andrews AFB were again brought 
to a heightened alert posture and ultimately launched.
    The FAA watch officer conveyed information on events as they 
developed to all NCRCC components via the DEN.
    The Cessna entered the FRZ while still on a southerly heading and 
maintaining a consistent speed of about 85 knots. The AMO Blackhawk 
intercepted the Cessna and provided a report confirming the identity of 
the aircraft. The AMO Citation took a position 1 mile in trail of the 
Cessna.
    With the Cessna maintaining a southerly course, the AMO aircraft 
were directed to depart the immediate area and the F-16s intercepted 
the Cessna 10 miles from DCA. Classified discussions continued on the 
DRSN conference call which included representatives from NORAD, the 
Continental NORAD Region (CONR), the responsible air defense sector 
(the Northeast Air Defense Sector (NEADS) in this case), and various 
other military command and control elements as well as the TSA Command 
Duty Officer (CDO), TSA Headquarters (including the Assistant 
Secretary), the NCRCC, the Homeland Security Operations Center (HSOC), 
the White House Situation Room, and the National Military Command 
Center (NMCC). In the NCRCC, both the TSA and FAA watch officers 
contributed to the coordination of effort via the DRSN conference and 
the FAA watch officer served as the principal speaker on the DEN.
    Signaling measures included the F-16s dispensing flares after 
attempting contact by radio and other visual means. Of note, these 
actions followed standard operating procedure based on the location of 
the aircraft and its heading. Increase in readiness posture of DOD 
assets did not indicate any order or intent to engage.
    The AMO Citation jet made contact with the Cessna via radio on the 
emergency frequency of 121.5 and ordered the aircraft to turn west. The 
Cessna did so and as it neared the western boundary of the FRZ the 
Blackhawk closed and assumed the escort position. The Cessna exited the 
FRZ and assumed a northerly heading. Potomac TRACON reported radio 
communication with the aircraft. Frederick Municipal Airport in 
Frederick, Maryland, was selected as the divert airport. The CBP 
National Airspace Security Operations Center and the TSA CDO 
coordinated the law enforcement response at Frederick Municipal 
Airport. The Cessna departed the ADIZ and landed at the airport at 
12:39. Both occupants of the aircraft were taken into custody by the 
Maryland State Police.
    This incident has not interfered or adversely affected proceeding 
with the security plan to resume general aviation operations at DCA. It 
does, however, demonstrate the importance of maintaining enhanced 
security measures. The volume of high value, high impact potential 
targets for terrorists in the Washington, D.C., area demands vigilance 
against the use of an aircraft as a weapon.
    With this in mind, I would like to turn to our plan to reinstate 
general aviation operations at DCA. The measures required under the 
plan will provide a level of security equivalent to those in place for 
commercial operations at DCA.
    TSA has developed a security protocol to be used by general 
aviation and charter flight operators desiring access to DCA. The 
specific requirements for access to DCA are built off of the Private 
Charter Standard Security Program and the Twelve-Five Standard Security 
Program. TSA anticipates that the requirements will include the 
following:

  <bullet> TSA inspection of crews and passengers, of property 
        (accessible and checked), and of aircraft.

  <bullet> Submission of passenger and crew manifests to TSA 24 hours 
        in advance of flight. Passengers will undergo enhanced 
        background check vetting against terrorist watch lists.

  <bullet> Fingerprint-based criminal history record checks for flight 
        crews.

  <bullet> Restricted access to the cockpit with a TSA-trained armed 
        law enforcement officer (LEO) or Federal Air Marshal (FAM) on 
        board the aircraft.

  <bullet> Coordination with the NCRCC prior to departure.

  <bullet> Utilization of 12 gateway airports as a last point of 
        departure prior to embarking to DCA. Currently, TSA anticipates 
        the following airports will serve as gateways: Seattle-Tacoma, 
        WA; Boston-Logan, MA; Houston-Hobby, TX; White Plains, NY; 
        LaGuardia, NY; Chicago Midway, IL; Minneapolis-St. Paul, MN; 
        West Palm Beach, FL; San Francisco, CA; Teterboro, NJ; 
        Philadelphia, PA; and Lexington, KY. TSA may revise or expand 
        this list as necessary or appropriate.

  <bullet> All general aviation operations at DCA will be subject to 
        cancellation at any time.

    The current plan envisions that the screening of general aviation 
flights into and out of DCA will be conducted by TSA screeners using 
existing resources. However, it is anticipated that operators accessing 
DCA will be responsible for reimbursing TSA's costs associated with 
services, equipment, and supplies, and will be required to pay a fee 
for the cost of conducting required background checks for crews and 
passengers.
    As noted, among the measures is the requirement of an armed 
security officer on board all general aviation aircraft arriving at and 
departing DCA. This officer's mission will be protection of the 
aircraft and flight crew, not enforcement of Federal criminal laws. 
Active and retired Federal, State, and local LEOs, vetted and certified 
by TSA, will be eligible to perform this function. TSA is also 
considering including other highly qualified individuals, such as 
former police officers and former military personnel, in this program. 
TSA will develop rigorous standards and training criteria for these 
individuals in coordination with the Department of Justice, FBI, and 
the Federal Air Marshal Service. We anticipate that a predictable core 
of individuals qualified to serve corporate and charter operators with 
professionalism and discipline will develop and stabilize over the 
course of time.
    DHS will issue an Interim Final Rule--Ronald Reagan Washington 
National Airport: Enhanced Security Procedures for Certain Operations--
to define the security procedures for aircraft operators and gateway 
airport operators as well as the security requirements pertaining to 
crewmembers, passengers, and security officers on board general 
aviation aircraft operating to and from DCA.
    Beyond the planned resumption of general aviation operations at 
Reagan National Airport, a further example of progress on general 
aviation operations in the broader Washington, D.C., metropolitan area 
is demonstrated by the status of the Maryland Three (MD-3) airports--
College Park Airport, Potomac Airfield, and Washington Executive/Hyde 
Field. In accordance with a TSA Interim Final Rule (IFR), codified at 
49 CFR Sec. 1562, operations at these three general aviation airports, 
which are located within the Washington, D.C., Metropolitan Area Flight 
Restricted Zone, have been permitted to continue. The IFR, Maryland 
Three Airports: Enhanced Security Procedures for Operations at Certain 
Airports in the Washington, D.C., Metropolitan Area Flight Restricted 
Zone, took effect on February 13, 2005, and transfers responsibility 
for airport security requirements and procedures from the FAA (issued 
under Special Federal Aviation Regulation (SFAR) 94) to TSA. It also 
increases the flow of general aviation commerce by granting access to 
transient aircraft operations, that is, pilots not based at the three 
airports. Under SFAR 94, transient pilots were not allowed to operate 
to or from the MD-3 airports. Under the IFR, however, transient pilots 
are allowed to access the airports if they comply with TSA-mandated 
security requirements and procedures.
    The IFR has specific security requirements to which the MD-3 
airports and pilots must adhere. Each airport must appoint an airport 
employee as the airport security coordinator, who must undergo a TSA 
security threat assessment, including a fingerprint-based criminal 
history records check. The airport security coordinators must ensure 
the procedures mandated in the IFR, such as monitoring of aircraft at 
the airports during operational and nonoperational hours, are carried 
out. To be approved to operate to or from the airports, each pilot must 
undergo the same TSA security threat assessment and a check of his or 
her FAA record; receive a briefing that describes procedures for 
operating to and from the airport; secure the aircraft after returning 
to the airport from any flight; comply with any other requirements for 
operating to or from the airport specified by TSA; and comply with FAA 
requirements for operating inside the FRZ, including filing a flight 
plan, transmitting a discrete beacon code, and maintaining 2-way radio 
communication with air traffic control. Pilots must also check in with 
the airport security coordinator prior to accessing their aircraft. 
This measure assures unauthorized persons do not gain access to 
aircraft parked at the airports.
    TSA has requested public comment on the IFR and will continue to 
work with stakeholders to minimize the burdens imposed by the IFR 
without compromising the security of the Washington, D.C., Metropolitan 
Area. The appropriate forms and guidance materials can be accessed on 
the TSA General Aviation website. The Aircraft Owners and Pilots 
Association (AOPA) has also posted the TSA forms on its website.
    Locally and nationally, general aviation presents unique 
challenges. The aircraft are relatively inexpensive and readily 
available. General aviation aircraft are very diverse, with the 
majority being small and having minimal payload capacity. Piloting 
these smaller aircraft generally requires less skill and training than 
larger aircraft, but the regular owner/operator community is very close 
knit and is particularly diligent in self policing. Two well-publicized 
incidents involving crashes of small general aviation aircraft into 
buildings in Milan, Italy, and Tampa, Florida can be used by terrorists 
as examples of new, demonstrated tactics even though the incidents were 
not terrorist-related. Indeed, the April 2003 arrest of terrorist 
Waleed bin Attash uncovered a plot to crash a small aircraft laden with 
explosives into the United States Consulate in Karachi, Pakistan. The 
diversity of the threats and risks precludes a ``one size fits all'' 
program for the broad range of aircraft and the approximately 19,000 
general aviation facilities nationwide. Prevailing circumstances, 
risks, vulnerabilities, threats, and potential consequences all factor 
into the nature of the security approach.
    The plan for DCA and the program developed for the MD-3 airports 
reflect the unique circumstances that apply to operations in this area. 
Other locations present different profiles and available resources 
vary. Thus, differing approaches will be the norm. TSA focuses on 
several particular areas to provide a broad and solid foundation for 
the security of general aviation.

  <bullet> Airport Watch Program--TSA, in partnership with the general 
        aviation stakeholder associations, implemented a General 
        Aviation Hotline that is the linchpin of the highly regarded 
        Aircraft Owners and Pilots Association Airport Watch Program. 
        We endorse the Airport Watch Program and aviation security 
        inspectors encourage its use to all airport managers visited in 
        the course of the ongoing general aviation outreach program. 
        The hotline provides a mechanism to enable any pilot or airport 
        employee to report suspicious activity to one central Federal 
        Government focal point. It is also cited as a reporting method 
        in the Flight School Security Awareness Training Program.

  <bullet> Alien Flight Training--Section 113 of the Aviation and 
        Transportation Security Act, Pub. L. 107-71 (November 19, 
        2001), mandates that any non-Federal U.S. provider of flight 
        instruction seeking to train an alien in the operation of an 
        aircraft weighing more than 12,500 pounds must first ensure 
        their candidates are cleared by the Attorney General. The 
        Department of Justice implemented this requirement with the 
        Flight Training Candidate Checks Program. The Vision 100--
        Century of Aviation Reauthorization Act (Vision 100 Act), Pub. 
        L. 108-176 (December 12, 2003), transferred oversight of this 
        program from the Department of Justice to TSA. The TSA IFR, 
        codified at 49 CFR Sec. 1552, was issued on September 20, 2004, 
        and its requirements became effective in October 2004 for most 
        alien flight training candidates and flight schools. A 60-day 
        exemption applied for aliens who already held a pilot's 
        certificate, the requirements becoming effective on December 
        19, 2004 for this group. In addition, flight schools are 
        required to provide employees with security awareness training. 
        TSA has developed a training module that flight schools can use 
        to meet this requirement. Of note, the IFR has been refined and 
        clarified through consultation with stakeholders.

  <bullet> Charter Operations--For public charter operations in 
        aircraft with 61 or more passenger seats, TSA has always 
        required security measures, including screening of passengers 
        and property. TSA currently regulates a large segment of the 
        charter operations in smaller aircraft, as well as scheduled 
        operations in smaller aircraft, through the Twelve Five 
        Standard Security Program. TSA regulates the larger private 
        charter operations through the Private Charter Standard 
        Security Program. The Twelve Five Program covers scheduled, 
        public charter and private charter operations, passenger or 
        cargo, using aircraft with a maximum certificated take-off 
        weight of more than 12,500 pounds while the Private Charter 
        Standard Security Program covers private charter operations 
        using aircraft with a maximum certificated take-off weight of 
        45,500 kg (100,309 lbs). These programs include requirements 
        for vetting of flight crew, designation of a security 
        coordinator, and checks against terrorist watch lists. Like the 
        Twelve Five Program, the Private Charter Program also requires 
        screening of passengers and their carry-on baggage. TSA has 
        established an inspection regime to ensure the effectiveness of 
        the programs. Additionally, TSA is on track to meet the 
        requirement in section 4012 of the Intelligence Reform and 
        Terrorism Prevention Act of 2004, Pub. L. 108-458 (December 17, 
        2004), to allow operators of aircraft with a maximum 
        certificated take-off weight of more than 12,500 pounds to 
        request vetting of individuals seeking to charter or rent an 
        aircraft against the watch lists.

  <bullet> Corporate Operations--In early 2003, TSA launched a pilot 
        project in cooperation with the National Business Aviation 
        Association (NBAA) at Teterboro Airport and Morristown 
        Municipal Airport in New Jersey and White Plains Airport in New 
        York. The initiative was conducted as a ``proof-of-concept'' to 
        validate an NBAA-proposed security program developed for 
        operators of business aviation aircraft. TSA is currently 
        considering a national roll-out of the program.

  <bullet> Temporary Flight Restrictions (TFR)--TSA evaluates requests 
        for security-related TFRs based on several criteria, including 
        specific and credible threat and intelligence information, 
        number of people in attendance, and number of air and ground-
        based defense assets. TFRs are employed to mitigate the threat 
        of an airborne attack against key assets and critical 
        infrastructure on the ground. TFRs largely impact the general 
        aviation community by prohibiting flight in areas of concern. 
        In response to the Congressional mandate in the Vision 100 Act, 
        the FAA issued a Notice to Airmen that permanently establishes 
        TFRs over four types of sporting events: major league baseball 
        games, National Football League games, major motor speedway 
        events, and NCAA Division I football games occurring in 
        stadiums with a seating capacity of 30,000 or more. TSA 
        processes requests from general aviation operators for waivers 
        to these TFRs, in accordance with the criteria specified in the 
        Vision 100 Act, and works with the FAA to issue these waivers.

  <bullet> General Aviation Airports--On May 17, 2004, TSA published an 
        Information Publication (IP) entitled, ``Security Guidelines 
        for General Aviation Airports.'' The purpose of the IP is to 
        provide owners, operators, sponsors, and other entities charged 
        with oversight of general aviation airports a set of Federally 
        endorsed security enhancements and a method for determining 
        when and where these enhancements may be appropriate. Aviation 
        security inspectors are incorporating the IP into the TSA 
        outreach program to the general aviation community.

  <bullet> Vulnerability Assessments--TSA is preparing to launch a 
        general aviation vulnerability self-assessment tool that will 
        facilitate the examination of airports and assessment of 
        vulnerabilities. The tool focuses on the characteristics of the 
        facility and inventories its countermeasures. Initially, the 
        tool will be used to assess the approximately 5,600 public use 
        general aviation facilities.

  <bullet> National Special Security Events (NSSE)--TSA has established 
        an internal organization that deals specifically with NSSE 
        events. This group is responsible for coordinating with other 
        agencies responsible for security of the event and overseeing 
        TSA's role in establishing transportation-related security 
        controls, including conducting vulnerability assessments at 
        local general aviation airports and security outreach programs 
        to educate general aviation pilots on upcoming restrictions.

    These initiatives demonstrate TSA's commitment to working with the 
general aviation community and interested government agencies to ensure 
that the level of security is appropriate to the threat. We are acutely 
aware that as vulnerabilities within commercial aviation are reduced, 
general aviation may be perceived as a more attractive target and 
consequently more vulnerable to misuse by terrorists. The diverse range 
of general aviation operations and airport facilities may provide a 
tempting target for terrorist exploitation. TSA continues to work with 
key general aviation associations to encourage their members to avoid 
complacency and to remain vigilant during every operation. We are 
committed to making decisions based on threat analysis and risk 
management, balanced with common sense.
    Thank you for this opportunity to address the Committee on these 
matters of importance to security and economic vitality both in the 
Washington, D.C., area and nationally.

    The Chairman. First let us go to Mr. Michael Cirillo, Vice 
President for System Operations Services of the Air Traffic 
Organization for the Federal Aviation Administration. Good 
morning, sir.

       STATEMENT OF MICHAEL A. CIRILLO, VICE PRESIDENT, 
            SYSTEM OPERATIONS SERVICES AIR TRAFFIC 
         ORGANIZATION, FEDERAL AVIATION ADMINISTRATION

    Mr. Cirillo. Thank you Chairman Stevens, Senator Inouye and 
Members of the Committee. I'm pleased to appear before you 
today along with my colleague from TSA, to discuss the FAA's 
responsibilities in matters involving general aviation 
security.
    The Chairman. Pull that mike up toward you.
    Mr. Cirillo. I'm sorry. I am pleased to appear before you 
today to discuss the FAA's responsibility in matters involving 
general aviation security particularly and in and around the 
Nation's Capital.
    As you know since September 11th security in and around the 
Nation's Capital has changed significantly. With respect to 
aviation a number of restrictions and procedures have been put 
in place, that were designed to protect the significant assets 
in this area.
    For obvious reasons when aircraft approach the National 
Capital Region we want to know who they are, and where they're 
going. There are two airspace zones established around the 
National Capital Region. There's the 2,000 square mile area 
surrounding Washington's three major airports, known as the Air 
Defense Identification Zone or a ADIZ. Within the ADIZ and 
extending approximately 15 miles around the U.S. Capitol is a 
flight restricted zone or FRZ. Aircraft operating in these 
zones must comply with operational and procedural restrictions. 
When they don't, there's a coordinated interagency response.
    The incident that occurred on May 11, 2005 can serve as a 
good example of how FAA interacts with other agencies, when an 
unidentified aircraft approaches Washington D.C.
    At 11:28 a.m. FAA and the National Capital Region 
Coordination Center became aware of an aircraft entering the 
ADIZ from the northeast. The FAA's Watch Officer for key 
communications, working with the Domestic Events Network, or 
DEN, contacted the Potomac TRACON which confirmed to 
participating NCRCC agencies that the aircraft was not in 
communication with air traffic control, had not filed a flight 
plan and that its transponder was not transmitting a unique 
code. All requirements for operating within the ADIZ. The 
aircraft was not considered a threat until it turned southbound 
toward the FRZ, the second restricted zone surrounding the 
Capitol.
    This information was communicated on the DEN to the 
participating NCRCC agencies. At this point the Customs and 
Border Protection Office of Marine Operations or AMO, ordered 
the launch of its Blackhawk helicopter and Citation jet 
aircraft from DCA.
    In addition two F-16 aircraft were scrambled from Andrews 
Air Force Base. The AMO Blackhawk initially intercepted the 
aircraft about 10 miles north of the Capitol. The aircraft was 
visually identified as a high winged single engine Cessna type 
aircraft. Attempts by the Blackhawk helicopter to signal to the 
pilots of the Cessna and get them to communicate on an 
emergency frequency were initially unsuccessful.
    The Department of Defense authorized the F-16 pilots to use 
flares and they were dispensed when the aircraft was 6.7 miles 
from DCA. The Blackhawk continued to signal to get the pilots 
to communicate. Ultimately the Cessna pilots were able to make 
contact with the AMO Citation on an emergency frequency. The 
Cessna turned west and proceeded through the prohibited space 
over the Naval Observatory with the F-16s in escort.
    The Potomac TRACON reported on the DEN that the pilots were 
in communication with air traffic controllers at 12:22 p.m. The 
pilots reported to the controllers that they had been 
instructed to proceed to the airport in Frederick Maryland. 
Escorted by the Blackhawk, and the F-16s, the aircraft landed 
in Frederick at 12:39 p.m. Upon landing the occupants of the 
aircraft were taken into custody by the FBI, Secret Service, 
and Maryland State authorities for questioning.
    After Federal and state authorities questioned the 
occupants of the aircraft, they determined that there was no 
criminal intent involved in their actions, and they were 
released.
    One of the individuals Hayden L. Shaffer, held an FAA 
pilot's license, the other individual, Troy Donovan Martin 
holds a student pilot certificate. Although Mr. Martin was 
manipulating the controls of the aircraft during the entire 
incident in question, Mr. Shaffer by virtue of being the only 
fully certificated airman in the aircraft was pilot in command 
of the flight.
    His inability to navigate adequately, his lack of knowledge 
of how to respond to an intercept, his failure to communicate 
with air traffic control despite being lost in controlled and 
restricted airspace, have left FAA to conclude that he lacks 
the qualification required to hold an airman pilot certificate. 
There for on May 20th, 2005 FAA issued an emergency order 
revoking Mr. Shaffer's pilot's license.
    Mr. Shaffer appealed both the merits of the revocation and 
the emergency nature of the action to the National 
Transportation Safety Board, On June 3, 2005 an NTSB 
Administrative Law Judge sustained the emergency nature of 
FAA's revocation and set a hearing date of June 15, and 16 to 
adjudicate the merits of the revocation.
    While Mr. Shaffer's case received an extraordinary amount 
of media attention, due to how far into the ADIZ and FRZ he 
penetrated and the resulting evacuations, ADIZ violations are 
fairly common around the D.C. area. Most are inadvertent and 
the pilots do not travel very far into the restricted area.
    The FAA has taken enforcement action against approximately 
600 pilots for violations of the ADIZ since the beginning of 
calendar year 2003. The other major security issue concerning 
general aviation in this area, is the continued restriction in 
place that effectively prevents general aviation aircraft from 
using Reagan National Airport.
    This restriction has been in place since September 11, 
2001. I know this Committee has long supported reopening 
National Airport to general aviation, and I am pleased to say 
that on May 25, 2005, the Administration under the leadership 
of the Department of Homeland Security, and TSA announced a 
plan to do just that.
    As the agency that has control over the airspace, FAA's 
role in implementing this is critical but limited. The FAA's 
representatives at the NCRCC and the DEN will develop 
procedures to timely disseminate and validate information on 
all approved aircraft and operators. FAA will also be 
responsible for issuing advisory circulars, and notices to 
airmen, to pilots, that include all new procedures put in 
place.
    Obviously, reintroducing general aviation to DCA will be 
monitored closely by all interested agencies and adjustments to 
the plan will be made as necessary.
    In conclusion, I'd like to say that although the May 11th 
incident was disturbing and resulted in the evacuation of 
thousands of people, causing alarm and uncertainty for a period 
of time, from FAA's standpoint the system worked as it was 
designed to.
    NCRCC member agencies, coordinated their decisions based on 
accurate information that was shared in real time. While it is 
always appropriate after an event such as this to review 
whether, and to what extent the government's responses were 
proper. From the coordination and communication standpoint the 
FAA believes the system worked. This concludes my statement and 
I'll be happy to answer your questions at this time. Thank you.
    [The prepared statement of Mr. Cirillo follows:]

   Prepared Statement of Michael A. Cirillo, Vice President, System 
    Operations Services Air Traffic Organization, Federal Aviation 
                             Administration
    Chairman Stevens, Senator Inouye, Members of the Committee: I am 
pleased to appear before you today to discuss the Federal Aviation 
Administration's (FAA) responsibility in matters involving general 
aviation security, particularly in and around the Nation's Capital. 
This includes the role FAA played with respect to the incident that 
occurred on May 11, 2005, which led to the evacuation of the U.S. 
Capitol, the White House and the Supreme Court. I will also discuss how 
FAA will help implement the Administration's recent decision to reopen 
Ronald Reagan Washington National Airport (DCA) to general aviation on 
a limited basis. It's a pleasure to be here with my colleague from the 
Transportation Security Administration (TSA).
    As you know, since September 11, security in and around our 
Nation's Capital has changed significantly. With respect to aviation, a 
number of restrictions and procedures have been put in place that were 
designed to protect the significant assets in this area. At the outset, 
I would note that the restrictions and requirements for operating 
aircraft in this area are unique. Ordinarily, a general aviation 
aircraft operating at low altitudes and under visual flight rules (VFR) 
could operate legally within the National Airspace System without 
filing a flight plan or communicating with air traffic control. Flights 
occur all the time around the country without direct FAA control or 
contact. For obvious reasons, however, that is not the case in this 
area. When aircraft approach the national capital region, we want to 
know who they are and where they are going.
    There are two airspace zones established around the national 
capital region. There is a 2,000 square mile area surrounding 
Washington's three major airports known as the Air Defense 
Identification Zone (ADIZ). How flights are handled heading toward or 
entering the ADIZ varies depending on the existing threat level, but 
generally aircraft operating in the zone are required to file a flight 
plan, be in continuous communication with air traffic control, and have 
a functioning transponder that transmits a discrete or uniquely 
identifiable code. Within the ADIZ and extending approximately 15 miles 
around the U.S. Capitol is the Flight Restricted Zone (FRZ). Additional 
operating requirements apply to general aviation aircraft operating 
within the FRZ, including applying for and receiving a TSA and FAA 
waiver.
    Unidentified aircraft operating in restricted airspace are taken 
very seriously. FAA is a member of the National Capital Region 
Coordination Center (NCRCC), a group comprised of representatives of 
security and military agencies to ensure that, in the event of a threat 
from an unidentified aircraft, coordinated action can be taken to 
appropriately address the threat and keep the region safe.
    An analysis of what happened on May 11, 2005, will serve as a good 
example of how FAA interacts with other agencies when an unidentified 
aircraft approaches Washington, D.C. At 11:28 a.m., FAA and the NCRCC 
became aware of an aircraft entering the ADIZ from the northeast, 
approximately 44 miles from DCA. The FAA's watch officer for key 
communications working with the Domestic Events Network (DEN), 
contacted the Potomac Consolidated Terminal Radar Approach Control 
(Potomac TRACON), which confirmed to participating NCRCC agencies that 
the aircraft was not in communication with air traffic control, had not 
filed a flight plan and that its transponder was transmitting a 
generic, rather than a unique code. At this point, the aircraft was 
considered to be a track of interest (TOI). Because the aircraft was 
flying just within and parallel to the northern boundary of the ADIZ, 
it was not considered an immediate threat and, while it was monitored 
closely, no intercept action was taken at this point.
    The aircraft subsequently turned southbound toward the FRZ, the 
second restricted zone surrounding the Capitol. This information was 
communicated on the DEN to the participating NCRCC agencies. At this 
point, the Customs and Border Protection Office of Marine Operations 
(AMO) ordered the launch of its Blackhawk helicopter and Citation jet 
aircraft from DCA. In addition, two F-16 aircraft were scrambled from 
Andrews Air Force Base. The AMO Blackhawk initially intercepted the 
aircraft about 10 miles north of the Capitol. When the aircraft 
continued to proceed south toward the Capitol, the F-16s moved in to 
intercept. The aircraft was visually identified as a high-winged, 
single-engine Cessna-type aircraft.
    Attempts by the Blackhawk helicopter to signal to the pilots of the 
Cessna and get them to communicate on an emergency frequency were 
initially unsuccessful. At noon, the Department of Defense authorized 
the F-16 pilots to use flares. The flares were dispensed when the 
aircraft was 6.7 miles from DCA. At this time, the Secret Service and 
the U.S. Capitol Police made the decision to evacuate the White House 
and the Capitol, respectively. The Blackhawk continued to signal to the 
pilots to get them to communicate with them. Ultimately, the Cessna 
pilots were able to make contact with the AMO Citation on an emergency 
frequency and the Cessna turned west. The Cessna proceeded through the 
prohibited airspace over the Naval Observatory with the F-16s in 
escort. As the aircraft exited the FRZ, the Blackhawk joined the escort 
north.
    The Potomac TRACON reported on the DEN that the pilots were in 
communication with air traffic controllers at 12:22 p.m. The pilots 
reported to the controllers that they had been instructed to proceed to 
the airport in Frederick, Maryland. Escorted by the Blackhawk and the 
F-16s, the aircraft exited the ADIZ at 12:25 p.m. and landed in 
Frederick at 12:39 p.m. During the flight, Potomac TRACON controllers 
communicated with the pilots several times to tell them how far they 
were from the airport and to warn them to look for other VFR traffic. 
There was little communication back from the pilots of the light 
aircraft to the controllers during the flight.
    The Secret Service sounded the all clear at the White House at 
12:14 p.m. and the U.S. Capitol Police sounded the all clear at 12:40 
p.m. Upon landing, the occupants of the aircraft were taken into 
custody by the FBI, Secret Service, and Maryland State Authorities for 
questioning.
    In this instance, we consider the interaction of the agencies to 
have worked as intended. The communication and interface that took 
place during this incident were an improvement over the interagency 
communication that took place during the incident last June involving 
the Governor of Kentucky's plane which, on approach to DCA, was known 
to FAA controllers, but appeared as an unidentified aircraft to the 
other members of the NCRCC. By contrast, on May 11th, the decision to 
evacuate the Capitol and the White House was made by the U.S. Capitol 
Police and the Secret Service based on the accurate information that an 
unknown aircraft operator had penetrated the ADIZ and the FRZ, was 
heading toward the Capitol, and was not immediately responding to the 
intercept. Once the aircraft changed direction away from the areas of 
concern, an all clear was announced. All agencies in the NCRCC learned 
from the June 2004 event and, as a result, today, both FAA controllers 
and NCRCC members are seeing and acting on the same information.
    After Federal and state authorities questioned the occupants of the 
aircraft, they determined that there was no criminal intent involved in 
their actions and they were released. One of the individuals, Hayden L. 
Sheaffer, held an FAA pilot's license. The other individual, Troy 
Donovan Martin, holds a student pilot certificate. Although Mr. Martin 
was manipulating the controls of the aircraft during the entire 
incident in question, Mr. Sheaffer, by virtue of being the only fully 
certificated airman in the aircraft, was pilot-in-command of the 
flight. As such, he failed to navigate properly and to check adequately 
for, and adhere to, airspace restrictions during the flight. This 
resulted in the aircraft penetrating the Class B airspace around BWI 
Airport, the restricted airspace around the national capital region 
(both the ADIZ and the FRZ), and the prohibited airspace over the Naval 
Observatory without authorization and in violation of FAA regulations 
and procedures. His inability to navigate adequately, his lack of 
knowledge of how to respond to an intercept, his failure to communicate 
with air traffic control despite being lost in controlled and 
restricted airspace, have led FAA to conclude that he lacks the 
qualification required to hold an airman pilot's certificate. 
Therefore, on May 20, 2005, FAA issued an emergency order revoking Mr. 
Sheaffer's pilot's license. The emergency nature of the order means 
that the revocation is effective immediately. Mr. Sheaffer appealed 
both the merits of the revocation and the emergency nature of the 
action to the National Transportation Safety Board (NTSB). On June 3, 
2005, an NTSB administrative law judge (ALJ) sustained the emergency 
nature of FAA's revocation and set a hearing date of June 15 and 16 to 
adjudicate the merits of the action.
    The ALJ's ruling could be appealed to the members of the NTSB. A 
final NTSB decision is appealable to the U.S. Courts of Appeal. Because 
Mr. Sheaffer's case is ongoing, I am limited in what I can discuss with 
respect to our investigation and subsequent enforcement action.
    While Mr. Sheaffer's case received an extraordinary amount of media 
attention due to how far into the ADIZ and FRZ he penetrated and the 
resulting evacuations, ADIZ violations are fairly common around the 
D.C. area. Most are inadvertent and the pilots do not travel very far 
into the restricted area. Although not all pilot deviations have 
resulted in enforcement action, the FAA has taken enforcement action 
against approximately 600 pilots for violations of the ADIZ since the 
beginning of calendar year 2003. Our sanction guidance recommends a 30 
to 90 day suspension of a pilot's license for a typical ADIZ violation. 
However, that guidance does not preclude imposing a more severe 
sanction should the circumstances warrant. In one case, a revocation 
was sustained due to the intentional nature of the violation. The case 
against Mr. Sheaffer is not just an ADIZ case. It involves his basic 
qualifications to hold an airman pilot certificate.
    The other major security issue concerning general aviation in this 
area is the continued restriction in place that effectively prevents 
general aviation aircraft from using Reagan National Airport. This 
restriction has been in place since September 11, 2001. I know that 
this Committee has long supported reopening National Airport to general 
aviation and I am pleased to say that on May 25, 2005, the 
Administration, under the leadership of the Department of Homeland 
Security (DHS) and TSA announced a plan to do just that. As the agency 
that has control over the airspace, FAA's role in implementing this 
plan is critical, but limited.
    FAA will work with TSA and other stakeholders to solidify all 
procedures and requirements necessary to implement the Administration's 
plan. The FAA's representatives at the NCRCC and the DEN will develop 
procedures to timely disseminate and validate information on all 
approved aircraft and operators. We are working on a Web based program 
to streamline this process. FAA will also be responsible for issuing 
advisory circulars and notices to airmen and to pilots that include all 
new procedures put in place. At this time, we do not anticipate that 
approved general aviation aircraft will be required to install special 
equipment beyond what would already be required. Obviously, 
reintroducing general aviation to DCA will be monitored closely by all 
interested agencies and adjustments to the plan may be made as 
necessary. We see the announcement of this plan as a significant 
benefit for general aviation in the D.C. area.
    In conclusion, I would like to say that, although the May 11 
incident was disturbing and resulted in an evacuation of thousands of 
people, causing alarm and uncertainty for a period of time, the system 
worked as it was designed to. NCRCC member agencies coordinated their 
decisions based on accurate information that was shared in real time. 
While it is always appropriate after an event such as this to review 
whether and to what extent the government's responses were proper, from 
a coordination and communication standpoint, the FAA believes the 
system worked.
    This concludes my statement. I will be happy to answer your 
questions at this time.

    The Chairman. Thank you very much. First, let me apologize 
on behalf of myself and the Co-Chairman for starting this 
hearing late. We were with the Chinese members of the U.S.-
China Parliamentary Conference, and they did not depart from 
that meeting until just before 10:30, so we're sorry to get 
started late, but I again apologize.
    Now I am a pilot of sorts. I was interested in the fact 
that this plane that we were talking about on May 11, was 
really a fairly slow moving plane. And I agree, as I've 
indicated before, that the system worked. But would it have 
worked if that had been a high speed jet?
    Mr. Fleming. Yes, sir I believe it would have. Different 
procedures are taken into consideration. A slow moving aircraft 
squawking 1200 around the boundary of the ADIZ is a fairly 
normal occurrence. A fast moving aircraft inbound to the ADIZ, 
not identified, not talking, and not squawking would be highly 
unusual and would raise suspicion much earlier, 60 miles to 100 
miles out.
    The Chairman. We had the situation with the Kentucky 
airplane that did just that. And it was almost through the 
airspace wasn't it, before it was intercepted?
    Mr. Cirillo. In the case of May 11, we identified the 
aircraft, we followed correct procedures. In the case of the 
Governor of Kentucky, correct procedures were not followed.
    The Chairman. Tell me how FAA has changed those procedures 
so it won't happen again.
    Mr. Cirillo. We've have done a number of things, we have 
provided equipment to the people in the NCRCC so that they have 
the same picture as the people in the air traffic control 
facilities. We have done training, so that the identification 
of an aircraft without a transponder, even if it contains a 
data block is clearly identified, and also we have clarified 
coordination responsibilities relative to that incident.
    The Chairman. How far out of the zone would you intercept a 
high speed jet that was not squawking at all?
    Mr. Fleming. That would completely depend on the situation 
sir. Certainly a number of individuals whether it's DOD or FAA 
and CBPAMO are watching that air traffic within a 100 mile 
radius, 150 mile radius.
    The Chairman. Well, he came in from Kentucky and he wasn't 
squawking at all anytime. What's our procedure for intercepting 
such a plane?
    Mr. Fleming. Actually its transponder, sir, was 
malfunctioning so it did squawk, just enough to pass the 
identity to FAA's system. And so it was an intermittent 
transponder, it was working, and was recognized, was captured 
by the FAA system. Since then we have been able to correlate 
two systems that were not in one location. And very soon after 
the Governor Fletcher incident, that system was installed at 
the TSOC which would eliminate the possibility of that sort of 
failure happening again.
    The Chairman. All right. One last question Mr. Fleming. 
Your proposal for the reopening of the Ronald Reagan Washington 
Airport as I understand it, says that a general aviation 
aircraft would have to have onboard an armed law enforcement 
person. Now some of those aircraft are not very large. The 
proposal requires that the aircraft, its crew and passengers 
and baggage must be screened at the airport from which it 
departed.
    Why do you need an armed law enforcement officer on a small 
plane if you have had those four procedures complied with?
    Mr. Fleming. Yes sir. In an effort to ensure that the 
security levels afforded to GA are commensurate with those 
commercial aircraft. Many of these smaller GA aircraft, or 
corporate jets do not have the ability to have a hardened 
cockpit door, meaning that despite the fact that we've done 
background checks on the individuals, there's no physical 
barrier in many aspects between the passengers and the actual 
pilot. That's why we recommended that law enforcement personnel 
be onboard to ensure that there is a physical barrier between 
the cockpit and passengers.
    The Chairman. We all fly from time to time on general 
aviation. Where are you going to find a supply of law 
enforcement officers to fly in from these airports, that 
general aviation enter? They have to land somewhere on the 
circle outside of the Capitol don't they?
    Mr. Fleming. Yes sir, there's 12----
    The Chairman. Isn't that an extreme procedure, without 
regard where they came from? I mean if I come in from Seattle I 
am going to land at an airport before I land at Reagan, right?
    Mr. Fleming. That's correct, sir.
    The Chairman. And I'm going to go through a second 
screening procedure, I've gone through one in Seattle, but I'm 
going through another one now? I'm the pilot of a small general 
aviation jet, and I've got 7-8 passengers. I'm going to have to 
take one of them off to bring in a law enforcement person, is 
that right?
    Mr. Fleming. If you were to do that sir, when you submitted 
your plan to fly into DCA there would typically be no screening 
at the Seattle end of things. Your screening would occur at the 
gateway airport.
    The Chairman. Well I have news for you, almost everyone of 
general aviation fixed space operators, you go through 
screening now. I haven't left any one of them recently that we 
haven't gone through screening. They are aware that there's a 
new standard through general aviation. But what I'm saying to 
you, it looks like to me you are going to take a passenger off 
those general aviation planes to put on a law enforcement 
person. Now how do I get one, if I am coming out of Seattle.
    Mr. Fleming. We're working on a plan now sir, that we think 
will provide access to a lot--various law enforcement 
officials, as well as security officials working very closely 
within the Department to coordinate the training requirements 
for individuals, so we can have a fairly large community of 
people to draw from to fulfill that job.
    The Chairman. Well I hope you take a good look at what 
you're doing. Because being on those planes is not cheap to 
start with. If I have to pick up a law enforcement officer 
somewhere say in Kentucky or Ohio and bring him in here then I 
am going to have to send him back. And the persons chartering 
those planes are soon going to be deterred from chartering a 
general aviation plane.
    I think that burden is too great to put a law enforcement 
officer--I'd rather see you hire ten people and put them at 
that fixed base operator and make them search the plane and 
allow them to get onboard whatever you want. But the concept of 
putting a law enforcement officer on and then having the duty 
to get him back where he came from. I think that's a burden 
that's just going to kill general aviation in terms of private 
charters that want to terminate here in Washington.
    As a matter of fact, I think there would be no question 
they won't terminate there. They'll take us to Philadelphia, or 
take us to New York, they'll take us to somewhere in Virginia 
and let us off, they are not going to go through this. And 
you're killing the very thing we want to do and that's sinuate 
rapid access for those people coming in and going out the same 
day. Senator Inouye. Oh, I had one other question, pardon me if 
I may. And that was to Mr. Cirillo. I have some question about 
the delay in giving the ``all clear.'' And until you give the 
``all clear'' we all stand out in the street. That was a 
considerable delay on May 11. What have we done to change that 
so that the ``all clear'' will be put into the system and it's 
really not a crisis, the government can go back to work in 
Washington D.C.?
    Mr. Cirillo. Actually sir, the FAA provides all available 
information relative to the status of the flight but does not 
actually issue the ``all clear.'' We provide it to the 
appropriate law enforcement agency so that they may determine 
the status of the threat level.
    The Chairman. Who's going to be responsible for giving the 
``all clear? ''
    Mr. Cirillo. I'm not actually sure who is responsible for 
giving the ``all clear.''
    The Chairman. Mr. Fleming?
    Mr. Fleming. Sir, if I may. The all clear being given as 
far as evacuation procedures are concerned, would be given by 
the agency tasked with the protection of that particular 
building. Our goal within TSA, and within the Department, is to 
make sure they have the accurate information of the incident as 
it occurs so they can make that assessment independently.
    The Chairman. That's not what we were told. I was in a 
secure location, believe me. Our people waited until you gave 
the ``all clear.'' That was a considerable amount of time. I 
think that has to be looked at, because we leave these 
buildings, the Supreme Court left their building, the President 
left his building, everyone left their building and we are out 
there until we get an ``all clear'' from somebody. And it was 
very unclear who had the authority to give the ``all clear.'' I 
think that must be cleared up. We request that you notify this 
Committee what is the procedure for determining the ``all 
clear.''
    Mr. Fleming. I'll take that for action, sir.
    The Chairman. Senator Inouye.
    Senator Inouye. Mr. Chairman, if I may followup we were 
evacuated, and we were advised by CNN that it was all clear. 
But yet the Sergeant at Arms was not authorized to do so 
because he said ``I haven't received word from higher up that 
everything is clear.'' Can you explain that to me? Why was CNN 
notified before our Sergeant at Arms?
    Mr. Fleming. Sir, I don't know how that communication took 
place and who notified CNN. I do know that considerable 
communication came from the Department on the status of the 
incident to the various entities.
    However since the incident I also know that considerable 
work has been done to improve that communication through text, 
as well as voice capabilities. So I believe there's been some 
enhancement there. I would certainly like to defer that to the 
appropriate Department officials that can explain better the 
traction we've gotten toward that.
    Senator Inouye. I'm certain you're aware that after the 
``all clear'' the Chief of Police of the District of Columbia 
told the press that his department had not been notified? Why 
was that?
    Mr. Fleming. Sir, I'd have to defer that to the Department 
of Homeland Security Operation Center. I know they have a 
number of predetermined notifications in place that had been 
agreed upon. But I can't speak directly to those. I will defer 
that to the Department for some more specific answers for you, 
sir.
    Senator Inouye. Now that you are going to open up Ronald 
Reagan for general aviation I've already heard reports that 
people are trying to loosen the security requirements that you 
have in place. What do you say to us? Are you going to make it 
tighter or loosen it up again?
    Mr. Fleming. I think the plan as stated is an excellent 
base point. I think as we implement that plan, we'll continue 
to monitor and make adjustments as necessary.
    Senator Inouye. What do you think of Chairman Stevens' 
concern about general aviation?
    Mr. Fleming. I think we certainly have communicated often 
with the industry that would like access to Ronald Reagan. I 
believe this plan not only meets our security needs but meets 
their access needs. Again, this is a base starting point for 
us. As we move forward with this plan if the adjustments need 
to be made, if it's found to be too onerous, or we can adjust 
the security levels we'll certainly continue to monitor that.
    Senator Inouye. Thank you, very much.
    The Chairman. Senator Burns?
    Senator Burns. I'm interested in a couple areas, you have 
only chosen this one gateway airport here at DCA for this time. 
Are other airports going to be chosen?
    Mr. Fleming. From a gateway standpoint sir, we have 12 
airports around the country that were selected as gateways, 
which would be screening points that would allow you to access 
Ronald Reagan. So if you are coming from, somewhere in the 
country, you've got a choice of 12 different airports. We 
selected those airports, based on various factors, primarily 
those airports that served the largest portion of traffic in 
the DCA prior to 9/11. And then we also selected some 
additional airports just for access and ease of operation.
    Senator Burns. Mr. Fleming, will you describe the criteria 
that's involved now whenever they land at a gateway airport to 
come into the DCA?
    Mr. Fleming. Yes sir, the first step would be part of the 
access program. There are some program requirements which 
include some physical security requirements at the FPO itself. 
Once that's been established you would communicate your 
requirements to enter DCA. You would provide us a list of your 
crew and your passengers, and those would be vetted. You would 
proceed to that gateway airport where we would do physical 
screening, both of the aircraft, the passengers, carry-on, as 
well as any checked baggage if that's appropriate.
    A law enforcement officer would be added potentially at the 
gateway or could be brought from the location in which the 
aircraft originated. And from that point they would contact the 
NCRCC and notify their intent to fly into the DCA area and 
depart.
    Senator Burns. All this costs money. Where does it come 
from?
    Mr. Fleming. Yes, sir. In the plan now we plan to pass the 
cost of screening equipment, and other associated cost to those 
that desire access to DCA. We currently--in that current 
configuration those fees would be transmitted into the general 
fund and in order for that revenue to go back to TSA, the 
legislation would have to be enacted to allow TSA to keep those 
funds.
    Senator Burns. Those are all the questions I have.
    The Chairman. Senator Nelson?

             STATEMENT OF HON. E. BENJAMIN NELSON, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Nelson. Well, thank you Mr. Chairman. First of all, 
I want to commend you for an effort to reopen general aviation 
at National so close to all of us who can come in and come out. 
I believe in a belt and suspenders approach. I can't believe 
you would choose gateway locations requiring then security as 
opposed to requiring a hardened door. I don't understand why if 
someone wants to fly in a private plane that it wouldn't be 
more feasible to require a hardened door. And when they stop at 
the gateway airport it can be verified that they have a 
hardened door. I can see going through the manifest to see who 
the passengers are, vet them, work your way through it.
    But once you have a hardened door the chances of the misuse 
of that airplane have been reduced significantly. And probably 
reduced more than even with a security person onboard. So it 
seems to me that we have chosen the right course, the wrong 
way. And I don't understand why, perhaps you can enlighten me. 
Either of you, I'm not picking on anyone. Choose between 
yourselves, it doesn't matter to me.
    Mr. Fleming. From a security standpoint hardened doors are 
an incredible asset. However, from an air frame standpoint 
which I can defer to the FAA, a large percentage of these 
aircraft that would like access to DCA are not capable of being 
retrofitted for hardened cockpit doors.
    Those that are would require considerable expense in doing 
so and I'd defer to the FAA on that process.
    Mr. Cirillo. Actually that's not my area of responsibility, 
so I'm not exactly sure what the process is. But we can get you 
that information.
    Senator Burns. But couldn't you make it either or? In other 
words, I don't know why we have a one-size-fits-all approach 
here, as opposed if you have the hardened door, or if you can 
harden the door, why would you have to have a security 
passenger as well? It seems to me we ought to have some 
flexibility here that makes sense to recognize that some may 
choose to do it one way, and others may choose to do it another 
way. But I commend you for trying to find a way to do it. I 
just don't want it to be an impossible task or put the barrier 
so high that it's very difficult for anybody to really meet it, 
feasibly.
    I don't see that this is feasible quite honestly. I don't 
know why you don't just keep it closed as opposed to putting up 
a standard that very few are going to be able to meet or want 
to meet. Or the cost is going to be so great that it becomes 
difficult to meet. Thank you, Mr. Chairman.
    The Chairman. Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you Mr. Chairman. Thank you, for 
holding this hearing. I have a statement that I would like to 
be part of record.
    The Chairman. It will be, thank you.
    [The prepared statement of Senator Allen follows:]

               Prepared Statement of Hon. George Allen, 
                       U.S. Senator from Virginia
    Thank you Mr. Chairman. I appreciate you convening this hearing so 
we can examine our policies pertaining to the District's airspace and 
the importance of allowing general aviation flights to again operate at 
Reagan National Airport.
    Following the terrorist attacks of September 11 it was necessary to 
take extreme security precautions to make sure further attacks could 
not be carried out. One of these precautionary measures was the closure 
of Reagan National Airport to general aviation flights and strict 
limits on aircraft permitted to fly into Washington, D.C. airspace.
    Since that time, we have progressively re-opened our civil aviation 
system and today virtually all flights and airports are as accessible 
as they were prior to September 11. An exception is obviously access to 
D.C. airspace and general aviation flights into and out of Reagan 
National Airport.
    The policies that have been implemented to limit access to the 
airspace of the Capital Region are providing the necessary degree of 
security. The agencies tasked with protecting D.C. airspace are 
continuing to work together and improve the way in which information is 
shared and analyzed.
    There have been two high-profile incursions into restricted D.C. 
airspace. This should be cause for concern, but not panic. I understand 
there was a transponder problem in the case regarding the Kentucky 
Governor, and that FAA identified deficiencies in its own response 
procedures that were subsequently corrected.
    The second incident involved a pilot that ``froze'' once his 
aircraft was intercepted. There were numerous and clear signals given 
to the pilot to divert and he ultimately did.
    I do not believe these two incidents should affect how we establish 
policy with regard to general aviation at Reagan National Airport.
    I am pleased that the Administration has agreed to again allow 
general aviation to operate in and out of Reagan National Airport. In 
reviewing TSA's plan, I would submit that it is a good first step.
    This is an important victory for the airport and many surrounding 
businesses. Non-scheduled air carrier operations at Reagan National 
once generated an estimated $50 million a year in direct economic 
activity from charter revenue, aircraft handling and refueling 
services. The lack of charter and general aviation passengers coming 
into the city, hotels, restaurants and other service businesses near 
Reagan National have suffered a significant, negative economic impact 
as well. Hopefully the implementation of this plan will bring those 
revenues back.
    As many know, I have been working on this issue for quite some 
time. I introduced legislation directing the Administration to allow 
general aviation flights at Reagan National, but also provided for some 
reasonable, practical conditions to be included in any plan to re-open 
the airport.
    Security is and will remain the paramount consideration with this 
change in policy. I understand the Administration's plan contains a 
number of additional security measures (similar to those in my 
legislation) that are going to be required for general aviation flights 
to operate out of Reagan National. I believe that is a prudent approach 
at this time.
    I do however want to make sure these conditions are not so 
impractical that general aviation operators are unable to meet them. It 
is important that we give this policy a chance to succeed. Overly 
restrictive regulations that go far beyond those applicable to 
commercial aviation will not give us a fair determination that general 
aviation can be safely operated at Reagan National Airport.
    Should the implementation of this plan go smoothly, it is important 
that we re-evaluate the current restrictions and consider opening 
Reagan to more general aviation flights each day.
    Again, I view the plan the Administration has put forward as a good 
and appreciated first step. I look forward to working with TSA and FAA 
in the future to ensure the safety and practicality of general aviation 
flights at Reagan National Airport.

    Senator Allen. This is an issue that as Members of this 
Committee and those in Administration know, I have been 
focusing on for many years because of the impact, the adverse 
impact that the closure of Reagan National to general aviation 
has had, in jobs, in revenue, as well as obviously in access to 
our Nation's Capital.
    I want to applaud the Administration for finally coming up 
with a plan for reopening Reagan National. I introduced a 
measure this year, Senate Bill 433 that had the understanding 
in it, in directing the Administration to reopen Reagan 
National so that they could have additional security. It's 
logical to have additional security requirements for Reagan 
National.
    The requirements should be rational, they should be 
reasonable, and they should be practical. This is a first step, 
you called it a start, a base plan, I am referring to Mr. 
Fleming taking those notes down. In looking at it, the 
questions from Senator Burns and our Chairman, are ones of 
practicality. In fact even in Senator Nelson's proposal to get 
a hardened cockpit door, you would need to have a law 
enforcement officer onboard.
    I think in most cases for general aviation it's pretty hard 
to get in a hardened cockpit door, when you think of what 
pilots do on such planes and some of them they're just--it's 
just as a practical matter difficult to do. However, some may 
want to do that, and if they do meet that criteria, you ought 
to have the flexibility of saying we want this added security, 
but have the flexibility on different ways that it can be done. 
It will probably have to be in a place like Lexington, 
Kentucky, a lot of these law enforcement officers ready to get 
hired on.
    They maybe deputy sheriffs, they be who knows what, just to 
take this flight in. Most general aviation planes do not have 
hundreds of seats on them. There's usually anywhere from 8 to 
maybe 12, I suppose, and so that could be a limit. The other 
thing you all need to understand is with the closure of Reagan 
National, it really clogs up Dulles Airport for general 
aviation, where you have the cargo and commercial and folks who 
are on that runway for a long time. Smaller planes, as well as 
the big commercial aircraft. What I would like to know from 
you, Mr. Fleming, is that first when are we likely to get this 
final rule accomplished? Because once this final rule is 
accomplished, then you're going to see how many want to avail 
themselves of these added burdens of flying into Reagan 
National. Can you give us a date when you think this will 
actually kick in?
    Mr. Fleming. It's a very high priority of the Department. 
We're finalizing that IFR, now. I don't have a specific date 
for you. But I assure you it's a high priority and we're in the 
finalization process.
    Senator Allen. Do you think it will take a month? Will it 
be done by, for example, Independence Day, or August 1 when do 
you think this will----
    Mr. Fleming. Sir, I don't have a date. I do know that we're 
just in the finalization process of the rule now. I don't 
anticipate a lengthy delay.
    Senator Allen. All right. Let's assume this kicks in, in a 
month or so. And you will be monitoring this, and there are a 
certain limited number of slots that are available. What will 
be the indicators to you, as to when you're monitoring this 
first step that adjustments need to be made? What will be the 
indicators? Will it be that there are fewer flights coming in 
than there are available? Will it be comments from those who 
say, gosh I would like to come in but it's so impractical to 
fly the way that we have to fly in these gateway airports, so 
you may actually increase the number of gateway airports. Or 
maybe modify the law enforcement officer requirement, or any 
other sort of things that would come up. What will be the 
criteria, so that people if they do have comments, ideas for 
necessary changes, greater practicality, how will that be taken 
in, and what will be the conduit? And what will be the criteria 
you will use to determine more gateway airports, or whether or 
not this is actually having the desired effect of allowing more 
to use general aviation at Reagan National?
    Mr. Fleming. Sir, I think certainly a primary conduit would 
be the industry itself in general feedback on the plan. For 
those that do enter into this security program, each of them 
will be identifying a security point of contact. And that will 
be our main contact between those private entities and TSA on 
how that program is going. We have a normally instituted 
feedback with our compliance group with that security point of 
contact within the industry. So we plan to get feedback through 
both those mechanisms, and adjust accordingly.
    In addition to that, we'll continue to work with our 
Federal partners within the Department, and outside the 
Department on access and availability.
    Senator Allen. How do you envision today this requirement 
of--the requirement of a law enforcement officer on a flight. 
Do you envision a training program for individuals and that 
will be in different parts of the country, or how do you 
actually envision that taking place?
    Mr. Fleming. Yes sir.
    Senator Allen. I am trying to get the practicality for 
those who may want to use it. I know there are a lot, very many 
who want to reopen Reagan for general aviation. That is 
probably going to be the most problematic matter not just 
taking up a seat in a smaller aircraft. But how do you actually 
get such personnel on a plane? And you know, who's qualified? 
If you can share with us how that would actually work as a 
practical matter?
    Mr. Fleming. We're working now to establish a level of 
training required and background required to act in this 
capacity. Our goal is, once that's established and we are 
finalizing that now, once that is established to ensure that 
training is readily available across the United States, so that 
access is open. So that's our program for the security officer 
on board and we should be, you should see details of that 
delineated in the IFR as soon as it's issued.
    Senator Allen. Do you envision the TSA conducting this 
training or could it be done from law enforcement, say local or 
state law enforcement, or others who would be conducting--
excuse me.
    The Chairman. Go ahead.
    Senator Allen. If you would just say who would you envision 
being the instructor of such training to meet this criteria?
    Mr. Fleming. We think there are other entities, other than 
TSA, that may be able to provide this training. We are 
exploring that now.
    Senator Allen. Thank you Mr. Chairman.
    The Chairman. Sorry to interrupt you. But I'm trying to 
keep the time down.
    Senator Allen. Understood.
    The Chairman. Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman. I have to say 
that I find it a bit ironic that this hearing concerns itself 
with opening up Reagan National Airport, which is what would 
certainly be convenient for all of us and all the lobbyists 
that come into town. In the meantime there are 200,000 general 
aviation planes that take off every day. And two-thirds of 
them, in fact three-quarters of all traffic in the air is 
general aviation, private aviation. Two-thirds of that is 
single engine.
    Now I'm--that's fine we open up Reagan National that's 
fine. I've never found any crowding at Dulles. I have to 
charter sometimes, I have to drive a half hour, so what. In 
West Virginia, we have to do that all the time. I am worried 
about that 200,000 that are not being monitored, have virtually 
no protocol for security for which you have, I believe you 
cannot testify other than that you have ten or fewer people 
associated with looking at their protocol in which there are no 
substantial pilots licenses, no checking, people just get on 
and get off airplanes. The 9/11 Commission made a big point of 
this, that it's a lethal weapon. The single engine plane is a 
lethal weapon. So are any of them. And we're talking about 
Reagan National. I am happy to talk about Reagan National. But 
I would like to know, is it true that you have zero dollars, 
and about ten employees that are monitoring 200,000 plus 
private airplanes across this country that take off--that are 
in the air every day?
    Mr. Fleming. I believe the funding level is at the 1.5 
million level, and I believe it's 12 FTE that are dedicated 
toward general aviation, sir.
    Senator Rockefeller. Twelve. I stand corrected then, it's 
12 not 10. The 9/11 bill said that we had to improve the 
existing pilot licenses, they're kind of paper, with a 
photograph. And it talked about upgrading them substantially 
including the use of biometrics is any of that in process? 
Except for the 12--I assume that's going to be on the 12 entry 
points, is that going to be effective anywhere else, anybody 
doing any work on that?
    Mr. Cirillo. The FAA is working on the modified pilot 
license, yes, sir.
    Senator Rockefeller. What does that mean?
    Mr. Cirillo. To----
    Senator Rockefeller. I know what a modified pilot license 
is. What do you mean, is working on it. I am working on lots of 
things, it doesn't mean I get them all done.
    Mr. Cirillo. It's in process, it involves rulemaking, and 
it's in a certain stage of that process.
    Senator Rockefeller. I don't know what that means. It 
involves rulemaking and it's under a--is it being done or not? 
Is it halfway done, two-thirds done?
    Mr. Cirillo. I'm not sure exactly the time line for 
completion of it.
    Senator Rockefeller. Is biometrics involved?
    Mr. Cirillo. I'm not absolutely sure what the final 
criteria is going to be.
    Senator Rockefeller. Is there any other general aviation 
plane in the country, other than the one that you're talking 
about which is having any of its luggage checked, which is 
having any of its passengers wanded or any of its pilots using 
other than the regular form paper license with the photograph 
attached primitive stop? I am not trying to be hostile, I think 
it's a very dangerous situation for Homeland Security. It's an 
extremely dangerous situation. Every single hour of the day, we 
know something about that here.
    Mr. Cirillo. Relative to security measures I can't answer 
to that, but the change in the pilots license has not occurred. 
It is being worked.
    Senator Rockefeller. I think that you are, Mr. Fleming you 
are the Chief Operating Officer of TSA. You ought to be able to 
answer that question.
    Mr. Fleming. Sir, we've have taken a number of approaches 
from a TSA standpoint, the threat, vulnerability, and 
consequence of general aviation compared to commercial 
aviation, there are some obvious differences. However you do 
point out the size of the community. And we look at the size of 
the community, compared with that threat, vulnerability and 
consequence. We have leveraged a number of programs. We are 
instituting and working with the industry to institute a 
vulnerability assessment program that GA airports and FBOs will 
institute. We have issued guidelines in working with Civil 
Aviation Security Working Group----
    Senator Rockefeller. Guidelines, but essentially they're 
self regulating, is that correct?
    Mr. Fleming. That is true, sir.
    Senator Rockefeller. So the commercial is under control of 
the TSA, they're the minority of the planes flying and the 
majority of the planes flying are self regulating?
    Mr. Fleming. That is correct. The majority of the planes 
flying that have a high threat, vulnerability, and high 
consequences are the ones we have regulated to date.
    Senator Rockefeller. My time is up, I thank you.
    [The prepared statement of Senator Rockefeller follows:]

             Prepared Statement of John D. Rockefeller IV, 
                    U.S. Senator from West Virginia
    I would like to thank Senator Stevens for holding this hearing 
today and would like to welcome our witnesses.
    First, I would note that I have supported legislation re-opening 
National Airport to general aviation, but have always predicated my 
support on whether or not sufficient security protocols could be 
established.
    The Administration has developed a rigorous security program for 
National and before anyone wants to ease these requirements, I believe 
it would be prudent to implement them and then see what, if any, future 
adjustments need to be made.
    Although much of this hearing will be devoted to issues surrounding 
the re-opening of National Airport to a limited amount of general 
aviation traffic, I believe it is important to take this opportunity to 
explore what I believe is one the most pressing issues in aviation 
security today--the lack of a comprehensive Federal security regime for 
general aviation.
    As we all know, the 9/11 report and other recent DHS reports 
confirm that general aviation represents a substantial security risk. 
As we strengthen our passenger and cargo security systems the 
terrorists will seek other avenues. I believe that general aviation 
remains a rich and easy target for terrorists. I do not make this 
statement lightly. We have a serious problem and we must address it.
    In reviewing the Transportation Security Administration's actions 
on general aviation security, I remain deeply troubled. To be blunt, 
the Agency is doing nothing but relying on voluntary self-compliance 
from the affected stakeholders to devise a security system for general 
aviation. This simply is not good enough. I know our panel of industry 
representatives will argue that their voluntary measures are 
sufficient, but I disagree.
    The reason the Federal Government is relying on industry for 
general aviation security is because TSA does not have the resources 
and staff to do it themselves. This is another glaring example of the 
Administration shortchanging our aviation security needs because of 
irresponsible budget policy. It is my understanding that TSA has only a 
limited number of staff devoted to general aviation security and no 
dedicated budget. Given the size of the industry, this lack of 
resources and commitment is stunning.
    I also dispute the notion that the size of the aircraft limits its 
damage potential. We evacuated the Capitol weeks ago because the 
government did not know what might be in that small plane. A small 
plane packed with lightweight explosives, biological or chemical agents 
can be as much of a threat as a commercial airliner.
    I want to work with the other Members of the Committee, the 
Administration and the general aviation community in establishing an 
effective Federally operated security regime and to strengthen aviation 
security as a whole. This may take an implementation of a general 
aviation security fee. I strongly believe that general aviation needs 
to be kept operating, but there is a legitimate need for more security.

    The Chairman. Senator Lautenberg.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, I ask that my full 
statement be included in the record.
    Senator Rockefeller. As do I.
    The Chairman. Yes sirs, they will be.
    Senator Lautenberg. First of all let me clearly say that I 
support the access to general aviation for those who are 
fortunate enough to use it and those who go along with those 
who can afford it. The fact is that it's a significant 
convenience, a significant part of our culture. Terrorism has 
inflicted many new, complex problems on us. We see it every 
day, and every time we go to the airport and wait in the long 
security lines et cetera. That's the price you pay for 
protecting our public. Now, Newark airport is short the full 
complement of security screeners that we are supposed to have. 
Officials at the airport say we need 1,440 in round numbers, 
but we only have 1,200. In Teterboro, there is a very active 
airport that serves the New York marketplace. And prior to 9/
11, Teterboro also sent more GA aircraft to Washington National 
on a regular basis than any other airport of origin.
    Well now, the Administration wants to take something like 3 
to 5 only, just a small number of screeners, over to Teterboro 
from Newark, which is already short screeners all together. So 
Mr. Cirillo, is that something you are looking at and what's 
the answer to that?
    Mr. Cirillo. Sir, I think I once again defer to Mr. Fleming 
for that question.
    Senator Lautenberg. Sorry. I've still got the jurisdictions 
mixed up here. Please go.
    [The prepared statement of Senator Lautenberg]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, thank you for calling this hearing and giving us an 
opportunity to examine important issues affecting General Aviation.
    General Aviation (GA) accounts for three-fourths of flights in the 
United States each day. There are more than 200,000 active GA aircraft, 
operating at almost 19,000 airports. All of these aircraft pose a 
tremendous challenge for the Transportation Security Administration. 
Federal intelligence agencies have reported on several occasions that 
terrorists have considered using GA aircraft to launch attacks. And the 
report of the 9/11 Commission found that ``major vulnerabilities'' 
still exist in GA security.
    In the immediate aftermath of 9/11, GA flights were restricted in a 
number of areas around the country, especially the Washington, D.C. 
region. In May of this year, however, the TSA proposed re-opening 
Washington National Airport to GA flights from 12 designated airports 
around the country--including Teterboro Airport in New Jersey.
    In order to upgrade security operations at Teterboro, the TSA 
indicated it will transfer security screening personnel from Newark 
Liberty Airport.
    Mr. Chairman, I certainly agree that security personnel are needed 
at Teterboro, but it would be wrong to divert resources from Newark 
Liberty Airport, which is one of the largest in the country. It is 
also, I must remind my colleagues, one of the airports that the 
terrorists used on 9/11.
    Newark Liberty is already understaffed. Officials say they need 
another 200 screeners to handle the amount of traffic at this busy 
airport. I also think that before we begin allowing more flights from 
Teterboro to National Airport, we must have a clear picture what the 
impact on the local community will be.
    Speaking of small aircraft flying to the Washington region, several 
important questions were raised by the recent air incursion that caused 
the emergency evacuation of the Capitol and Congressional office 
buildings. For one thing, despite the possibility of an airborne attack 
with biochemical weapons, local authorities in the District of Columbia 
were not notified. Also, even though the situation was serious enough 
that the First Lady was removed from the White House, the President, 
who was just a few miles away riding a bicycle, was not informed of the 
situation.
    With the resumption of General Aviation flights to the Washington 
Region, I hope that the protocols for handling possible security 
threats can be developed more thoroughly. Once again, Mr. Chairman, I 
thank you and our witnesses for this opportunity to learn more about 
this important issue.

    Mr. Fleming. Sir, resources within TSA is something that we 
constantly look at and evaluate, and to balance the needs 
across the system is something that we need to be constantly 
mindful of.
    We do have a history and Newark Airport is operating from a 
metric standpoint very nicely within the operating environment, 
with the screeners that they have. With orange--the orange 
level increase in the New York area last summer, we did deploy 
screeners from Newark to Teterboro to conduct some screening. 
And during the RNC process, we set up gateways and did 
screening with assets from Newark. That did not prove to be 
taxing, however we will continue to watch that.
    Senator Lautenberg. Well, Mr. Fleming, if you saw some of 
the lines that we have at Newark, you'd see that it's a very 
busy airport. And frankly, I have spoken to some of the TSA 
screeners during a few minute opportunity that I had to talk to 
some of them, and they complained about the break time and 
other working conditions. That it's hard to focus on the 
passing of baggage on a regular basis when they are 
shorthanded. And they are. I mean you say it's operating well. 
It's operating, it's quite a secure airport, I think. But the 
fact is that they want 200 persons more screening baggage and 
now we are going to take screeners away from Newark. I'd like 
not to see that happen if we can do it.
    I started by saying that I believe we should be securing 
general aviation. It's a part of our culture, and a part of the 
convenience for important matters that occur in the business 
world and private world as well. I want to ask you this. What 
do you mean when you say that every GA airplane that's coming 
to Washington National is going to have a law enforcement 
officer aboard?
    Mr. Fleming. That is part of plan, sir.
    Senator Lautenberg. That is part of the plan.
    Mr. Fleming. Although we are looking at, as was mentioned 
earlier, the hardened cockpit door in those few aircraft that 
we think are in the community that can support that, we are 
looking at the possibility of replacing that requirement for 
those.
    Senator Lautenberg. Would there be a rule that says you 
can't have an airplane--So it's true what you would like to do 
is have a law enforcement officer aboard every plane. Is that 
correct, sir?
    Mr. Fleming. Yes, sir.
    Senator Lautenberg. What's that going to take in terms of 
expanded Departmental resources? Do you know how many more 
people you might need?
    Mr. Fleming. Sir, that's not going to be a law enforcement 
officer that's provided by the Department. We are going to set 
some training and background standards and then work to get 
that training program throughout the country. So that law 
enforcement officers, off duty law enforcement officers can 
avail themselves to that training, and provide that service to 
the operators.
    Senator Lautenberg. It may not sound fair but could you 
bar, let's say single-engine airplanes from coming in? Some of 
them are pretty big these days. But can you put a handle on 
identification of the kind of aircraft that should be allowed 
through? Also, would every airplane have to have at least two 
persons aboard in addition to the law enforcement person? I'm 
saying that you have to have at least two persons in the 
aircraft, and the background on each of them would, I assume, 
be checked. Are you looking at this as part of a rule for 
general aviation operations coming into Washington National?
    Mr. Fleming. We have not envisioned focusing on the numbers 
of passengers, or persons onboard the aircraft. The requirement 
would remain the same for any number of passengers that 
happened to be onboard, the prevetting of their backgrounds. We 
have looked at the size of aircraft and what sort of operations 
the aircraft are taking.
    Senator Lautenberg. And along the way would they be 
checking in with flight service stations so that their 
identification is updated as they go along? Or would they have 
filed for Washington National Airport anyway? But there should 
be a routine that would require check-in on a regular basis. I 
would ask one last question Mr. Chairman. And that is, at what 
point does interference with a flight take place by the 
military if someone is coming in.
    Do they--are they going to be constantly supervised by 
military planes in the sky? Because for several of airports 
you're talking about less than an hour ride from Washington--
the gateway airports, right?
    Mr. Fleming. Yes, sir.
    Senator Lautenberg. So at what point would one take 
military action? Would you wait until they are right up at the 
door or the circumference of the circle that is prohibited 
space? At what point is the notice given to scramble aircraft 
for the military?
    Mr. Fleming. Sir, I would defer to the Department of 
Defense to answer their scramble procedures.
    Senator Lautenberg. Well, Mr. Fleming, you're here. You're 
representing the TSA and you are the folks that manage the 
security around these places. And I assume that you're close 
enough to the Defense Department to know you would issue an 
order when an order should be issued to say: ``hey, get in the 
way of this guy.''
    Mr. Fleming. From a monitoring standpoint the NCRCC, and 
all the agencies that are resident there, they are watching 
aircraft in and around the ADIZ, or the D.C. area. At any time 
we feel uncomfortable with the actions, or lack of 
communication, or other indicators of the aircraft there are 
immediate protocols to engage all the authorities necessary. In 
many cases the Department of Defense does engage.
    Senator Lautenberg. Thank you, Mr. Chairman.
    The Chairman. Let me just make sure that my friend from 
West Virginia stated the number of private planes that are out 
there. I think one area of private planes that is the acute 
area, is that those entities that lease private planes. My 
state has more private planes per capita than anywhere in the 
world. We have more pilots per capita than anywhere in the 
world. We don't have buses or taxicabs, we don't have street 
cars, we have airplanes. And I can tell you that in most areas 
of the country I've visited fix base operators know who owns 
which plane and who can fly that plane. They would be very 
quick to try to prevent anyone from taking up a plane that 
didn't belong to them. It's the leasing of airplanes that is 
the greatest risk to security in my opinion.
    Have you concentrated on that at all?
    Mr. Fleming. We are looking at that, sir. We are looking at 
that. We have not formulated an opinion specifically on our 
approach on leased aircraft, but we are in negotiations on that 
now.
    The Chairman. I do think we ought to find some way to 
increase the responsibility of fix base operators to know those 
who use the facilities and to check their identity, and not 
just the drivers license but real identity. We would cooperate 
with that in every way. I have no problem about identification. 
I don't know if any general aviation pilot that I've ever met 
would refuse to have a change in the license, biometrics or 
whatever you want.
    But the real problem is to try to control those who abuse 
the system, not those who use the system. So I would urge you 
to try to look at the abuse, and not the use of the general 
aviation system. But thank you very much for appearing today. 
We have another panel we would like to get that if we could. I 
assume no one else has any further questions of these 
gentlemen?
    Senator Burns. I have a question. One short question in 
slots. I have one short question and slots. If you know, DCA 
has controlled slots. And how they will be allocated among 
those gateways. Can one gateway city take up all the slots and 
leave somebody else, out in the cold. I think they're allotted, 
and how that will be done. Is that first come first serve, but 
I think it's a logical question?
    Mr. Cirillo. I think from the FAA standpoint we will 
receive a vetted request for a slot from TSA, and we will allot 
those on a first come first serve basis.
    Senator Allen. Mr. Chairman, may I just ask one quick 
question?
    The Chairman. Yes sir.
    Senator Allen. As I was mentioning earlier on these 
airports, the 12 gateway airports. As you monitor this and just 
looking at logistics from the west if somebody is coming from 
some place from the west, which is east of certain areas they 
are going to have to stop, probably in Lexington, if they are 
going to come to the west from here to Reagan National. From 
the north there's a lot of Teterboro in light planes and so 
forth up north including Philadelphia. If you are coming from 
the south there are none other than West Palm Beach as a 
practical matter, or Houston. Would you envision for those that 
are coming from a place like Charlotte or Atlanta or Nashville, 
or Memphis, that you set up a gateway airport closer in. 
Whether that's practical. I'm not trying to do this just for 
Virginia, but there's a logic if Lexington from the west--
Lexington is going to be your gateway, if you are coming from a 
place like the plains, or you want to go to Minneapolis.
    If you look at this logistically in the country, if you're 
coming from the south other than West Palm Beach, Florida, or 
Houston, Texas you're going to have to divert somewhere, unless 
you want to backtrack down to southern Florida or backtrack all 
the way back to Texas. Would you think of having some perimeter 
airports? It may be Richmond or Roanoke. It might be for that 
matter, it might be Danville, it might be Greensboro, North 
Carolina.
    Do you understand what I'm saying, just for the 
practicality of those that are not flying from places like 
Houston or West Palm Beach they are going to have a heck of a 
time getting up here. Maybe they will have to go to Lexington, 
but do you understand what I'm saying?
    Mr. Fleming. Yes sir.
    Senator Allen. Do you envision or will you have the 
practicality to be flexible? Say we're going to have another 
gateway airport just to service those coming from non-gateway 
airports in the south?
    Mr. Fleming. Absolutely, I think these initial gateways 
that were laid out, were really based on the market 
requirements prior to 9/11. If we get into this and find out 
that these don't meet the needs, we will certainly look at that 
and make adjustments to it if necessary.
    Senator Allen. All right. And you'll see that maybe it will 
make sense to use Newport News for an airport for whatever 
reason, as a gateway airport. Even though there are not many 
flights that may originate from Newport News, it will at least 
get all the Carolinas and Georgia covered.
    Mr. Fleming. Sure.
    Senator Lautenberg. Chairman, I've have got one question.
    The Chairman. I would hope we'd get on to the other panel. 
But yes, sir.
    Senator Lautenberg. Yes, please. The 9/11 Commission 
recommended a Transportation Security Plan. And under the 
leadership of Senator McCain, Congress, the Senate passed it. 
Now, it's 4 years, and we still don't have a Transportation 
Security Plan. Is there, do you know of any plan that's in 
development Mr. Fleming, and when it might be available?
    Mr. Fleming. Definitely in development. I'm working with 
the new leadership to get that vetted and out.
    Senator Lautenberg. How long might that take?
    Mr. Fleming. I'm sorry, sir. I don't have a time line on 
that.
    Senator Lautenberg. I would add some urgency to it. Thank 
you. Thank you Mr. Chairman.
    The Chairman. We have available peripheral airports now, 
Dulles and Maryland. We just checked what the estimate would be 
on an average day, there'd be about 24 of these planes landing 
at Reagan. That would be 8,760 slots per year. If you put a 
$500 dollar fee on them you are talking about $2,787,000 for 
revenue. The burden that you are putting on those planes are 
such that they're not going to come. They're going to go to 
Dulles, and they're going to Maryland. Unless you find some way 
to take the burden off. If you really want to land there has to 
be another way to solve this problem. Thank you very much 
gentlemen. We'll call the second panel.
    Next panel is Ed Bolen, President and CEO of the National 
Business Aviation Association. James K. Coyne, President of the 
National Air Transportation Association. Mr. Andrew Cebula, 
Senior Vice President of Aircraft Owners and Pilots 
Association.
    Gentlemen, we thank you very much, and appreciate your 
willingness to appear, and give us your views. I believe if it 
will be proper as far as you are concerned we'll go in the 
order that I read the names. If we'll just proceed, Mr. Bolen.

  STATEMENT OF ED BOLEN, PRESIDENT AND CEO, NATIONAL BUSINESS 
                      AVIATION ASSOCIATION

    Mr. Bolen. Well, Thank you Mr. Chairman, thank you for 
convening this hearing. I would ask that my full statement be 
made part of the record. Thank you very much.
    Mr. Chairman, as you and the others on the Committee well 
know, general aviation is a vital part of our Nation's air 
transportation system and an important cog in our economic 
engine. Everyone on this Committee also knows that general 
aviation is different and distinct from the commercial 
airlines. And as a result of that, the security approaches need 
to be different and they need to be distinct. They also need to 
be effective.
    Now since September 11, 2001, the general aviation 
community has come together and it's worked very hard to try to 
understand our vulnerabilities. We hired outside experts, we've 
met together in groups and as a result of that we have offered 
a number of security recommendations and more importantly 
implemented a number of security initiatives that we believe 
have enhanced the security of general aviation since 9/11.
    And in my written testimony I go through a number of those. 
We think that this diligence that we have taken toward 
addressing general aviation's security, combined with the 
tremendous leadership of Congress and with the commitment from 
the new Secretary of the Department of Homeland Security, and 
the Deputy Secretary has really led to the resumption of 
general aviation operations at Reagan National Airport. And 
we're profoundly grateful for the opportunity to once again be 
able to have access to that important airport.
    We recognize as all of you have talked about that it is a 
very limited opening. The restrictions are very very onerous. 
But I don't think we should lose sight of how important this 
first step is. Because it means we are beginning to evolve our 
approach to security. After 9/11 we had a very crude, 
effective, but crude response and that was to immediately ban 
all general aviation flights. And over time we began to bring 
back general aviation, we brought it back everywhere but Reagan 
National Airport. We continued to use that crude instrument of 
just creating a no fly zone.
    That needs to evolve. We need to find a way over time to do 
more with less. What I mean by that is we need to do more 
security, with less interruption to our individuals' mobility, 
and the openness of our society. And so the first steps here at 
Reagan National Airport are really important because they say 
we are going to do something that enhances security at Reagan 
National Airport, and at the same time facilitates mobility. 
And I think over time we continue to work on that and we can 
continue to evolve it.
    I know that those of us in the general aviation community 
have been working very hard at how we can do that. NBAA, the 
community that I have the pleasure and honor of representing, 
has worked on a tool, that we think goes a long way toward 
that. It's called Transportation Security Administration Access 
Certificate (TSAAC). It's a pilot program that's been 
instituted in the New York area. Twenty-four companies are 
participating in it. They are providing a lot of information to 
the TSA, and in return they are receiving some benefit on 
international operations.
    In some ways it's very similar to a registered traveler 
program for business aviation operators. And we would like to 
see that particular program rolled out on a nationwide benefit. 
We think the benefits ought to be expanded beyond international 
waivers, but perhaps be used to also provide access to 
temporary flight restricted airspace. The idea on a lot of 
security is that, with trying to find a terrorist, you are 
trying to find a needle in a haystack. With programs like the 
TSAAC you're able to remove some of that hay and make it a 
little easier to find a needle in the haystack. So, were 
excited about that.
    But as I said before, the important thing for us is to 
constantly work with ourselves, with the security experts, with 
Congress and with the TSA to constantly try to find security 
initiatives that can simultaneously enhance security but also 
promote the openness of our society, and the mobility of our 
individuals. Because I think we believe that it's important for 
us to preserve our national values at the same time we are 
enhancing security. And we believe it's everyone's 
responsibility.
    So we look forward with working with the Committee on that 
and I want to also take the opportunity to once again thank you 
for the tremendous leadership that this Committee showed in 
making the opening of Reagan National a reality.
    [The prepared statement of Mr. Bolen follows:]

 Prepared Statement of Ed Bolen, President and CEO, National Business 
                          Aviation Association
    Chairman Stevens, Co-Chairman Inouye, Members of the Committee, I 
am pleased to be here today representing the National Business Aviation 
Association (NBAA). While I have testified before this Committee 
representing GAMA and as a member of the FAA's Management Advisory 
Council, this is my first opportunity to appear before you as the 
president and CEO of NBAA.
    Before I begin, on behalf of NBAA, I would like to express our 
appreciation and gratitude to the Committee for their ongoing support 
of General Aviation's efforts to regain access to Reagan Airport. I 
would also like to commend DHS Secretary Chertoff and Deputy Secretary 
Jackson and the leadership at the Department of Homeland Security and 
DOT Secretary Mineta and FAA Administrator Blakey for their work to 
make this plan a reality.
Facts About Business Aviation
    Today, there are over 10,000 companies in the United States that 
utilize General Aviation aircraft to help them compete in what has 
become a global marketplace.
    Business aviation operators encompass a broad cross-section of 
interests, including businesses (large, medium and small), governments, 
schools and universities, churches, foundations, and charitable 
organizations.

  <bullet> Approximately 85 percent of these companies are small or 
        midsize companies--most of which own and operate a single 
        airplane.

  <bullet> Surveys indicate that 86 percent of business aircraft 
        passengers are marketing and sales personnel, technical 
        experts, other company representatives and customers. Only 14 
        percent of passengers are top company managers.

  <bullet> Piston-twins and turboprops make up the majority of the 
        business aviation fleet.

  <bullet> Business aviation tends to fly at altitudes above or below 
        the commercial airline traffic that prefers to operate in the 
        range between 29,000 feet and 39,000 feet.

  <bullet> We also tend to use different airports. In fact, business 
        aviation represents less than 3.5 percent of the total 
        operations at the Nation's 20 busiest commercial airports. The 
        ability to use these smaller, less-congested facilities is key 
        to the value and flexibility of business aviation aircraft.

General Aviation Security
    America is a different place, 4\1/2\ years after September 11, 
2001. Security is at the forefront of our Nation's conscience. But much 
has been done to reduce our vulnerability to terrorist attacks, 
especially within the aviation community.
    The General Aviation community, that segment of aviation that 
includes all activity except for the scheduled airlines and the 
military, has made significant security enhancements. These efforts, 
while no less important than those designed for the commercial airline 
industry, have received less public attention which has led some to 
question whether General Aviation is less secure. The facts tell a 
different story.
    As a result of efforts from NBAA, government security agencies and 
other General Aviation interests, several important programs are now in 
place that proactively reduce the vulnerability of General Aviation:

  <bullet> The Airport Watch Program, developed by AOPA, encourages 
        pilots at General Aviation airports to report suspicious 
        activity to a toll-free number staffed 24 hours a day by TSA 
        operations staff.

  <bullet> The aircraft manufacturing and sales community has adopted 
        procedures to report suspicious financial transactions during 
        the purchase or sale of an aircraft.

  <bullet> The flight-training industry is complying with strict 
        government standards that screen non-U.S. citizens seeking 
        flight training in the United States.

  <bullet> The FAA has begun issuing tamper-proof licenses for pilots, 
        flight instructors, air traffic controllers and maintenance 
        technicians. Previously, these licenses were printed on readily 
        available card-stock.

    Pilots must now carry government-issued photo identification in 
addition to licenses issued by the FAA.

  <bullet> The Nation's law enforcement agencies have cross-checked the 
        FAA's airman and aircraft registries against known terrorist 
        and criminal databases.

  <bullet> Chartered business aircraft weighing over 12,500 pounds must 
        comply with TSA mandated security procedures similar to those 
        of the scheduled airlines.

    TSA's Aviation Security Advisory Committee, consisting of 
government and industry security experts, developed best practices and 
recommendations to strengthen security at General Aviation airports.

    These specific actions, along with heightened security awareness 
within the General Aviation community have reduced the vulnerability of 
General Aviation aircraft to terrorist activity.
    For everyone in General Aviation--which includes more than 200,000 
aircraft--the security of airports, including Reagan Washington 
National, and aircraft is paramount. That's why the industry 
voluntarily worked with Federal officials to enhance security at 
General Aviation airports and aircraft, large and small, following the 
9/11 terrorist attacks.
Transportation Security Administration Access Certificate (TSAAC)
    NBAA has worked with government officials to take even further 
action on General Aviation security. NBAA has supported the 
Transportation Security Administration (TSA) on the development of a 
TSA program with new voluntary security procedures for personnel, 
facilities, aircraft and in-flight operations. The program, which is in 
a test phase, is called the Transportation Security Administration 
Access Certificate, or ``TSAAC.'' Broader implementation of TSAAC would 
enhance security and could be used to enhance access to currently 
restricted airspace.
    In 2003, NBAA and the TSA began a proof of concept program to 
demonstrate the capability of the TSAAC program. The current test 
program involves 24 companies based at airports in Morristown and 
Teterboro, New Jersey, and White Plains, New York. These companies 
voluntarily stepped up to additional security requirements that focus 
on the aircraft, the facilities and the personnel.
    The program includes rigorous security requirements like: flight 
crew background checks; screening/inspection of passengers and baggage; 
integration of pre-flight, in-flight and ground security programs; and, 
utilization of threat intelligence. Designed to provide the Federal 
Government with more information about some of the companies that 
operate General Aviation aircraft, the current TSAAC ensures 
appropriate security practices by these U.S. companies and grants 
additional international access in return for compliance. TSA has 
audited all 24 participating companies and found each company in full 
compliance with the TSAAC standards.
    Voluntary programs that provide additional privileges are not new 
to either the aviation or security communities. For example, the 
airspace surrounding the Nation's busiest airports requires aircraft to 
carry equipment such as a two-way radio and a transponder and also 
requires VFR pilots to receive permission to enter the airspace. In 
return for these equipage requirements, pilots can receive clearances 
through that airspace which reduce travel time and increases government 
oversight of that flight.
    Similarly, the security community has adopted voluntary programs 
such as the TSA's Registered Traveler (RT) program, currently being 
tested at five airports. Airline passengers who participate in the RT 
program submit to extensive background and personal history checks in 
exchange for expedited processing at airport security checkpoints. Many 
of the components of the RT program, such as name, address, phone 
number and date of birth along with biometric data, including a 
fingerprint and/or an iris scan would also prove valuable under the 
TSAAC program.
    In both of these scenarios, participation is voluntary. Pilots who 
have no need to access the complex airspace surrounding busy and 
congested airports do not need to outfit their aircraft with expensive 
equipment. Those same aircraft are not able to access reliever airports 
surrounding busy hubs as they often fall within the complex airspace of 
the hub airport. Similarly, travelers not participating in the RT 
program cannot access special screening lines at the TSA airport 
security checkpoints.
    Finally, another program managed today by the U.S. Customs and 
Border Protection Agency contains many of the elements used in the 
TSAAC program. The Customs program known as Customs-Trade Partnership 
Against Terrorism (C-TPAT) is a joint government-business initiative to 
build cooperative relationships that strengthen overall security. 
Through this initiative, Customs is asking businesses to ensure the 
integrity of their security practices and communicate their security 
guidelines to their business partners.
    Participation in C-TPAT requires companies to sign an agreement 
that commits them to a number of actions including a security program 
that focuses on the facility, theft prevention, and information 
security controls. The program emphasizes personnel security with 
emphasis on pre-employment screening and background reviews, employee 
security training and internal controls. It also covers requirements 
for service providers including written standards and internal controls 
for their selection. All of this information is available to the 
Customs Department which may be audited at any time. It is our 
understanding that this program essentially represents a registered 
traveler-type program for cargo.
    Simply put, these voluntary aviation and security programs that 
provide additional benefits to participating companies and individuals 
have been successful at focusing limited government resources on only 
those aircraft and people needing additional attention. The TSAAC 
program would build upon these existing concepts for a security program 
designed for those with a need to access restricted airports and 
restricted airspace in return for additional information and heightened 
security standards.
    NBAA believes that expansion of the TSAAC program to airports and 
operators beyond the New York City area will yield significant benefits 
for government security specialists but companies need an incentive to 
participate in the program. The TSAAC program requires the submission 
of extensive personal and corporate information, allowing the 
government to conduct a thorough security assessment. Last December, 
the TSA announced that the Agency and NBAA ``are continuing their 
successful partnership to further enhance the TSAAC . . .'' As stated 
in the press release, ``The TSAAC program is a cooperative effort that 
enhances security by ensuring appropriate security procedures are in 
place, while at the same time allowing increased access to our Nation's 
airspace.'' We look forward to working with the Agency as they develop 
the details for the program's expansion.
    TSAAC can serve as a foundation for a process to allow security-
qualified General Aviation aircraft to have the same access to airspace 
and airports as the scheduled airlines. Following the terrorist attacks 
of September 11, 2001, scheduled airlines resumed their operations 
within days while most General Aviation operations were grounded for 
weeks, and in some cases months. Even today, General Aviation 
operations are restricted from certain airspace and at certain 
airports. The post-9/11 delay in the resumption of General Aviation 
flights and continued restrictions on General Aviation access to 
airports and airspace have caused significant harm to companies and 
communities that depend on this important form of transportation.
    A key reason for the delay in the resumption of General Aviation 
flights and the continued restrictions on airspace and airports is that 
those charged with ensuring our Nation's security have only limited 
knowledge of General Aviation operators and their security practices. 
This resulted in significant restrictions to General Aviation aircraft 
in the form of TFRs and restricted airspace.
    Domestic flight restrictions create significant challenges to 
businesses conducting time-sensitive, mission critical flights. 
Temporary flight restrictions (TFRs) that ``pop up'' with little notice 
prevent companies from developing contingency plans to address 
restricted airports and airspace. Often this results in grounded 
aircraft unable to arrive or depart until the TFR expires. Since 
September 11 more than 3,000 Temporary Flight Restrictions (TFRs) have 
been ordered over the Nation's airspace.
    It is important to note that TSAAC is a program that could permit 
approved access to TFRs and other security sensitive areas without 
restricting the government's ability to issue TFRs. Airspace protection 
is a solemn responsibility of the U.S. government. TSAAC would simply 
provide the government with the ability to allow additional security-
qualified aircraft operators into secured airspace and airports.
Ronald Reagan Washington National Airport
    Along with our efforts on TSAAC, NBAA has been a leading advocate 
of restoring General Aviation access to Ronald Reagan Washington 
National Airport. Last month, the TSA and Federal Aviation 
Administration (FAA) announced a plan to restore General Aviation 
flights to Reagan National Airport. We are grateful for the strong 
support for ending the prolonged closure of Reagan National Airport to 
General Aviation, which has taken a significant economic toll on the 
region, the Nation and certainly the business aviation community.
    More than $177 million already has been lost to the region's 
economy as a result of the closure of Reagan National Airport to 
General Aviation, along with hundreds of jobs. It's time to stop those 
losses and implement reasonable security protections while bringing 
economic activity back to the airport. The TSA's plan is a significant 
move in the right direction.
    The plan to reopen Reagan National Airport is an acknowledged first 
step that has taken over four years to achieve. Under the plan 
developed by the TSA for reopening Reagan National Airport to General 
Aviation, even tighter regulations will apply than those required of 
commercial flights. That's not our opinion, but the assessment of the 
plan provided by former Assistant Secretary of Homeland Security for 
TSA David Stone. When the plan was announced last month, Admiral Stone 
noted that it strikes a good balance between restoring access and 
increasing security, and he added: ``The plan exceeds the level of 
security required for commercial aviation that currently operates in 
and out of Reagan Airport.''
    TSA has acknowledged the complexity of this plan and that some of 
the measures may be difficult to implement. NBAA looks forward to 
receiving more detailed information about the plan once the Agency 
releases the Interim Final Rule because we have concerns over some of 
the more onerous aspects of the proposal. TSA has stated that they will 
continue to review the plan and make adjustments as necessary. We are 
committed to working with TSA as the Agency implements and refines the 
program.
    Both the TSA and General Aviation industry recognize that the 
airspace surrounding the Nation's Capital is unique and requires 
special security procedures for access. Because of this uniqueness, we 
believe that the security procedures established for access at Reagan 
National Airport, much like the special security procedures followed by 
the scheduled airlines, should remain at Reagan National Airport. These 
unique security requirements apply only for Reagan National Airport and 
not for access into any other airport in the U.S. Recognition, we 
believe, that Reagan National Airport is unique but that these unique 
procedures do not require duplication elsewhere.
    If there is one thing that we hope our testimony will leave you 
with today is that business aviation is committed to working with the 
government to implement reasonable and effective security programs 
because transportation and access to airports and airspace is critical 
to the success of companies and communities that rely on business 
aviation. NBAA stands ready to assist officials at the Department of 
Homeland Security, TSA and the Federal Aviation Administration as they 
review security procedures and programs affecting the business aviation 
community. We believe that only through trust and cooperation with our 
government partners will we be able to create a reasonable and 
effective security environment for business aviation.
    Once again, I appreciate the opportunity to testify before you 
today and we look forward to working with this Committee. I would be 
happy to answer any questions.

    The Chairman. Mr. Coyne.

     STATEMENT OF JAMES K. COYNE, PRESIDENT, NATIONAL AIR 
                   TRANSPORTATION ASSOCIATION

    Mr. Coyne. Thank you Mr. Chairman, other members of the 
panel, it's a real pleasure for me to be here for one very, 
very important reason. I would like to thank you, especially 
Senator Allen and to the Members of the Committee and the 
Administration who have provided such leadership, in helping us 
reopen National Airport to general aviation. There's a very 
fundamental reason why I believe that this is important. And 
that is that I believe it is the core purpose of government. 
And especially this body and Congress to determine what the 
rules, what the laws are that allow American Citizens to do 
what they want to do safely without injury to one another. 
After 9/11 the airlines were very quickly allowed back into 
National Airport. New rules were created for them. I represent 
through the National Air Transportation Association especially 
those unscheduled airline operators or aircraft operators, 
charter operators, people that we call our on demand commercial 
aviation businesses.
    Senator, you are very familiar with them up in Alaska. 
Alaska almost couldn't exist without these charter operators. 
These are businesses just like the airlines. And all they 
wanted from day one after 9/11 was for their government to tell 
them what would be the rules under which they would be allowed 
to operate their businesses, just as the airlines were given 
rules under which to operate their business in and out of 
National Airport. And frankly I have a time line in my public 
testimony here, which I hope you will accept as part of the 
record, which shows month by month since virtually a few weeks 
after 9/11 we maintained constant dialogue with FAA, DOT, 
Homeland Security, TSA and almost every month we were told well 
we're working on it, we're working on it. It's coming pretty 
soon. And had it not been for Senator Allen, your leadership 
Mr. Chairman, we would probably be still waiting.
    But all we were asking for from our government was for them 
to give us the rules, to lay down the law by which we were 
willing to operate. And now thankfully that law, those rules 
are going to be coming forth. Now that's not to say that we are 
going to like every rule, that--nobody in America likes every 
rule or every law. And nobody expects every rule or every law 
to be cast in concrete, or necessarily be one size fits all. 
But obviously we view this process as beginning today, or 
beginning on May 25th with a process that will get us back 
eventually to the ability to serve all the Americans who want 
to use National Airport.
    What we call in our industry getting back to normal. Now 
when I say that I don't mean it's ever going to be the same 
before it was 9/11. Clearly the world is different. The rules 
should be different. But the ability to meet the needs of the 
public, to meet the needs of people who want to use what as you 
described earlier Senator Rockefeller what amounts to the 
finest form of transportation we know in America: private 
personal aviation aircraft. We want to get that back to normal 
so all the people who want to use it, can use it.
    And the good news is, with new aircraft under development, 
with new economics more and more Americans are being able to 
use this new high quality form of air transportation than ever 
before, and thankfully so. Because as we have seen in many 
corners of America the quality of airline service has been 
going down. We want to get this finer service available at 
National for anyone who can use it. Of course that's not to say 
we don't have some problems with the proposed rule.
    It's probably premature to complain about it before it's 
actually been issued. But it's been widely reported and I think 
you all discussed in your comments three core issues that are 
kind of problems. They are going to be needed to be looked at 
as the rule is introduced, and operated. And believe me we are 
going to be there watching very closely to see if we can 
improve this rule. The three principal rules--problems that 
occur to us, are the portals, the LEO issue, and the guarding 
the cockpit door issue. These are core tough issues we want to 
make sure we do right.
    Mr. Chairman, you've addressed that fact that these--that 
the current rule as it appears, is going to be very 
problematic. And I couldn't agree with you more. Having 12 
portals doesn't make sense. Senator Allen, you've clearly 
demonstrated in your comment, that you know, virtually a 
quarter of the country is going to turn around to fly back to 
Palm Beach in order to get to Washington National. That makes 
no sense.
    So clearly the concept of a limited number of portals has 
got to be investigated further. In my discussions with TSA 
leadership they tell me that the reason they are starting with 
12 is because they want to train TSA employees into doing this. 
They want to work out the bugs and have if you will beta sites 
to work through and figure out the right--but their full 
intent, or logical intent at least is, that any airport where 
there are TSA employees, there ought to be able to have a 
portal they to come in and out.
    Just like any airport that there is a Customs office, 
general aviation airplanes can fly in there and take advantage 
of that Customs office. So that's our hope, that over time 
virtually every airport that has TSA employees, and perhaps 
many many others where they can be brought over in a timely 
basis will be able to meet this need.
    The second issue of course is the LEO, and it is apparent 
to us that this is something that was insisted upon because 
there's confusion over the security of the cabin, of a general 
aviation aircraft. The cabin of a general aviation airplane is 
not filled with 150 or 200 strangers. It's going to be filled 
in some cases, with just one or two people. I'm probably the 
only person here in this panel that actually has an airplane 
that is in charter use. My aircraft was chartered to people 
like Senator Allen, Jascha Haifitz to Yo-Yo Ma, these people 
chartered my airplane by themselves, so that they could take 
their cello with them or something, to go give a speech some 
place on a short notice. To tell them that they've got to have 
a law enforcement officer in the plane with them, strikes me, 
and them, and I think most Americans as a rather foolish thing 
to suggest. But we understand that part of this is because 
there's anxiety about whether the cockpit door is hardened. As 
was mentioned earlier the cockpit door is a problem because the 
design of small general aviation airplanes doesn't provide the 
structural support that would be necessary for a truly hardened 
cockpit door. But there may very well be the ability to put, so 
for example, Kevlar netting between the cabin and the cockpit 
other forms of temporary equivalencies to allow the same level 
of confidence.
    And fundamentally that's what we're trying to get to from 
day one. Is to show that we can, our charter industry and the 
business aviation industry, can operate in and out of National 
Airport with a higher and more secure level of safety and 
security than the airlines are doing.
    We don't want to tell the airlines we don't want to break 
there. I don't think it's fair for the government to not 
provide rules for us to operate there, and to meet the needs of 
our customers. Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Coyne follows:]

     Prepared Statement of James K. Coyne, President, National Air 
                       Transportation Association
    Chairman Stevens, Co-Chairman Inouye, and Members of the Committee:
    Thank you for this opportunity to appear before you today to 
discuss the state of general aviation security, particularly in the 
Washington, D.C. metropolitan area. My name is James K. Coyne and I am 
president of the National Air Transportation Association (NATA). I ask 
that my full statement be submitted for the record. NATA, the voice of 
aviation business, is the public policy group representing the 
interests of aviation businesses before the Congress, Federal agencies 
and state governments. NATA's over 2,000 member companies own, operate 
and service aircraft and provide for the needs of the traveling public 
by offering services and products to aircraft operators and others such 
as fuel sales, aircraft maintenance, parts sales, storage, rental, 
airline servicing, flight training, Part 135 on-demand air charter, 
fractional aircraft program management and scheduled commuter 
operations in smaller aircraft. NATA members are a vital link in the 
aviation industry providing services to the general public, airlines, 
general aviation and the military.
    Nearly 4 years after the September 11, 2001, terrorist attacks, the 
general aviation industry continues to come under unprecedented 
scrutiny. Many in the media and government have labeled the industry as 
unregulated and inherently lacking in security. Although nothing can be 
further from the truth, misleading reports and incendiary statements 
have done considerable damage to the industry's reputation. New 
security regulations have resulted in unfounded mandates that have 
placed a significant financial strain on NATA members.
    Since September 11, 2001, NATA members, working with the 
association, have taken a proactive step to improve the security of 
their operations before being ordered to do so by the government. 
Following the attacks, NATA formed the Business Aviation Security Task 
Force to develop ``best practice'' guidelines for fixed-base operators, 
air charter companies, aviation maintenance providers, and flight 
training schools. The Task Force issued a series of recommendations 
that NATA encouraged aviation businesses, their customers, and tenants 
to adopt. These recommendations included background checks for all 
employees with access to aircraft; implementation of security 
procedures including designation of a corporate security coordinator; 
posting of emergency numbers and a security mission statement; vehicle 
verification and escort; and identification and escorting of all flight 
crews and passengers.
    In addition to the Task Force's recommendations, NATA has released 
its General Aviation Security Guide. This comprehensive guide and CD-
ROM provide recommended security measures to be incorporated by fixed-
base operations, line service, aircraft charter companies, maintenance 
and avionics service providers, flight schools, cargo handlers and 
other general aviation service entities operating an airport. NATA 
members welcomed these comprehensive recommendations and, together with 
using recommendations later released by the Transportation Security 
Administration, have improved general aviation security as demonstrated 
by the actions of NATA member Fostaire Helicopters.
    Last year, in the midst of Orange Alerts and regular reports from 
the Department of Homeland Security of terrorist activity, NBC News 
producers attempted to show the vulnerability of general aviation by 
preying on a St. Louis, Missouri-based helicopter charter operator and 
NATA member, Fostaire Helicopters. Sending unidentified men with cash 
and a desire to charter a helicopter immediately to Fostaire 
Helicopters, the news organization thought they had a major story--
showing how easily terrorists could charter an aircraft. Instead, 
Fostaire's owners and employees stalled the suspicious customers until 
law enforcement authorities arrived. The actions of Fostaire's 
employees demonstrate both the security of the general aviation 
industry as well as the mindset of thousands of general aviation 
employees.
Twelve-Five Standard Security Program
    The Aviation and Transportation Security Act (ATSA) passed in 
November 2001 included a provision directing the Transportation 
Security Administration (TSA) to develop regulations implementing 
security programs for non-scheduled commercial air carriers whose 
aircraft weigh more than 12,500 pounds. These regulations, popularly 
known as the ``Twelve-Five'' and the ``Private Charter'' rules, became 
effective in 2003, and have established effective security protocols 
for non-scheduled commercial air carriers to enhance what is arguably 
already the most secure mode of commercial air transportation today. 
NATA is proud to have played an integral part in the implementation and 
rollout of the Twelve-Five Standard Security Program (TFSSP) and 
commends the Transportation Security Administration as well as its 
supporters in Congress for their efforts in making the program an 
authentic aviation security success.
    Enhancements and refinements to the programs continue. Today, 
operators must each manually check passenger and employee names against 
a special TSA-issued watch list. Operators accept this as a necessary, 
but cumbersome, security step. But, just last year, as part of the 
Intelligence Reform Act, Congress instructed the TSA to develop a 
system whereby operators would submit names to the agency and it would 
vet names against the government's consolidated terrorist watch list. 
NATA worked successfully with Members and staff of this Committee to 
help create this solution that will increase the effectiveness of the 
TFSSP and ensure greater governmental control over sensitive personal 
data while alleviating a significant burden on security program 
participants.
    However, even with the Twelve-Five program's overall success, 
operators have yet to realize any tangible benefit from their 
extensive--and expensive--compliance efforts. Put simply, even though 
these operators have put in place a government-approved security 
program equivalent to, if not more secure than, those employed by 
scheduled commercial air carriers, the Federal Government still treats 
all non-scheduled operators alike. This unjustified parity includes 
banning non-scheduled commercial air carriers from certain airspace or 
grounds them altogether on the slimmest of suspicions that someone, 
somewhere could possibly use an aircraft to commit a terrorist act. 
These Twelve-Five operators have invested thousands of dollars and man-
hours to comply with security mandates and yet are treated exactly the 
same as operators without security programs. This ``one-size-fits-all'' 
treatment of non-scheduled commercial air carriers as threats to 
national security must end. NATA believes that non-scheduled carriers 
in compliance with a TSA-approved security program should receive 
similar airspace and access benefits as the scheduled carriers.
Temporary Flight Restrictions
    Such flight restrictions for ``Twelve-Five'' operators lead me to 
my next point of discussion, the issuance of temporary flight 
restrictions (TFRs) and their effect on non-scheduled operations. So-
called ``VIP TFRs'' are usually issued when either the President or 
Vice President is traveling, or when a special event such as the Super 
Bowl warrants closing the airspace for security reasons. These VIP TFRs 
and all other TFRs act like a ``bubble,'' prohibiting non-airline 
passenger aircraft from flying within a specified distance of an area, 
usually about 10 miles. While this may seem like a small geographic 
area, this restriction usually centers on at least one airport, 
essentially closing that airport for the duration of the TFR.
    The difficulties resulting from these closures are that the 
closures usually are established at the direction of the U.S. Secret 
Service with little or no notice and they ground aircraft at an airport 
for a long period of time, wreaking havoc on general aviation 
businesses. These TFRs were especially troublesome during last year's 
Presidential elections, when candidates from both parties traveled to 
essentially the same small number of states, closing airports across 
those states at an alarming rate. During one TFR last year, a chief 
executive officer of a major U.S. corporation was told that he and his 
staff would be unable to fly overseas on an aircraft they chartered at 
a great cost because the airspace was closed around the airport from 
which they were taking off. Although the aircraft operator was part of 
the ``Twelve-Five'' program and certified by the TSA, that aircraft was 
grounded and that operator lost a significant amount of money.
    NATA's efforts to get the Federal Government to recognize the 
enhanced level of security provided by the TFSSP have paid off for all-
cargo carriers, however. The approved language that now exists in most 
TFR descriptions permits all-cargo operators complying with the Twelve-
Five Standard Security Program to conduct operations during VIP events 
that trigger TFRs. NATA and the Transportation Security Administration 
are continuing to work in partnership to advocate for enhanced TFR 
access for passenger flights under the TFSSP, and NATA hopes that 
similar permits for passenger-carrying TFSSP operators will be granted 
by the TSA and the Secret Service. Your support in this endeavor is 
greatly appreciated.
Ronald Reagan Washington National Airport
    Like the double standard that exists with last-minute TFRs, the 
continued closure of Ronald Reagan Washington National Airport (DCA) to 
non-scheduled operations remains a prime example of the misconceptions 
that general aviation is less secure than commercial air carriers. 
Since DCA's closure in 2001, NATA has placed the reopening of non-
scheduled commercial operations at DCA at the top of the association's 
agenda. The proximity of DCA to downtown Washington, D.C. provides a 
unique opportunity to travel to and from our Nation's capital city in a 
most convenient manner. Prior to 9/11, this was a time-saving benefit 
that was afforded to all flying passengers. Since 9/11 however, this 
convenience has been denied to thousands of aircraft due to unspecified 
security concerns. NATA and other organizations representing the 
various facets of the general aviation industry have launched a 
vigorous campaign to reopen DCA to non-scheduled operations. The 
industry took its message of reopening DCA to all levels of the local 
and Federal Government, including the Department of Transportation, 
Department of Homeland Security, Congress, and the White House.
Timeline
    The following is a timeline of the actions taken by NATA to reopen 
DCA to charter and general aviation flights:
    September 2001: NATA forms the Business Aviation Security Task 
Force to develop ``best practice'' guidelines for fixed-base operators, 
air charter companies, aviation maintenance providers, and flight 
training schools. The task force issues a series of security 
recommendations that aviation businesses, their customers, and tenants 
were encouraged to support. Recommendations include background checks 
on all employees with access to aircraft; implementation of security 
procedures including designation of a corporate security coordinator; 
posting of emergency numbers and a security mission statement; vehicle 
verification and escort; and identification and escorting of all flight 
crew and passengers.
    Spring 2002: The Department of Transportation (DOT) announces 
completion of a program to restore DCA to general aviation. NATA and 
other industry groups are briefed on a six-part plan to reopen the 
airport to general aviation operations. DOT halts this program in June 
2002.
    March 2003: NATA files a petition for rulemaking with the Federal 
Aviation Administration (FAA). The petition calls on the FAA to 
initiate rulemaking that would establish security procedures necessary 
to allow general aviation aircraft to operate to and from DCA.
    June 2003: The FAA denies NATA's petition for rulemaking. NATA then 
submits security protocol concepts to the TSA including specific 
proposals to permit access to DCA for non-scheduled operations, 
beginning with those operators with TSA-mandated security programs in 
place.
    Spring/Summer 2003: NATA launches an aggressive campaign on Capitol 
Hill to secure support for reopening DCA. Over 60 U.S. House of 
Representatives and U.S. Senate Members send President Bush, Department 
of Homeland Security (DHS) Secretary Ridge, and others letters in 
support of reopening DCA to general aviation.
    December 2003: Congress passes and the President signs the FAA 
Reauthorization Act, Vision 100, which includes language directing the 
TSA to develop a plan within 30 days that would allow for the 
resumption of general aviation operations at DCA.
    March 2004: After months of inaction by the TSA, NATA and other 
industry groups testify at a U.S. House of Representatives Subcommittee 
on Aviation Hearing held at DCA.
    July 2004: At the request of NATA and other general aviation 
groups, 15 Members of Congress sign a letter to Secretary Ridge asking 
that the DHS provide regulations for reopening DCA to general aviation 
ahead of time to general aviation operators so they can quickly comply 
with the upcoming procedures.
    February 2005: Working closely with NATA in developing language, 
Sen. George Allen introduces S. 433, which would require the Department 
of Homeland Security to issue regulations permitting the reopening of 
DCA to general aviation within six months. Shortly following, Rep. Tom 
Davis introduces similar legislation in the House (H.R. 911).
    April 2005: After meeting with NATA and other general aviation 
representatives, the U.S. House of Representatives Committee on 
Transportation and Infrastructure introduces and passes legislation 
requiring DCA to open to general aviation within 60 days.
    May 2005: On consecutive days, the U.S. House of Representatives 
passes two bills, each containing provisions mandating the return of 
charter and general aviation to DCA. The Department of Homeland 
Security Appropriations Act requires the DHS to reopen the airport 
within 60 days and the Department of Homeland Security Authorization 
Act gives the department 90 days. Both bills are approved 
overwhelmingly.
    After over 3\1/2\ long years, industry efforts have begun to pay 
off. The announcement by TSA Administrator David Stone and FAA 
Administrator Marion Blakey on May 25th of the agencies beginning a 
plan to allow for the resumption of non-scheduled flights into DCA 
marked a milestone in our efforts to open the last airport in the 
country closed to such operations. This announcement would never have 
taken place without the help of our friends in the Congress, including 
many of you on this Committee. We sincerely appreciate all of the help 
you have given to our cause, and thank you for continuing to keep the 
pressure on the Administration to get the ball rolling. I am 
enthusiastically looking forward to this Labor Day, when Signature 
Flight Support begins to welcome its first charter and business 
aircraft in nearly four years.
    In our efforts to reopen DCA to charter operations, NATA welcomed 
virtually any security plan that would allow the airport to accept air 
charter operations. We realized that there were some in the 
Administration who strongly objected to permitting any general aviation 
aircraft to use DCA. Thanks to the leadership of the Department of 
Homeland Security, including Secretary Michael Chertoff and Deputy 
Secretary Michael Jackson, the leadership of the DHS was able to pull 
all of its agencies together to derive a plan that will once again have 
non-scheduled operations flying into and out of DCA. Secretaries 
Chertoff and Jackson should be commended for taking leadership in 
getting this plan approved.
    With the Interim Final Rule soon to be released by the department, 
NATA now looks forward to working with the DHS to discuss some of the 
issues that remain unresolved on this policy. The requirement to equip 
all DCA flights with an armed Law Enforcement Officer (LEO) raises 
questions for our operators. We hope that as the plan moves forward, 
the DHS allows more than just Federally trained marshals to serve as 
LEOs on these flights. Coordinating effective use of such a small pool 
of approved LEOs will make it more difficult for operators to find 
armed officers to serve on these flights to DCA. A more progressive 
solution would be to broaden the pool of qualified officers to include 
local law enforcement officials, including police officers and county 
sheriffs, provided they meet certain specifications. There is no reason 
why local LEOs cannot be counted on to perform the same tasks as 
Federally trained officers on these operations. Armed law enforcement 
officials are considered one of the last lines of defense on these 
flights, and offering a wider pool from which to find qualified 
officers benefits both the operator as well as the government.
    NATA also has questions concerning who will be responsible for 
compensating the LEOs aboard non-scheduled aircraft using DCA. The 
association feels that placing the burden for compensating these 
officials on aviation businesses will undoubtedly serve as a deterrent 
for using the airport. The Federal Government should take 
responsibility for this compensation, as it is an issue of both local 
and national security. The costs associated with paying for an armed 
officer for what could amount to a significant period of time will make 
it quite difficult for many air carriers to participate in the program. 
NATA notes that scheduled airlines are not required to pay a specific 
fee when LEOs serve on their flights.
    While we have concerns with some of the provisions, we nonetheless 
wholeheartedly welcome this opportunity to demonstrate the capabilities 
and security of our industry. However, we want to make it clear that 
the department and Congress should absolutely make certain that these 
requirements do not cause undue financial or logistical burdens that 
will ultimately leave most operators unable to use the airport. Non-
scheduled air charter operators are more than willing to make the 
reasonable necessary upgrades in security and comply with any 
regulation put forth by DHS that will allow them to use the airport, 
but the government should take the steps necessary to ensure that as 
many qualified operators as possible are able to take part in this 
important program.
    Overall, we are delighted to see the government moving forward with 
a plan to allow general aviation at Ronald Reagan Washington National 
Airport in the coming months. This plan is long overdue; but now that 
it is here, we can demonstrate to the rest of the country and the world 
the safety and security of the general aviation industry.
Conclusion
    We ask that as Congress continues to seek ways to improve the 
overall security of our aviation system, you recognize the implications 
of security directives on all facets of the industry, including non-
scheduled operations. On-demand air charter and other general aviation 
operators participate in a number of Federally sanctioned security 
programs yet are still deemed unregulated and unsecured by many. Non-
scheduled operators participating in programs certified by the TSA 
should be allowed the same airspace and airport access as the scheduled 
airlines and should be recognized as being just as secure as the 
airlines.
    As we move forward in a post-September 11 world, NATA is eager to 
work with both the Congress and the Administration in easing any 
concerns you may have about the security of our operations. NATA has 
worked well with officials on Capitol Hill and in the agencies to 
foster relationships that have proved beneficial for everyone involved. 
Our relationship with the TSA has never been stronger, and I would like 
to take the opportunity to commend Admiral Stone on the job he did as 
TSA Administrator. We look forward to working with the new leadership 
of the TSA as well as others in the government to spread the message 
that general aviation is paying close attention to the security of our 
industry.
    Thank you again for this opportunity to testify, and I look forward 
to answering any questions you may have.

    The Chairman. Mr. Cebula.

          STATEMENT OF ANDREW V. CEBULA, SENIOR VICE 
         PRESIDENT, GOVERNMENT AND TECHNICAL AFFAIRS, 
             AIRCRAFT OWNERS AND PILOTS ASSOCIATION

    Mr. Cebula. Good afternoon Senator, I appreciate the 
opportunity to be here I'm Andy Cebula with the Aircraft Owners 
and Pilots Association. I'm representing 400,000 pilots and 
aircraft owners. So when you see me, think of all those people 
in your home states. More than two-thirds of all pilots in the 
United States are members of AOPA. I have to tell you that they 
take security responsibilities very seriously.
    However, they also tell us that they are concerned about 
what kind of requirements get imposed on small aircraft. They 
are concerned that this may reduce their access to airports and 
air space. One of the most important principles that we feel, 
is that it has to be recognized that the threat posed by piston 
engine, general aviation aircraft, is minimal. In November of 
2004 the GAO did a report on general aviation security and said 
the small size, lack of fuel capacity, and minimal destructive 
power of most general aviation aircraft make them unattractive 
to terrorists and thereby reduce the possibility of threat 
associated with their misuse.
    We read this as saying it's imperative that the government 
use a risk-based approach. Now looking at the events of May 
11th of this year. I have to tell you we find it unacceptable. 
We ran an ad in the U.S. Today, and in Roll Call, you have a 
copy of it there with you. Because we wanted to make this 
clear, the air space is charted, there's notices to airmen that 
are in place. We have free flight planning software that we 
make available to all members that depict temporary flight 
restricted areas. We want you to know that this incident is not 
looked on highly by the general aviation community and it 
doesn't reflect us.
    However it does underscore that reason must be applied as 
Congress and the agencies address issues of national security. 
A small slow flying aircraft does not propose the major 
terrorist threat. On that day I think the intercept pilots 
understood and responded appropriately. Since 9/11 there have 
been significant enhancements to general aviation security. 
Much of that is due to the work of this Committee. Senator 
Rockefeller, you were very instrumental last year for the 
requirement for the pilots certificate to have the photograph 
on it. Senator Allen, obviously your work on Washington 
National. But since 9/11 there have been new security 
requirements that pilots are vetted and their names are cross 
checked against terrorist watch lists. Flight training 
candidates are screened, flight instructors receive security 
training. Pilots have to carry government-issued picture IDs. 
State and local governments have responded with new security 
procedures and equipment at general aviation airports, and the 
airspace can at anytime and anyplace be closed or limited to 
pilots anywhere in the country.
    The majority of what our members tell us, that security has 
changed since 9/11 at their airport. We are also as an 
organization committed to working with the TSA and FAA on 
security and also with educating general aviation about 
security requirements. Last year we spent nearly $5 million, 
that's $5 million e-mail alerts about airspace restrictions 
that occurred in the local area of pilots across the country. 
AOPA and our safety foundation have developed 8 specific 
training tools for the ADIZ and post 9/11 airspace operations. 
Including a soon to be released program on the laser visual 
warning system here in the Nation's Capital.
    And since it's launch in 2002 AOPA has invested a million 
dollars in association funds in the Airport Watch Program. That 
program is supported by all segments of the general aviation 
community along with local municipalities, states, the FAA, TSA 
and a list of over 550,000 general aviation pilots to watch for 
and report suspicious activities.
    Pilots can report suspicious activities to the TSA using 
the general aviation hotline. I would have to say while the 
community has generally accepted all of these initiatives, one 
air space restriction is particularly troubling. And that is 
the air defense identification zone here around the Nation's 
Capital. It adversely affects safety. It's costly to operate, 
and it's negatively impacting aviation business. From our 
perspective it doesn't work. It was established as a temporary 
security measure in February of 2003. That was 17 months after 
9/11 when the threat level was raised, and it never was removed 
once the threat level was lowered.
    There's a graphic that you have, but the actual airspace 
that it covers is huge. It includes 19 public use airports. It 
captures 10 thousand pilots over 2,100 hundred aircraft who 
account for about a million operations per year. It spans about 
90 miles stretching from West Virginia across the Chesapeake 
Bay to Maryland's eastern shore to just--and south just to 
Fredericksburg, Virginia.
    It has quadrupled the controller workload and it's created 
significant safety concerns for pilots in the air that are 
forced to hold and waiting to enter the ADIZ. It distracts them 
from their important see and avoid responsibilities, as they 
are operating their aircraft. The 15 mile flight restricted 
zone, this inner core protects the sensitive areas of the 
Nation's--the National Capital Region in recently put into 
place laser visual warning system to alert pilots straying into 
protected air space, and it's enhanced security along with 
ground based missile defenses. Congress has called on--for 
operational improvements to the ADIZ but as of yet there is no 
evidence this has been met. Neither has the aviation community 
been invited to engage in discussions about operational 
improvements with the Federal agencies.
    The FAA is now moving to make the ADIZ permanent through 
rulemaking. AOPA opposes this and asks this Committee to 
require the FAA to give pilots the opportunity to have a 
meaningful information exchange about the best way to provide 
security in the National Capital Region.
    Thank you for the opportunity to be here.
    [The prepared statement of Mr. Cebula follows:]

    Prepared Statement of Andrew V. Cebula, Senior Vice President, 
     Government and Technical Affairs, Aircraft Owners and Pilots 
                              Association
    Good morning, my name is Andy Cebula, Senior Vice President 
Government and Technical Affairs, of the Aircraft Owners and Pilots 
Association (AOPA). AOPA represents over 400,000 pilots and aircraft 
owners--more than two-thirds of all the pilots in the United States.
AOPA Members and General Aviation Security
    The individuals that we represent are your constituents and I want 
to share with you their anxiety about Congressional action related to 
general aviation security. In a recent survey, over 90 percent 
expressed their concern that issues related to homeland security 
threatened general aviation operations in the national airspace. 
Likewise, 84 percent expressed concern that security measures mandated 
by Congress would adversely affect their ability to fly. My purpose 
today is to explain what has been done to enhance general aviation 
security since 9/11 and some of the current challenges being faced by 
AOPA members. General aviation is an essential part of the air 
transportation system, serving over 18,000 private and public airports 
in communities across the country, carrying over 166 million passengers 
per year. There are 5,400 public use airports.
    General aviation security is a responsibility taken seriously by 
AOPA and its members. Before 9/11, general aviation security focused 
primarily on preventing aircraft theft and airspace regulations were 
typically safety related. However, in the last three and a half years 
that has changed dramatically, the general aviation community and the 
government have responded with programs to enhance the security of 
pilots, aircraft and airports, and airspace. Security, previously not 
thought much of by the general aviation community, has become a top 
priority.
    While the average airline passenger has seen little change in the 
basic security process since 2001, the typical general aviation pilot 
has witnessed tremendous changes with numerous new security 
requirements. Pilots are vetted, their names are cross checked against 
terrorist watch lists, new security procedures and equipment has been 
implemented at general aviation airports, and the airspace can at 
anytime and anywhere be closed or limited to pilots anywhere in the 
country.
    Given the relative low speed and small size of the majority of 
general aviation aircraft, AOPA has advocated improving general 
aviation security, but doing so recognizing the low threat it posses to 
the Nation. As we begin to look at the improvements to general aviation 
security, it is helpful to establish some comparative benchmarks.
General Aviation and National Security--Small and Slow
    The typical AOPA member operates an aircraft like a Cessna 172 
Skyhawk. There are more than 25,000 Cessna 172 Skyhawk's registered in 
the United States, making it the most popular general aviation 
airplane. This four-seat airplane operates at about twice the speed of 
a car (120 mph), has an average maximum weight of 2,300 pounds, carries 
40 gallons of fuel and has a useful load (after full fuel) for people 
and baggage of around 500 pounds. A Cessna 172 is less in size and 
weight than a typical compact car like the Honda Civic, which weighs 
around 2,600 pounds.
    The number of general aviation aircraft stolen is down sharply 
since the general aviation community took steps to enhance security 
since the late 80's to discourage aircraft thefts that were used mostly 
for drug smuggling. According to the most recent statistics available 
from the Aviation Crime Prevention Institute, in 2003, there were only 
six aircraft stolen nationwide.
    The combination of these factors and security enhancements put into 
place since 9/11 limits the desirability of general aviation for 
illicit uses. Independent analysis by government agencies concurs with 
this assessment. A November 2004 Government Accountability Office (GAO) 
report on General Aviation Security, concurred, noting that ``the small 
size, lack of fuel capacity, and minimal destructive power of most 
general aviation aircraft make them unattractive to terrorists and, 
thereby, reduce the possibility of threat associated with their 
misuse.''
    The report found that most of the airports GAO visited had, on 
their own initiative, established a number of security enhancements, 
using either airport revenue or state or Federal grant money to fund 
some of the enhancements. The report concludes that continued 
partnerships between the general aviation industry and the government, 
such as AOPA's Airport Watch program, are vital to the long-term 
success of efforts to enhance security at the Nation's general aviation 
landing facilities.
    With this information as a prelude, let us examine the improvements 
in general aviation security and current challenges.
AOPA's Airport Watch--Cornerstone of General Aviation Security 
        Awareness
    With over 18,000 public and private general aviation-landing 
facilities, the government cannot, nor is it necessary to regulate or 
directly oversee airport security at these facilities. Recognizing that 
general aviation airports are similar to small communities, AOPA worked 
with the Department of Homeland Security to develop and implement the 
Airport Watch program. Much like a neighborhood watch program, this 
Airport Watch enlists the support of some 550,000 general aviation 
pilots to watch for and report suspicious activities that might have 
security implications.
    Since December 2002, TSA receives reports of suspicious activities 
through the general aviation hotline 866-GA-SECURE (1-866-427-3287). 
The Airport Watch program and the general aviation hotline are critical 
elements of general aviation security. The program serves as a 
centralized reporting system for general aviation pilots, airport 
operators, and maintenance technicians wishing to report suspicious 
activity at their airfield.
    The program materials are the Airport Watch brochure explaining the 
program and what to watch for, warning poster, warning decal, warning 
sign, and an instructional video featuring the Secretary of the 
Department of Homeland Security. The Airport Watch program has been 
actively supported by the TSA, FAA, Civil Air Patrol, aviation 
businesses on airports, pilot groups, manufacturers, and state 
departments of transportation.
    In launching the program, AOPA distributed Airport Watch materials 
to all 550,000 general aviation pilots and 5,280 public-use general 
aviation airports. AOPA continues to make program materials available 
and during the past 12 months AOPA has fully funded efforts to send 
additional Airport Watch materials to pilots and aviation officials in 
Iowa, Massachusetts, Tennessee, and New Jersey. Since the program's 
inception, AOPA has spent more than $1 million of Association funds in 
developing, distributing and promoting the Airport Watch program. 
Another industry-wide mailing is anticipated later this year.
    Congress has shown its support of the Airport Watch program with 
directive language in the Homeland Security Appropriations bill for the 
past 2 years, and the House-passed Homeland Security Appropriations 
bill for FY06, which contains funding for an additional nationwide 
educational and promotional effort.
    The Airport Watch concepts have been proven to work. Even though 
actionable calls are rare, they have been viewed as beneficial. Time 
and again, the TSA has praised the valuable information they receive 
from pilots reporting suspicious behaviors. Below is a small sampling 
of reports taken through the Airport Watch program.

  <bullet> In Kansas, the Airport Watch concepts caught an accused con 
        man. Airport employees became suspicious and contacted 
        authorities when a man tried to rent aircraft at several 
        different FBOs, claiming to be a pilot. At one location, he 
        left the space for the pilot certificate number blank. Others 
        who dealt with him said that for someone who supposedly owned 
        and flew aircraft, the suspect didn't seem to know much about 
        aircraft systems.

  <bullet> In St. Louis, two suspicious individuals offered to pay cash 
        for a charter helicopter flight, they presented driver's 
        licenses from two different states while their car was 
        registered in a third state and had backpacks and odd shaped 
        luggage that caught the attention of an FBO employee. While 
        another employee stalled the suspects, the first employee 
        contacted authorities. Authorities discovered box cutters and 
        other potential weapons hidden inside the suspect's bags. It 
        was later determined the suspects were actually news reporters 
        from New York trying to do a story on how a terrorist could 
        hijack a helicopter.

  <bullet> In Ohio, a Certified Flight Instructor reported to the 
        general aviation security hotline a student who during ground 
        school review and instructional flight time asked questions 
        about how background checks are done, and how long they take. 
        He also asked the instructor numerous questions about lowest 
        levels to fly to avoid radar, how to find power plants if not 
        on sectional maps, and how close can they be flown to. Federal 
        officials followed up by conducting a criminal and watch list 
        check of the student.

  <bullet> In Georgia, an aircraft charter company reported a 
        suspicious caller who wanted to reserve a flight for 11 to 12 
        passengers to fly to Washington Dulles Airport. The caller was 
        elusive when asked for his name, credit card, and passenger 
        information. He provided a company name with a tax ID number 
        that did not match. Federal Authorities were following up.

  <bullet> In Arkansas, an airport manager reported receiving two phone 
        calls from a suspicious person with a heavy accent inquiring to 
        store an aircraft and some equipment inside a hangar for about 
        three weeks. The manager was concerned due to the airports 
        proximity to a nuclear power plant.

  <bullet> In Minnesota, a flight instructor received a suspicious 
        telephone call from an unknown individual requesting flight 
        training for a Korean citizen. When the caller was advised a 
        background check was required, he abruptly ended the call. The 
        instructor was able to obtain the telephone number from the 
        caller ID. Local FBI was notified and is conducting an 
        investigation.

Airspace Restrictions
    Immediately following the tragic events of four commercial 
airliners being hijacked to be used as weapons against the United 
States on the morning of September 11, 2001, the FAA issued a Notice to 
Airman (Notam) grounding all civil air traffic. This historic action 
was unprecedented and underscored the concern security policy makers 
had about civil aircraft being used as weapons. It set the stage for 
changes in security policies for the commercial airline industry and 
the general aviation community.
    The report to Congress, ``Improving General Aviation Security'' 
issued in December 2001, by the newly formed Transportation Security 
Administration (TSA) launched the strategy for addressing security of 
general aviation. This included airspace restrictions, scrutiny of 
pilots and improvement of their credentials, and security enhancements 
for general aviation airports--and the all-important issue of educating 
the pilot community. One of the underlying principles is the importance 
of balancing security requirements with the threat that general 
aviation presents. That is one of the reasons the Department of 
Homeland Security (DHS) has adopted risk-based approaches to security--
balancing the cost for security, the limitations and restrictions, with 
the security benefits.
    It is absolutely essential, that any security requirements do not 
eliminate the very industry they are designed to protect. If that 
occurs, the terrorists have won. Many pilots are asking this very 
question about the airspace restrictions in the Baltimore-Washington, 
D.C. area (National Capital Region). Just last week, over 5,000 pilots 
visited our headquarters in Frederick Maryland and the most discussed 
topic was the flight restrictions around the National Capital Region.
Expanded use of Temporary Flight Restrictions
    To understand the general aviation perspective on the National 
Capital Region airspace, it is important to recognize that prior to 9/
11, Temporary Flight Restrictions (TFRs) were issued, but were 
typically smaller, shorter duration, and did not come with the severe 
penalties for violations. Today, a pilot can face FAA enforcement 
action including the loss of their pilot certificate and the extreme 
prospect of loosing their life by being shot down for violating a TFR. 
As an example of the magnitude of airspace restrictions, anytime the 
President travels a 30-mile TFR is established. Last year there were 
over 200 of these TFRs.
National Capital Region--Airspace Restrictions
    While much of the emphasis on general aviation has been access to 
Washington Reagan National Airport and this Committee is to be 
commended for its work to reopen this airport to general aviation the 
majority of AOPA members are concerned about the airspace restrictions 
around the National Capital Region. As illustrated in the chart, there 
are two areas of airspace restrictions on general aviation operations 
created since 9/11, the inner ring Flight Restricted or ``No Fly'' Zone 
(FRZ) and the outer Air Defense Identification Zone (ADIZ).
Air Defense Identification Zone Surrounding the 15-Nautical-mile Radius 
        Flight 
        Restriction Zone
Flight Restricted Zone--sensitive areas of the Nation's Capital
    In the days following 9/11 the FAA implemented a total ban on 
general aviation operations in the 15-mile radius FRZ, sometimes 
referred to as the ``No-Fly-Zone'' that extends from ground level to 
18,000 feet around Washington, D.C. In February of 2002, the FAA 
partially lifted this ban by allowing limited operations at College 
Park and Potomac Airports, as well as Hyde Field in Maryland. Until 
then, no general aviation aircraft could operate to or from these 
airports, referred to as the ``DC-3'' unless the aircraft was based at 
the airport prior to 9/11 AND the pilot has undergone FBI 
fingerprinting and criminal history record check before being permitted 
to operate under very strict flight rules. This meant that all three 
general aviation airports were closed to all but 300 based aircraft 
since 9/11.
    For many AOPA members the DC-3 airports were the aviation access 
point to the Nation's Capital, essentially the light aircraft 
operator's Washington Reagan National Airport. That is why we were 
pleased when the TSA in February of this year allowed vetted transient 
pilots to apply to operate at the DC-3 airports. These pilots must 
undergo the same rigorous background check as pilots based at the 
airport. Pilots are required to complete an FBI fingerprint background 
check and security training prior to receiving a unique PIN code to 
operate in the FRZ. Underscoring the importance of these airports to 
AOPA members, just this past weekend, over 180 pilots took advantage of 
the opportunity to complete two of the three required steps by 
participating in a seminar held during AOPA's Fly-In.
Washington, D.C.--29 months after 9/11 the Air Defense Identification 
        Zone 
        Established
    The FRZ was deemed to be sufficient for the 29 months following 9/
11. This was due in part to the large Washington, D.C. Class B airspace 
area over the capital region that requires all aircraft contact air 
traffic control (ATC) and obtain a clearance to enter the airspace. 
Additionally, all aircraft operating in the Class B airspace must 
remain under positive ATC contact.
    However, in early February 2003 over a weekend, the general 
aviation community was told by the TSA that a Washington, D.C. ADIZ 
would be established as a temporary security measure in response to an 
increase to the National Threat Level Alert status and the pending 
hostilities in Iraq.
    The Washington, D.C. ADIZ is huge, encompassing 19 public-use 
airports, over 10,000 pilots, 2,147 aircraft, accounting for nearly one 
million operations per year. Geographically, the ADIZ spans a distance 
of 90-miles, stretching from the tip of West Virginia, across the 
Chesapeake Bay to Maryland's Eastern Shore and south to just outside of 
Fredericksburg, Virginia.
    To fly in the ADIZ, all general aviation aircraft must comply with 
operational procedures similar to those designed for instrument flying. 
Specifically, all pilots must file and activate a flight plan with a 
Flight Service Station (FSS), and obtain a discrete transponder code 
from Air Traffic Control (ATC) or FSS. Once in the air, pilots must 
maintain two-way radio communication with ATC, squawk the assigned code 
on their transponder, and fly according to the flight plan while 
following instructions from the ATC until they are outside the ADIZ 
boundary.
    In the months following the ADIZ implementation, the Federal 
Government subsequently decreased the National Threat Level Alert 
Status to Yellow, and the President declared an end to the major 
fighting in Iraq. The Federal Government has taken steps to eliminate 
all the heightened security measures related to the Code Orange, 
including eliminating an ADIZ over New York City, and a TFR over 
downtown Chicago, IL when the threat level was lowered.
    Despite the fact that the threat level was lowered, more than two 
years ago, the ADIZ remains in place. AOPA has also learned that there 
is currently a proposed rule at the Office of Management and Budget 
(OMB) to make the ADIZ permanent, something that AOPA opposes.
    The ADIZ adversely affects safety, is costly to operate, and is 
negatively impacting pilots and aviation businesses--it doesn't work.
    Because it is such an anomaly, the ADIZ creates operational 
challenges that the government has been unable to remedy. Even 
experienced pilots and aviation officials are often confused in regard 
to its requirements and procedures. As a result, in addition to the 
high-profile violations that occasionally make the news, there have 
been numerous military and police aircraft that have violated the ADIZ 
airspace. This underscores the need for change.
    Operationally, the ADIZ has been a disaster affecting pilots and 
slowly smothering the businesses that employ people in the National 
Capital Region. With the ADIZ in place, the limited resources of the 
government and congested airspace have created unnecessary safety risks 
for both general aviation and commercial flights. Because the ADIZ 
requires that all aircraft be on a flight plan, controller workload has 
quadrupled. The increased workload for controllers consequently often 
diverts controllers from their primary responsibility, traffic 
separation.
    Significant safety concerns also arise for pilots in the air. 
Pilots and ATC report that aircraft forced to circle outside the ADIZ 
while waiting for a discrete beacon code creates safety problems. There 
are safety implications of forcing multiple aircraft to circle and 
loiter over common points while they wait to enter the ADIZ. In one 
instance, a pilot faced an unexpected delay to enter the ADIZ, ran out 
of fuel, and made a forced landing. Thankfully no one was seriously 
injured, but the aircraft sustained extensive damage.
    Inside the ADIZ, a visual flight rule (VFR) pilot's attention is 
divided between his traditional ``see and avoid'' responsibilities and 
compliance with complicated ADIZ requirements. The air traffic 
controllers even have a policy memo making it clear that VFR aircraft 
flying in ADIZ are not receiving traffic advisories--creating confusion 
because the pilots expect this when talking to ATC.
    The ADIZ was designed and is currently staffed as a temporary 
measure. We understand that it costs the FAA $18 million per year to 
operate the ADIZ ($8M for ATC cost and $10M related to enforcement 
actions). The ADIZ requirements have overloaded the ATC system and 
pilots continue to experience extreme difficulties in gaining access to 
the 19-public use airports in the ADIZ. The Air Traffic system was not 
designed to support the increased workload caused by imposing 
Instrument Flight Rule (IFR) operational requirements on VFR traffic 
and the FAA does not have the resources in place to effectively manage, 
for extended periods of time, the volume of general aviation traffic 
requiring access.
    Contacting ATC via landlines has led to delays that ranged from 10 
minutes to over two hours because of the ADIZ. Likewise, pilots 
attempting to obtain discrete codes via clearance delivery on the 
ground also experienced delays of up to 45 minutes while holding at the 
runway threshold with the engine running.
    The current system does not deal well with routine situations that 
occur while flying. Even a small power surge can reset a transponder, 
and as we have seen with the recent violation by a Canadian pilot, 
aircraft do occasionally have difficulties with lightning. The shear 
size of the ADIZ combined with the fact that a minor mechanical 
difficulty can technically cause a pilot to violate the airspace, means 
that the probability of future problems is high. Pilots have difficulty 
meeting ADIZ requirements
    There have been a few high profile ADIZ violations, including the 
May 11 violation by a Cessna 150, and a transponder failure on the 
plane carrying the Kentucky Governor. From January 2003 to July 2004, 
the FAA has tracked 2,000 ``tracks of interest'' ranging from cloud 
formations and flocks of birds to aircraft infringing on the Washington 
airspace.
    For the general aviation community, the May 11 event was 
unacceptable. Certainly the pilot knows that and has apologized. 
However, it also underscores that there must be reason applied as 
Congress and agencies address issues of national security. A small, 
slow flying aircraft does not present a major terror threat. On that 
day, the intercept pilots understood this and responded appropriately.
    AOPA has continually heard from pilots on the difficulties with the 
ADIZ. Below is a list of a few short examples that help highlight the 
issue:

        1. Medical Airlift Pilot Suspended. The operator of a medical 
        helicopter legally departed an airport inside the ADIZ. The 
        helicopter was observed by controllers to be in the vicinity of 
        the airport transmitting the proper squawk code. The aircraft 
        remained in constant communications with air traffic control; 
        however, during the flight the transponder momentarily reset 
        causing it to squawk the wrong code for a period of less than 
        two-minutes. When notified, the pilot immediately corrected the 
        code. Unfortunately, the incident has resulted in the FAA 
        proposing to suspend this medical pilots flight privileges for 
        30-days.

        2. Transponder Failure Near Home Airport. An aircraft departing 
        Leesburg, Virginia was notified by ATC that the transponder was 
        not working. The transponder was cycled several times. The 
        pilot was told to depart the ADIZ, and notified that he would 
        not be allowed back in. The pilot notified departure that the 
        aircraft would return to Leesburg, the base airport for the 
        aircraft in order to have it fixed (aircraft was less than two 
        miles away from the airport at that time). Upon landing, the 
        pilot was notified that landing does not constitute departing 
        the ADIZ and the FAA is pursing an investigation and 
        enforcement action against the pilot.

        3. Two-Hour Wait For Departure Clearance. On a Saturday 
        afternoon, the pilot of an aircraft in the Manassas Virginia 
        area reported trying at least 40 times with a busy phone signal 
        to get thru to Flight Service to file an ADIZ flight plan to 
        depart the area. After calling Potomac Approach, he finally got 
        an answer. The controller told him to call back in five minutes 
        and relayed they were so overloaded they were holding all VFR 
        ADIZ departures for approximately one hour. This pilot 
        eventually got thru and received his transponder code to 
        depart. The whole process took two hours.

    For these reasons and others, AOPA has continually sought changes 
to the ADIZ and continues to believe that a more reasonable approach 
can be taken for lighter, smaller aircraft.
    Congress has supported attempts to make changes to the ADIZ. Vision 
100 (Pub. L. 108-176) contained a section requiring a report to 
Congress on changes in procedures or requirements that could improve 
the operational efficiency or minimize the operational impacts of the 
ADIZ on pilots and controllers. The law also calls for the FAA to 
justify the necessity of the ADIZ. Unfortunately, Federal agencies have 
not been capable of fulfilling the requirements of the law.
    Looking at all this from a security perspective--none of the ADIZ 
violations or ``tracks of interest'' has been tied to terrorism. It 
raises the question, ``Is the ADIZ worth the cost?''
    Is the ADIZ worth the cost?
    As the GAO pointed out in its analysis of general aviation, to 
date, there has been no systematic or detailed assessment analyzing the 
security threat posed by general aviation in the Washington area. 
Further, the government has made no serious attempt to analyze whether 
the ADIZ measurably increases security. Certainly the security of the 
President and Congress are paramount, but security measures such as the 
ADIZ should be imposed only after a careful analysis of the threat and 
the actual benefits of proposed security measures. Maintaining the ADIZ 
costs more than $18 million dollars for the FAA alone and the economic 
losses of the general aviation community are estimated in the millions.
    To improve the data on the economic impacts, AOPA has contracted 
with a firm to conduct an analysis of the cost of the ADIZ and 
anticipate that we will have this completed by the end of the summer. 
The ADIZ is slowly smothering an industry that generates almost $123 
million in economic activity for the Washington region each year, and 
which accounts for more than 60 percent of aircraft operations in the 
National Capital Region. The impact on the local aviation economy has 
been dramatic. The ADIZ has caused reductions in the number of aircraft 
based at airports in the ADIZ, a decrease in flight activity, resulting 
in a dramatic domino effect on businesses that support aviation. The 
last time AOPA surveyed the ADIZ airports we learned that there has 
been a 30 to 50 percent decrease in business at these airports. Fuel 
sales have decreased as much as 45 percent at some airports. If the 
ADIZ is not eliminated or modified, it could permanently jeopardize the 
economic viability of general aviation operations in the Washington 
area.
Government Security Enhancements to the National Capital Region
    Although rumored to be in existence for some time, a story in the 
February 27, 2005 issue of the Washington Post validated that missile 
batteries, intended to shoot down aircraft, augment the National 
Capital Region airspace security. While the hope is these would never 
be necessary, their presence illustrates an additional capability 
available to defend the Region.
    Likewise, last month the Department of Defense implemented its 
Visual Warning System (VWS) that enables them to notify pilots that 
have flown into the protected airspace in the National Capital Region. 
A series of red and green laser lights signals a pilot that they have 
flown into an area without meeting the security requirements necessary 
for entry. This is another tool to protect the seat of the Nation's 
government and is supported by AOPA.
    From a government and industry prospective, both public and private 
resources are limited, requiring that security measures as extreme as 
the ADIZ should not be imposed without a careful cost-benefit analysis. 
Considering the enhancements made to security in the area, the 
experiences since it was implemented and the security enhancements 
outlined later in this statement, AOPA believes it is time to reexamine 
the ADIZ to determine whether its questionable contribution to security 
justifies the high costs it has imposed on the industry. Unless such a 
justification is produced, the ADIZ should be eliminated or modified to 
provide an equivalent level of security in a less intrusive way. 
Improving General Aviation Security.
    Significant progress has been made in enhancing the security of 
general aviation. Nearly 60 percent of AOPA members reported to the 
Association earlier this year that there has been a noticeable increase 
in the security at their home airport. There is also an amazing 
commitment by general aviation pilots to help by serving as the eyes 
and ears for security at local airports through AOPA's Airport Watch 
program. Over 80 percent of the members operating at general aviation 
airports are aware of the program.
    Congress, TSA, FAA, and state legislative and executive branches 
have also acted on general aviation security since 9/11. The 
requirements related to pilots have been significantly increased.
    Government security requirements on pilots have increased 
dramatically since 9/11.
    Shortly after the events of September 11, current and student 
pilots in the FAA's databases were reviewed for links to known or 
potential terrorists. This has now been enhanced by the TSA and FAA 
Airman Revocation regulation that enables the agencies to prevent an 
applicant from receiving a pilot certificate, or revoke one already 
issued to individuals that are deemed to pose a security threat to the 
United States. Through the Aviation and Transportation Security Act and 
Vision 100, Congress specifically directed the TSA to establish 
procedures for notifying the FAA of the identity of individuals known 
to pose a risk to aviation.
    Building on a Congressional requirement for screening of 
individuals receiving flight training in large aircraft (12,500 lbs. 
and above), on September 21, 2004, the TSA issued an interim final rule 
requiring proof of citizenship and background checks for all 
individuals receiving flight training, regardless of the size of the 
aircraft. U.S. citizens must prove citizenship before receiving flight 
training and all foreign flight students are required to complete a 
fingerprint background check process with the TSA. The rule requires 
individuals to validate their status with the TSA for initial training, 
multi-engine training or training to receive an instrument rating.
The Pilot's Credential--Improving This Important Piece of 
        Identification
    Responding to the need for improvements in the pilot's paper 
certificate that does not contain a photograph, AOPA took a rare step 
in February 2002, by asking for an immediate final rule mandating that 
pilots carry, and present for inspection, government-issued photo 
identification. This was viewed as an interim step to be replaced by an 
FAA issued pilot certificate with a photograph. Later that year, 
October 2002, the FAA issued the final rule implementing this 
requirement.
    Work continues on improving the security of pilot certificates. In 
July 2003, the FAA began to issue new difficult-to-counterfeit pilot 
certificates to be used in conjunction with government issued photo 
identification.
    In December 2004, through the leadership of Members of the Senate 
Aviation Subcommittee, the National Intelligence Reform Act (NIRA) of 
2004, mandated the development of an improved pilot certificate that 
includes a photograph of the pilot and the ability to record biometric 
information within one-year. While AOPA supported the concept, we were 
pleased the legislation included provisions to allow the use of FAA 
designees for facilitating the photographic information, rather than 
mandate pilots visiting the limited number of FAA facilities. For 
pilots, this will greatly improve the accessibility of providing this 
information to the FAA and eliminates opposition to the requirement. 
The FAA successfully makes use of designees in many of its requirements 
the one most obvious to pilots is for medical certification.
    It is our understanding that the FAA is developing a rule to meet 
this requirement.
Airports and Aircraft
    The general aviation community and TSA work together to develop 
essential airport security guidelines.
    The TSA has also been active in improving general aviation 
security. One of the major initiatives of the TSA was addressing 
security at the 18,000+ landing facilities across the country. The vast 
difference in size between, for example, a rural Alaska airport and a 
busy general aviation facility near a major metropolitan area 
necessitates that a one-size-fits-all policy will not work and could 
easily consume massive government resources with little security 
benefit. TSA sought to address this reality by developing a set of 
guidelines for all airports.
    In May 2004, the TSA published its ``Security Guidelines for 
General Aviation Airports.'' These guidelines were developed under the 
Aviation Security Advisory Committee and provide a list of recommended 
security best practices for airport operators, sponsors, and tenants. 
The Aviation Security Advisory Committee is a broad-based group 
including victims of terrorist acts against aviation, law enforcement 
and security experts, government agencies, aviation consumer advocates, 
airport tenants and general aviation, airport operators, airline labor 
and management, and air cargo representatives.
    The guidelines also include an assessment tool to discriminate 
security needs at differing airports. This tool, the Airport 
Characteristics Measurement Tool, helps airport operators assess the 
local situation at their airport and helps operators determine which 
security enhancements would be most appropriate.
On the Horizon--Vulnerability Assessments
    In addition, as part of Homeland Security Presidential Directive 7 
(HSPD-7), DHS was required to develop a National Critical 
Infrastructure Protection Plan and Sector Specific Security Plans. 
Section 4001 of Public law 108-458, the ``Intelligence Reform and 
Terrorism Prevention Act of 2004'' required DHS to submit the National 
Strategy for Transportation Security, including the modal security 
plans by April 1, 2005.
    One component of those plans is an assessment of vulnerabilities 
and prioritization of transportation assets. The General Aviation 
Vulnerability Identification Self-Assessment Tool (VISAT) is currently 
in development and is expected to be out in late summer/early fall. 
This tool will:

  <bullet> Capture a snapshot of the general aviation airports baseline 
        security system.

  <bullet> Provide general aviation airport operators with a 
        vulnerability assessment tool.

  <bullet> Assist the airport in the development of a comprehensive 
        security plan. Assessment tools for other modes of 
        transportation, such as regulated ports, have been developed. 
        When complete, the tools will work together to evaluate 
        vulnerabilities across multiple-transportation modes in order 
        to determine resources needed to protect critical 
        infrastructure. TSA recently provided several airport operators 
        the opportunity to demonstrate the tool and to offer feedback.

AOPA and Pilots are Extremely Involved in State and Local Security 
        Efforts
    Virtually all states have taken action to improve general aviation 
security. For many of the Nation's 5,400 public-use airports, the local 
pilots, airport managers, law enforcement and first responders are the 
critical element of general aviation security.
    These airports also range from small grass strips with just a few 
based-aircraft, to large centers of general aviation activity with an 
air traffic control tower. This wide range of airport necessitates a 
broad range of security programs and responses. The Airport Watch 
program has been accepted and promoted by nearly every state in the 
country as an efficient means to enhance security by successfully 
enlisting pilots and other individuals who routinely work or fly at an 
airport.
    Many states and local municipalities have taken additional steps to 
improve the security of their general aviation airports. Below are a 
few examples:

  <bullet> The State of Virginia has provided their general aviation 
        airports with security audit checklists and manuals to help 
        airports assess vulnerabilities and tailor appropriate security 
        measures to their facilities.

  <bullet> The State of Tennessee has helped in distributing more than 
        $1 million in Federal grants to aid general aviation airports 
        statewide for the installation of better security lighting, 
        fencing and gates.

  <bullet> New Jersey requires airports to display emergency contact 
        information, has established a communications system for all 
        airport managers in the state and has issued an RFP for a 
        closed circuit television surveillance system to be installed 
        at many of their public use airports.

  <bullet> In Massachusetts, the Massachusetts Aeronautics Commission 
        has issued a set of security directives for all airports in the 
        commonwealth.

  <bullet> California passed a state law that allows the Division of 
        Aeronautics to provide the entire local match to a general 
        aviation airport receiving an AIP grant for security projects 
        such as fencing, gates, and lighting.

  <bullet> Florida passed state legislation that requires many public 
        use general aviation airports to implement a security plan 
        consistent with guidelines published by the Florida Airports 
        Council.

  <bullet> The State of Washington contracted with a consultant to do a 
        security assessment of public use general aviation airports.

    These efforts are paying off in visible ways. In a recent survey of 
our members, 78 percent of members say their general aviation airport 
has a fence while nearly 60 percent have said they have seen a 
noticeable increase in security implemented at their local airport 
since September 11. The majority of AOPA members reported that they 
lock or store their aircraft inside a locked hangar. In addition, 
nearly all AOPA members say they are familiar with Airport Watch and 
that their local airport has posted signs requesting pilots to report 
all suspicious activity to 1-866-GA-SECURE.
AOPA Educational Efforts
    AOPA is committed to working with the FAA and TSA to educate pilots 
about general aviation security requirements. These efforts include:

  <bullet> Direct e-mails to AOPA members anytime TFRs are issued. In 
        2004, there were 209 TFRs. During this time, AOPA sent 
        4,772,210 e-mails to members alerting them to airspace 
        restrictions and changes

  <bullet> AOPA Web site is continuously updated with all announced 
        airspace restrictions and has devoted an entire section of the 
        front page to educating members on post 9/11 security measures.

  <bullet> AOPA's monthly magazine, AOPA Pilot, runs an airspace story 
        in every issue. This magazine reaches over 400,000 pilots each 
        month. Furthermore, AOPA Pilot runs an expanded feature story 
        on airspace about three times a year.

  <bullet> Air Safety Foundation training programs--AOPA's Air Safety 
        Foundation (ASF) has committed substantial efforts to educating 
        pilots with much of this work focusing on the Washington, D.C. 
        ADIZ. The AOPA Air Safety Foundation has also developed 
        interactive airspace instruction programs and printed 
        advisories and education materials distributed through 
        industry, FAA, and TSA.

    Highlights of the AOPA and ASF work that focus on the ADIZ include:

  <bullet> ADIZ Graphical Web Page--The graphical web page lists all 
        FAA Notams, provides a plane language description and provides 
        a graphical depiction of the airspace, providing a one-stop-
        shop for pilots.

  <bullet> AOPA's Real Time Flight Planner--This interactive program 
        allows pilots to plan a flight from point to point, while 
        seeing the ADIZ and Temporary Flight Restrictions.

  <bullet> ADIZ Checklist--Easy to understand handout that pilots can 
        take into aircraft to ensure compliance with the ADIZ 
        procedures.

  <bullet> ADIZ Frequently Asked Questions--ADIZ questions from pilots 
        and detailed answers with research help from the appropriate 
        Federal agency.

  <bullet> ADIZ Interactive Presentation--An interactive program that 
        specifically highlights ADIZ operations and procedures.

  <bullet> ASF ``Know Before You Go'' Online Course--A course developed 
        to educate pilots on a wide range of security restrictions 
        implemented since 9/11.

  <bullet> ASF ``Airspace For Everyone'' Safety Advisory--A detailed 
        handout that examines the airspace structure and how pilots are 
        expected to operate with-in it, including an explanation on in-
        flight intercept procedures.

  <bullet> Coming Soon--ASF ``Visual Warning System''--A training 
        program designed to educate pilots on the new visual warning 
        light system being used to alert pilots to incursions in the 
        ADIZ.

    Clearly, AOPA is committed to doing all possible to train and 
educate pilots on security related information.
Summary
    The government and the general aviation community have taken 
numerous steps to enhance the security since 9/11. AOPA is committed to 
continue the Airport Watch program, pilot education and outreach, and 
work with Congress, TSA, FAA, and state and local government to 
implement appropriate security measures for general aviation.
    However, there are grave concerns that the pilot community has over 
the continuation of the ADIZ. In its current form it simply does not 
work, jeopardizing safety, imposing significant cost on the government 
and the aviation community for questionable security benefit. With the 
implementation of general aviation security enhancements, AOPA contends 
that it is time to either eliminate or dramatically change the 
requirements of the Washington, DC ADIZ.
    Again, thank you for the opportunity to appear before you this 
morning; I would be pleased to respond to any questions.

    The Chairman. Thank you very much. That's exactly what we 
are starting right now. Unfortunately I have to go to another 
meeting, and I'd ask Senator Allen if he will close this 
meeting. But we do intend to ask that these people come up and 
tell us how we are proceeding on some of these rules. Everyday 
there are containers coming through this city, that came from 
anywhere off shore and that haven't been inspected. There are 
people coming in on trains carrying bags and boxes. There are 
people driving trucks and cars through this city. And somehow 
or another we get just spastic over the fact that someone might 
fly an airplane in here because of what happened on 9/11. And I 
say that 9/11 people overreacted to what the Commission did, to 
the concept of general aviation becoming a weapon of 
terrorists. Anything could become a weapon of terrorists, but 
the concept that there's a threat there in general aviation 
field as there is in containers, there is in regulation of 
trucks and so many other things I think is misplaced. I do 
believe this Committee ought to know what they are planning to 
do. Because if they carry out what they got out there right 
now, it will kill general aviation. And that's no answer.
    And if that happens I'd say Senator to you, I again have to 
get an exception for Alaska. You are not regulating your buses, 
you're not regulating your trucks, you're not regulating your 
trains, you are not regulating your containers, but when you 
regulate aviation you regulate me. Everything in my state moves 
by air. Seventy-eight percent of inter-city travel, inner-city 
travel is by air. And north of Fairbanks everything is by air. 
You can't get to an Eskimo village except by air. Now, are we 
going to put locks on the Cessna's doors in order to take the 
freight into an Eskimo village. There has to be some common 
sense in this, and I hope to work with you to make sure there 
is. Will you finish this for me, please?
    Senator Allen [presiding]. Thank you to our witnesses, and 
I will ask some questions and then turn it over to the Ranking 
Member from West Virginia, Senator Rockefeller. Thank you all 
for your testimony. This is a positive step, and while we 
sometimes focus on some of the practicalities, and logistics, 
we do want to commend TSA for finally belatedly doing this, but 
they have done it. I am glad they have and we don't have to go 
through the whole legislative process, which is very long and 
burdensome. Any of you all could testify.
    Can any of you estimate how much adhering to these new 
regulations costs per flight? If any of you all have you done a 
cost estimate? I know these are preliminary regulations, but 
you have the law enforcement officers, obviously a cost. And I 
know you have views on that. Do you all have any estimate of 
what the average cost per flight would be?
    Mr. Coyne. Well, if I can I think at the low end I mean 
it's conceivable that somebody, for example we have a charter 
operator that I was with yesterday who was hiring law 
enforcement officers as pilots. So they may provide charter 
service in and out of National with already vetted law 
enforcement up front, kind of getting rid of two birds with one 
stone if you will.
    So for that operator the only significant cost depends upon 
where the person is coming from. If the person is departing 
from a portal airport where this pre-screening is relatively 
easy and there's no additional cost for stopping en route at 
another airport, you really can have relatively modest impact. 
Now clearly the preliminary discussions with TSA suggest they 
are going to be charging about $150 dollars both inbound and 
outbound for the cost they are assigning and absorbing, and 
passing onto the users. This is what we hear preliminarily.
    And then in addition there's the additional cost. Now at 
the high end you could have somebody who is literally flying in 
from Los Angeles, and has to stop in Lexington and pick up a 
law enforcement officer there and pay for his time and trouble 
to come into Washington and buy him a plane ticket to get back 
to Lexington. And so you could very easily if you add up all 
those costs in addition to $300 in TSA fees you could very 
easily have a $2,000 or $3,000 added cost. So really it's over 
a range. But I think the average cost to me in my mind, 
preliminarily, is going to be in the $600 to $800 per flight 
additional costs, given the current expectation of the cost of 
law enforcement officers.
    Senator Allen. Do the witnesses generally agree with that?
    Mr. Bolen. I think that's ballpark.
    Mr. Cebula. I think that's the range.
    Senator Allen. As this base plan initially kicks off, how 
much usage do you envision with these requirements? In other 
words, I know that the general aviation community feels like we 
have had a victory. This is a threshold breakthrough victory. 
But as a practical matter, do you foresee a large number of 
your members? You're probably the best Mr. Coyne for it, but 
the point is----
    Mr. Coyne. Yes, I don't want to hog the microphone, I had a 
very good long discussion with this issue with the President of 
Signature yesterday. So I'll pass along her estimates, because 
they are the FBO at National Airport as you know.
    Senator Allen. And lost many, many jobs when they shut 
down, and millions of dollars every year.
    Mr. Coyne. And millions of dollars absolutely. And probably 
won't make any money at all when this is reimplemented. Because 
they're frankly expecting an average of somewhere between 15 
and 20 flights a day, if things go reasonably well. But a wide 
variety of that--I mean there will be some days certainly where 
it's a lot less than that. And obviously you know the maximum 
is 24 inbound and 24 outbound with the 48 slots. We would be--
you know we view this as a first step. This is going to be 
burdensome and expensive and confusing. A lot of people are 
going to be intimidated. In the practical sense, the real 
benefit to our customers and our marketplace are for those 
thousands of people who used to come into Washington on a turn 
around. They want to come in and meet with a government 
official. They want to meet with Congress, they want to get 
home in time for dinner with their family.
    And there were thousands of people every year. This was a 
way to come to Washington whether you were coming from 
Farmville, or Newport News, or whether you were coming from 
Texas or Colorado. You could get to Washington, meet your 
Congressman and get home.
    That still is going to be a challenge under these rules 
because of the need to stop and land at a portal inbound. But--
many people may decide to fly inbound to Dulles, reposition the 
plane to National so they can leave more quickly. It will be 
interesting to see how they use the preliminary rules. But our 
hope is, that as many as who want to, eventually will be 
allowed to use it.
    Senator Allen. That's a creative thought. Several of those 
that you talked about have the pilot a law as a law enforcement 
officer. I suppose an owner of a plane might--could get the 
training and get certified as a law enforcement officer.
    Mr. Cebula. Senator Allen on that issue. It's probably not 
as publicized, there were three airports that were also closed 
for people that weren't based there, to be able to fly into 
that the TSA establish a program in February to allow that to 
happen. We call them the D.C. Three, College Park Airport is 
probably the one that people are most familiar with.
    Last weekend we had an event at our headquarters in 
Frederick were people could receive the training as part of 
vetting the process that they have to go through. And there 
were 180 people that were there. And so there was a lot of 
enthusiasm on behalf of the----
    Senator Allen. To qualify as a law enforcement officer?
    Mr Cebula: No, this was to qualify to be able to fly into 
the D.C. Three. There's a three-part process, and there were 
two parts of it.
    Senator Allen. What are the D.C. Three, just for the 
record?
    Mr. Cebula. I'm sorry it's Hyde Field, Potomac Air Park, 
and College Park Airport. They're all in Maryland. And they're 
the ones that are I guess, kind of our access point to the 
Nation's Capital. Our being the smaller aircraft owner and 
operator.
    I will tell you that there was discussion about what's 
going to happen with someone who is in a police station like 
Philadelphia where they are at a gateway facility. Will they be 
able to have access? I'm not sure that TSA at this point has 
the answer to that question. I have raised it to them as 
recently as yesterday I think that those are issues that they 
are still working through.
    Senator Allen. Well, in the event. I see willingness of 
them to work something like that out for practicality. If you 
had Mr. Coyne in the situation--I fly into Dulles, drive in for 
the association meeting or whatever the meeting is or whatever 
the event is, the celebration, whatever it maybe. How can you 
under these regulations could you reposition the plane to 
Reagan National from Dulles since that is not actually a 
gateway airport? Would they have to fly to Dulles to 
Philadelphia, or Lexington, or something, and get them to fly 
back in?
    Mr. Coyne. We've had discussions with TSA and it's been our 
assumption that a Dulles aircraft that is already in the ADIZ 
zone, where you have TSA officials at Signature or Hawthorne 
out there in Dulles, and you would have no passengers on the 
airplane. It would be a repositioning we call it, in aviation 
where the pilots move the airplane. TSA has expressed to us 
that the pilots, since there would be no passengers on the 
airplane there would be no need for a law enforcement officer, 
just as a dead headed flight with an airline coming in, doesn't 
have Marshalls coming into National with just pilots. The 
pilots have been screened and it's our expectation they'd be 
able to reposition that airplane without any difficultly.
    Senator Allen. Let me ask a final question. Since we've 
brought up all the things that we are concerned about as far as 
practicality and reasonableness such as the limited number of 
portal cities, in here--or portal airports, the cockpit doors, 
and how these law enforcement officers would qualify and so 
forth. Are there--since we do care about security and we all 
agreed that whatever was done, you could have a special 
requirement or requirements for general aviation to Reagan 
National. Are there--and I'll ask you all. You all are the 
experts and represent those who are most familiar with the 
operations. Are there any security precautions that are not 
included in the Administration's plan that you believe ought to 
be made a part of the new security regulations for general 
aviation flights?
    Mr. Coyne. Well I personally believe that the use of a 
biometric registered traveler card that of course has been 
discussed for airline use, and transportation worker use would 
be very useful for facilitating the identification of 
passengers. Ed talked about something similar to this in their 
TSAAC program. If we could develop enough confidence in a core 
group of trusted passengers, then it would seem to me, just 
like we trust people that go through the process of getting 
into the White House and getting--you're submitting your social 
security number and getting permitted to go in and stand next 
to the President.
    We ought to be able to get the same confidence and giving 
them a biometric identification card that can be swiped at each 
FBO, and you have confirmation that that's the only people who 
are on the airplane. That if Yo-Yo Ma got his trusted traveler 
card and he was the only one on the airplane, then it would be 
fine for him to charter a plane and get in and out of National 
to perform at the Kennedy Center, or something like that. And 
so we want to make it relatively easy in the long term, for 
trusted Americans, people who are absolutely not security risks 
in any way shape or form to not to be, you know unnecessarily 
aggravated, and hassled.
    Senator Allen. Thank you, Mr. Bolen?
    Mr. Bolen. Let me just followup on that. With regard to 
Reagan National Airport, I think a determination has been made 
that that is a unique airport. And that there are requirements 
that will be placed on Reagan National that you will not see 
anywhere else in the country, and certainly that's commercial 
airline experience. We think the list of restrictions for 
getting into Reagan National for general aviation are certainly 
comprehensive.
    There are some that we question whether or not it is the 
best way to do it, or if it's workable. But I don't think there 
was a lot left out of there. But I think what Mr. Coyne is 
talking about is that there are other restricted air spaces in 
the country.
    Typically the TFR's which can go over a city and prevent 
general aviation operations for long periods of time even over 
night. There ought to be a way for companies or individuals 
that routinely fly in and out of airports to make themselves 
and their operations well enough known to our Nation's security 
forces to be able to operate whether or not it's restricted air 
space.
    And I think that the commercial airlines have established 
that, the security forces are comfortable with their operations 
and that's why they are allowed to operate in restricted air 
space. What we need, we believe, is to have rules where our 
community can voluntarily provide whatever information, open 
themselves up, change their operations to make the security 
groups comfortable. But then in return for that be able to 
operate. That's the foundation of the TSAAC program that's 
going on in the New York area.
    Senator Allen. Mr. Cebula, do you have any added 
regulations that----
    Mr. Cebula. No, no, I wouldn't have any added regulations. 
The one comment though I would make is, again for the 
individual that owns an aircraft that wants to have access to 
National, I think that is an important issue that really has to 
be accommodated under the TSA rule.
    Senator Allen. And could you--would you all envision an 
owner, I know you represent the pilots and some owners are 
pilots, some owners are not pilots. But if the owner would 
qualify, if the owner took the training, and I guess they would 
have to get firearms training as well. If they got the 
training, would they meet the requirements of these proposed 
regulations?
    Mr. Cebula. Well, the way that I, at least I understand it 
and until the rule comes out we won't know for sure. But the 
way I am understanding it, the pilots of a aircraft flying 
without passengers would not have to have a law enforcement 
officer onboard. So if a pilot is in fact vetted and has gone 
through the screening process, what our desire is that they 
would be able to fly into National, having met that.
    Mr. Coyne. But, I do think your point is a very good one 
because we foresee, certainly a return to what we call based 
aircraft at National airport. Someone who actually keeps their 
plane there. In fact, I kept my airplane there for 15 years 
when I was a Member of Congress. I kept my airplane at National 
Airport and was able to get home for meetings with my family 
and constituents every evening. We would love to see that for 
many people who base their airplanes. There were literally 
hundreds of people who had based aircraft at National Airport. 
For them to have the pilot exemption work for them when they 
fly, that's fine.
    But they are going to want to take their children with 
them. You decide to take your son, or daughter with you does 
that mean I've got to have a law enforcement officer on the 
airplane? So that's an example of the kind of common sense 
rulemaking discussion that we hope we can work with TSA as this 
progresses. But you know, we're just happy that Congress has 
given us a rule, or like any other rule or any other law--I 
mean one thing you learn about pilots, we are an incredibly 
rule following group of people. And we--with the exception of 
two of the dumbest pilots on the planet last month--really 
believe in following rules, and we want to work with you in 
developing rules that will work for us.
    Senator Allen. Thank you sir, Senator Rockefeller?
    Senator Rockefeller. Thank you. Thank you, Senator Allen. I 
guess, I want to go back and make a couple of points, to sort 
of take it back to the larger picture. As Ed Bolen knows we 
have been working with the Taiwanese for 12 years to develop 7 
passenger jets that will cross the United States without 
stopping, and cross the Atlantic without stopping. I think we 
are about there.
    So I understand very well the role of charter, and have to 
use it in West Virginia sometimes, a number of our cities have 
airports but don't have airport service so to speak. Sometimes, 
you have to use the charter. But it is true just to put it back 
into perspective, not talking about just Reagan National, and I 
congratulate you for that Senator Allen, the Senator from the 
unconstitutional, you would put it, State of West Virginia 
congratulates you for that. But it is true that about three-
quarters of all aircraft that take off and land every day are 
general aviation. So that's the bigger picture. There maybe 25-
35 that land per day 24 in, 24 out at Reagan National.
    But that's not the larger picture here. And I've been 
trying to get a hearing on this for--since before the beginning 
of this session. And I haven't been able to. So that's why I'm 
concentrating a little bit more on this area. There are 19,000 
general aviation airports on a nationwide basis. I think that 
would come as a surprise to most people. So it's a huge amount 
of people and about two-thirds of those are single engine. I 
guess one of the things I worry about is that, and I don't 
worry about it negatively, I just worry about it with real 
concern.
    If the Homeland Security folks have attached 12 people to 
this, and a million and the half dollar budget. I think their 
concentration is going to be pretty much on the Reagan National 
experience. I think it's going to have to be because one, it 
will be an intense experience that involves a lot of people 
from Congress and people who people listen to. So, I just got 
to think about all those other situations out there. I'm sorry 
I have no choice.
    Mr. Cebula you indicated in your AOPA testimony that, that 
you believe there's a limited threat involved with the small 
turbo prop airplane. Actually I'm a little unclear about that. 
Senator Stevens was--it looks like we're going to have to 
exempt all of Alaska, to satisfy the Chairman. I don't say that 
insincerely, if three-quarters of traffic within the city, that 
is truly stunning. We don't have subways in West Virginia, but 
we have pretty much everything else. But that turbo prop 
aircraft does not provide a threat. Now, in Iraq a threat is a 
rock, it's an IED could be, a threat is anything. But above 
all, in the minds of American people and I suspect, and I work 
on this all the time in my Committee work that an airline, that 
an airplane is still the matter of choice for biological, for 
chemical, and for worse.
    Mr. Cebula. Senator, could I make a comment to that.
    Senator Rockefeller. When I'm finished.
    Mr. Cebula. OK. Sure.
    Senator Rockefeller. There's no proof of that. But there's 
proof so far, because it's the only experience that we've had 
of a dramatic nature and there was all the single engine crop 
dusting and all of that stuff, that went on, a lot of it 
involved aviation. One can't escape that. And you indicated 
that a light plane, a small plane would carry about 500 pounds 
of material or so. A limited amount of fuel, ``only'' 500 
pounds or so in material. Just to put that in perspective Mr. 
Cebula. I wonder what your view of 500 pounds of plastic 
explosives means. What's your view of 500 pounds of biological 
weapons, which after all you can shut down a coast in a day if 
you belt yourself with smallpox. It hasn't happened, it doesn't 
mean it won't. You got the biological, you got a variety of 
other things. And I just, there's been a tendency from the 
panel to say that we're doing everything we can, but we don't 
like the following rules. And the rules tend to be most of the 
rules.
    Now, I think Mr. Coyne, you may have a point on LEO. I mean 
I don't see--that doesn't strike me as a huge thing. I want to 
look into that. But it strikes me as a point of reasonable 
negotiation. But I think having the right kind of licenses, the 
biometric available licenses, the right kind of checking. I go 
in and out of Hawthorne, and there has been absolutely nothing 
that has changed there, including the crowding I might say. 
There's never crowding that I have experienced there. There's 
just a desk by the little door that you walk out of. Which I 
don't have to sign into. Somebody signs into it and someone is 
sitting at it, and he's got something that sort of looks like 
this.
    I don't know whether that's official, whether that isn't, 
who signs up for what, or who does what. But there has been no 
change. I would agree with the Senator from Virginia that if 
you are going from Dulles to Reagan maybe that's the special 
situation. You don't have passengers that's repositioning, as 
you put it. Maybe it's a special situation, all of it is 
negotiation. But what I worry about, is those 200,000 flights. 
The most of which are general aviation. And all of the 
potential problems that can come with somebody who's not 
stable, somebody who does have a different purpose, somebody 
who did use a charter or rental service, and somebody who did 
so with a purpose. You know flight schools didn't enter into 
our lexicon incidentally. They did so because there were people 
who saw that as a purpose. Just saying that 500 pounds doesn't 
really constitute a threat. I'm kind of interested in why you 
think that?
    Mr. Cebula. The general aviation community prior to 9/11 
security wasn't really in our vocabulary. The only thing we did 
related to security was try to prevent an aircraft from being 
stolen.
    Senator Rockefeller. I'm talking about post 9/11, not 
prior.
    Mr. Cebula. Right. So when 9/11 happened the general 
aviation community have gone through what I think is a pretty 
phenomenal change. So that pilots now, you can't learn to fly 
without at least proving your citizenship. If you are not a 
U.S. citizen you are going to have to go through a background 
check. There's an incredible increase in awareness, whether 
it's by regulation, or whether it's by program, of the need to 
be alert, vigilant, and report those activities. On top of that 
from an airport side the----
    Senator Rockefeller. This is all voluntary, right?
    Mr. Cebula. Not all of those programs, some of them are 
regulations and some of them are voluntary, as the Airport 
Watch Program, as I mentioned. Just to give you a context on 
the Airport Watch Program, 400,000 members, 80 percent of our 
members have a recognition and understand what the program is. 
So I mean it's definitely gotten out there into the community. 
One of the things we did earlier this year is surveyed our 
members about some of the security requirements at the airports 
and 73 percent of them have fences at the airports which I have 
to say was surprising.
    I was surprised and pleased quite frankly that it was quite 
that high. There have been things that have been implemented. 
And we really came from what I think was probably just not very 
strong awareness pre 9/11, and an incredible awareness post 9/
11. There has been a lot that has been done. It also, in the 
context of looking at all of the potential threats to Homeland 
Security what we would ask as the representative for these 
pilots across the country, is that a light aircraft be viewed 
in context with other threats. And in that----
    Senator Rockefeller. I don't understand what that means.
    Mr. Cebula. The threat from whether it's a Ryder truck or 
whether it's containers arriving from overseas.
    Senator Rockefeller. But you see, that way you will never 
have to worry. Because if you are using context with trucks. 
Have you seen the movie Dirty War put out by BBC?
    Mr. Cebula. No.
    Senator Rockefeller. You ought to. It's just a plain white 
truck that closes down, this is a docudrama highly researched, 
no pretty girls, no handsome men, it's a stunning thing to 
watch. It takes about a hour and the half. It shuts down 
central London through a dirty bomb for 30 years, to allow it 
to irradiate, you know to deradiate. And I just say, see it in 
context. Everything is dangerous. I think planes have generally 
tended to be viewed by those who would do us ill as the weapon 
of choice. That doesn't mean they will continue to.
    But that's the way it's been to this point. I just say, 
that putting--when you want to put yourself in context. I think 
what you want to stay, is voluntary as possible. I think some 
of your people will cooperate and some of them won't. I don't 
think it's particularly in the national security interest, 
particularly when you don't have a TSA which either has the 
money, or the people to do commercial properly.
    And in particularly with their 12 and the million and a 
half, which they will probably send on Washington to do any of 
the other 200,000 airlines. Why would the American public, or 
why would a terrorists say, I'm going to pick the commercial, 
and I'm going to ignore private, general aviation. Why would 
they do that when they know that private doesn't have the 
requirements that commercial does. I just pose that to you. I 
think that you want to speak Mr.Coyne?
    Mr. Coyne. Yes, I very much wanted to. Several comments I'd 
like to make. I want to thank you for saying one thing at the 
beginning is that you are worried about this. Believe me, the 
three of us are as worried about it as you are, and more so. 
Because frankly it is something that virtually we think of 
almost every day.
    Speaking also for the FBOs and you've talked about 
Hawthorne, one of our most successful and distinguished member 
companies. I submit to you, that if you tried to go through 
that little desk at Hawthorne and go to a plane other than the 
one that the pilots were expecting you to get on, you would not 
be able to get off the ground at all, even as Senator 
Rockefeller. There are many layers of security especially in 
the charter area. These are rules that we have to obey by law. 
These are not voluntary rules, these are the so called Twelve-
Five rules in charter. And a charter pilot is not allowed to 
depart with passengers other than who he is supposed to depart 
with. And those passengers all have to be pre-screened, and 
then in addition to that, there is the person at the FBO to see 
if there's anybody that doesn't look like they might be a 
passenger.
    But there are several layers of security in the charter 
world.
    Senator Rockefeller. I have never been pre-screened. I've 
never ever----
    Mr. Coyne. No, no. The pilot----
    Senator Rockefeller. And they don't recognize me.
    Mr. Coyne. You've never gotten on an airplane that the 
pilots weren't expecting you to get on. And they knew who you 
were and they knew that you were not a threat. And you would 
have not been allowed to get on a plane where you were not 
expected on a airplane.
    Senator Rockefeller. On the voluntary basis, the pilots, 
and I won't argue with you. They are doing that with a great 
majority of the part.
    Mr. Coyne. No, it's a law requirement basically.
    Senator Rockefeller. I understand but they are going to be 
so long as the system is voluntary.
    Mr. Coyne. It's not voluntary.
    Senator Rockefeller. No, I'm talking about the general 
system.
    Mr. Coyne. You're talking about general aviation pilots?
    Senator Rockefeller. Yes.
    Mr. Coyne. I was talking about a charter plane. When you go 
through----
    Senator Rockefeller. Well I'm talking about----
    Mr. Coyne. And I want you to feel comfortable about the 
charter aircraft that are coming into Piedmont that you get on. 
Nobody else will be allowed to get on that airplane except you. 
And you won't be allowed to get on any other airplane. And if 
there's someone that shows up that's not supposed to be there, 
they will be stopped at that FBO. But I also wanted to address 
your point, that you said where terrorist--aviation aircraft 
are the weapon of choice. Virtually every terrorist act 
involves transportation. And in fact, although aviation was 
involved in 9/11 tragically as we all know. Of course not 
general aviation. Commercial airline aviation.
    But you know, the terrorists used boats to blow up the USS 
COLE. They have used trains in Madrid. They have used subways 
in Japan. They have used ambulances in Israel. They have used 
ordinary trucks, all sorts of vehicles, bicycles have been used 
in Iraq. I mean the terrorists choose transportation in almost 
every case. What they have not chosen in the United States at 
all, is general aviation aircraft. But NBC did. NBC decided to 
pretend to show that it would be easy to go into an aircraft 
FBO and take a private airplane by charter and use it. And the 
operator of the facility in St. Louis, where NBC tried to do 
this, never--the FBI was called within 30 minutes after they 
showed up. Raising all sorts of bells and whistles. We have not 
seen in America, a general aviation aircraft. That's not to say 
that we are not vigilant. We are. The good news is that----
    Senator Rockefeller. What percentage of general aviation is 
chartered?
    Mr. Coyne. What percentage of general aviation----
    Senator Rockefeller. Special, or chartered.
    Mr. Coyne.--is charter? Well of the smaller aircraft a very 
relatively small percentage, except in Alaska. The turbine 
aircraft, of the larger turbine aircraft, probably something 
approaching 25 to 30 percent is charter now. But the good news 
that I want to make you--because I know you are worried about 
this I wanted to give you some good news. And that is, that at 
these thousands of airports across the country there are our 
employees. FBO employees, charter company employees, flight 
department employees, private owners of aircraft, who are at 
that airport. And they are far more worried that any law 
enforcement officer will ever be. Far more worried than any 
other government official would ever be. It's their livelihood. 
And they are constantly looking for something that might be 
wrong.
    And if they see it. The first people to call the FBI about 
the potential of a terrorists was the flight school, 2 weeks 
before 9/11. And it took three phone calls to the FBI as the 9/
11 report showed before Moussaoui was interrogated by the FBI. 
So our guys are America's eyes and ears at airports, and we 
have done an outstanding job making sure that our airplanes are 
not misused.
    Senator Rockefeller. I just want to--it's very easy to make 
that statement. We have done an outstanding job, there have not 
been anymore----
    Mr. Coyne. We're still worried. I mean we continue to be.
    Senator Rockefeller. Well I want you to be very worried.
    Mr. Coyne. We are.
    Senator Rockefeller. Because generally speaking, in a broad 
citizenry if something is voluntary, and you indicated that 
certain things that aren't, but where things are, most people 
will comply, there are however those who will not. And those 
who wish to do harm, will definitely not. Ed.
    Mr. Bolen. Senator, I just wanted to take a moment, you 
talked about the 200,000 airplanes, 600,000 pilots, 19,000 
airports, and that concerns you. I want to assure you it 
concerns us a lot too. And what we did after 9/11, is we 
brought in the security experts and we said, we don't know a 
lot about security, can you look at our industry and tell us 
what you say we need to do to enhance it.
    And what they said to us was, you know what, general 
aviation has got a lot of inherent strings. You need to find 
ways to build on it. For example, every pilot in the United 
States is registered with the Federal Government. That's a good 
thing. Make sure the Federal Government's data base of pilots 
is routinely matched against the Federal Watch Program, the 
Watch List. They said it's great that every pilot has to carry 
around the pilot's license. But you need to do more, you need 
to improve those with biometrics, and we've been working with 
your office to do that. They said these airports are really 
good because they're sort of small communities, with very nosey 
neighbors. Everybody kind of watches everybody else, everybody 
speaks in their own language.
    And so if somebody comes up and doesn't know what a tail 
dragger is. There's a pretty good chance they shouldn't be at 
the airport. So it's good that you've got a community where 
everybody is kind of talking to each other, you've got our own 
language. But what do you do if you don't recognize, if you 
recognize suspicious behavior, who are you going to call. 
That's why we've worked to try to setup the 1-800 number, where 
you can call and report suspicious behavior.
    So there's been a whole list of things that we have done to 
try to build on inherent strengths as we been educated about 
them and to reduce our vulnerabilities. And we're continuing to 
do that today. I think a lot of it has gone under the radar 
because a lot of it has been tweaking, and building on things 
that were already out there. Making improvements on them.
    And I think that it hasn't hit as the massive regulation. 
There have been some like the 12-5 rule, where charter 
operators are now subject to specific regulations they weren't 
subject to before. But a lot of what we have done is built on 
inherent strengths, as we have educated about them from 
security experts. And we think that's taking us in the right 
direction and we'd like the opportunity to continue that.
    Senator Rockefeller. And Ed I understand that and I'll 
conclude Mr. Chairman, simply by saying that, one deals in the 
United States with folks that come from a lot of places, and 
we're glad they're here. And that generally speaking human 
nature tries to do the right thing. The problem is as in the 
field of intelligence, if you make one mistake that's the one 
that lasts. If you don't know nobody notices it. Human nature 
is not always good. There are a lot of people here who wish us 
evil.
    There are a lot of people if you were--Mr. Cebula, I really 
want you to go get that movie, get it on DVD called Dirty War. 
It's not a movie, it's a docudrama. And it is stunning and 
chilling, because Britain thinks--it takes place in London, and 
they think they got all the answers because the average Brit is 
photographed 46 times, videoed 46 times a day.
    They've been dealing with the IRA for all these years, and 
think they've got pretty much the answers and it turns out they 
don't have a single clue. They don't have a single clue, as to 
how to take the person who comes from Pakistan, the person who 
comes from Chechnya, they each bring a little bit, suddenly 
some barrels, a white truck appears, and central London goes 
up. I have to worry about that. I am paid to worry about that. 
So are you. It's just that the TSA has 12 people assigned to 
this, and a $1,500,000 and that doesn't give me a whole lot of 
confidence. But I do understand what you're saying. I 
appreciate your testimony, and the I appreciate the Chairman's 
patience.
    Mr. Cebula. Thank you.
    Senator Allen. Thank you Senator Rockefeller. I want to 
thank all of our witnesses as we conclude. I think all of us do 
commend the new Administration, the TSA making this a positive 
step forward. We are going to work together to make sure it's 
practical and reasonable.
    Moreover, you all have some good ideas. And I do think the 
concept of this biometric identification card, not just for 
general aviation pilots, or passengers, is one that ought to be 
adopted actually in regular commercial aviation for trusted 
travelers as well, to make commercial aviation less of a 
nightmare, stress, and aggravation for individuals. I thank you 
Mr. Bolen, Mr. Coyne, Mr. Cebula, for your testimony. I know we 
will work together with the Administration in a positive way. 
This is good news for jobs, and access to the Nation's Capital. 
I thank you all, and thank my colleague from West Virginia for 
his assistance. And I will note what you are doing if you look 
at the map, people fly in from West Virginia, Ohio, would 
actually have to backtrack to get to Reagan National. Hearing's 
adjourned.
    [Whereupon, at 1 p.m., the Committee was adjourned.]

                                  <all>
</pre></body></html>
